No. 20-_____
In the

Supreme Court of the United States
ROBERT OLAN AND THEODORE HUBER

Petitioners,

v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

ALEXANDRA A.E. SHAPIRO
DANIEL J. O’NEILL
ERIC S. OLNEY
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
BARRY H. BERKE
DANI R. JAMES
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Sixth Avenue
New York, New York 10036
(212) 715-9011
Counsel for Petitioner
Theodore Huber

DONALD B. VERRILLI, JR.
Counsel of Record
ELAINE J. GOLDENBERG
JONATHAN S. MELTZER
JACOBUS P. VAN DER VEN
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, Seventh Fl.
Washington, DC 20004-1357
(202) 220-1100
Donald.Verrilli@mto.com
DAVID ESSEKS
EUGENE INGOGLIA
ALEXANDER BUSSEY
ALLEN & OVERY LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 610-6300
Counsel for Petitioner
Robert Olan

i
QUESTIONS PRESENTED
1. Whether information about a proposed government regulation is “property” or a “thing of value” belonging to a federal, state, or local regulator such that
its unauthorized disclosure can constitute fraud or
conversion under federal criminal law.
2. Whether this Court’s holding in Dirks v. SEC,
463 U.S. 646 (1983), requiring proof of “personal benefit” to establish insider-trading fraud, applies to Title
18 statutes that proscribe fraud in language virtually
identical to the Title 15 anti-fraud provisions at issue
in Dirks.

ii
PARTIES TO THE PROCEEDING
Petitioners Robert Olan and Theodore Huber were
defendants-appellants in the court of appeals.
Respondent United States of America was appellee
in the court of appeals.
Respondents David Blaszczak and Christopher
Worrall were defendants-appellants in the court of appeals.

iii
RELATED PROCEEDINGS
The proceedings directly related to this petition are:
United States of America v. David Blaszczak, Theodore
Huber, Robert Olan, Christopher Worrall, Nos. 20182811, 2018-2825, 2018-2867, and 2018-2878 (consolidated) (2d Cir.), consolidated judgment entered on December 30, 2019; and
United States of America v. David Blaszczak, Theodore
Huber, Robert Olan, Christopher Worrall, No. 17 CR
357 (LAK) (S.D.N.Y.), judgments as to Robert Olan
and Theodore Huber entered on September 21, 2018.

iv
TABLE OF CONTENTS

Page

INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 3
JURISDICTION .......................................................... 3
STATUTORY PROVISIONS INVOLVED .................. 3
STATEMENT............................................................... 3
REASONS FOR GRANTING THE PETITION ........ 11
I.

The Second Circuit’s Ruling That
Government Regulatory Information
Constitutes The Government’s
“Property” And “Thing of Value”
Warrants This Court’s Review ....................... 13

II.

The Second Circuit’s “Personal Benefit”
Ruling Conflicts With This Court’s
Precedents And Disrupts An
Exceptionally Important Area Of The
Law .................................................................. 24
A.

The Second Circuit’s Decision
Conflicts With This Court’s
Precedents ............................................ 25

B.

The Second Circuit’s Decision
Creates Nonsensical Anomalies In
Insider-Trading Law ............................ 31

C.

The Second Circuit’s Decision Will
Harm The Securities Markets
And The People Who Make Those
Markets Function ................................. 33

CONCLUSION .......................................................... 35

v
TABLE OF CONTENTS
(continued)
Page
APPENDICES:
Appendix A: Opinion of the United States
Court of Appeals for the Second Circuit
(December 30, 2019) ................................................. 1a
Appendix B: Sentencing Transcript of the
United States District Court for the Southern
District of New York [excerpt]
(September 13, 2018) .............................................. 53a
Appendix C: Opinion of the United States
Court of Appeals for the Second Circuit
Denying Rehearing (April 10, 2020) ...................... 57a
Appendix D: Relevant Statutes and
Regulations ............................................................. 58a
Appendix E: Jury Instructions [excerpt] ............... 64a

vi
TABLE OF AUTHORITIES

Page(s)

FEDERAL CASES
Bond v. United States,
572 U.S. 844 (2014) .................................... 1, 20, 21
Branch v. Smith,
538 U.S. 254 (2003) .............................................. 28
Carpenter v. United States,
484 U.S. 19 (1987) .........................................passim
Chappell v. United States,
270 F.2d 274 (9th Cir. 1959) ................................ 18
Chiarella v. United States,
445 U.S. 222 (1980) ........................................ 25, 26
Cleveland v. United States,
531 U.S. 12 (2000) .........................................passim
Dirks v. SEC,
463 U.S. 646 (1983) .......................................passim
Dowling v. United States,
473 U.S. 207 (1985) .............................................. 17
Food Mktg. Inst. v. Argus Leader Media,
139 S. Ct. 2356 (2019) .......................................... 30
Johnson v. United States,
576 U.S. 591 (2015) .............................................. 18
Kelly v. United States,
140 S. Ct. 1565 (2020) ...................................passim

vii
TABLE OF AUTHORITIES
(continued)

Page(s)

Marinello v. United States,
138 S. Ct. 1101 (2018) .................................... 21, 24
McDonnell v. United States,
136 S. Ct. 2355 (2016) .......................... 1, 17, 21, 24
McNally v. United States,
483 U.S. 350 (1987) ............................ 13, 18, 22, 24
Morrison v. Nat’l Australia Bank Ltd.,
561 U.S. 247 (2010) .............................................. 35
Musacchio v. United States,
136 S. Ct. 709 (2016) ............................................ 10
O’Hagan v. United States,
521 U.S. 642 (1997) .......................................passim
Pasquantino v. United States,
544 U.S. 349 (2005) .............................................. 28
Pearson v. Dodd,
410 F.2d 701 (D.C. Cir. 1969) .............................. 19
Pinter v. Dahl,
486 U.S. 622 (1988) .............................................. 34
Salman v. United States,
137 S. Ct. 420 (2016) .....................................passim
SEC v. Yun,
327 F.3d 1263 (11th Cir. 2003) ............................ 32

viii
TABLE OF AUTHORITIES
(continued)

Page(s)

Sekhar v. United States,
570 U.S. 729 (2013) ........................................ 16, 28
Skilling v. United States,
561 U.S. 358 (2010) .............................. 1, 18, 22, 24
United States ex rel. Kasowitz Benson
Torres LLP v. BASF Corp.,
929 F.3d 721 (D.C. Cir. 2019) .............................. 19
United States v. Bray,
853 F.3d 18 (1st Cir. 2017) ................................... 32
United States v. Evans,
486 F.3d 315 (7th Cir. 2007) ................................ 32
United States v. Martoma,
894 F.3d 64 (2d Cir. 2017) .................................... 32
United States v. Newman,
773 F.3d 438 (2d Cir. 2014) .................................. 31
United States v. Tobias,
836 F.2d 449 (9th Cir. 1988) ................................ 18
United States v. Truong Dinh Hung,
629 F.2d 908 (4th Cir. 1980) .......................... 20, 23
Yates v. United States,
574 U.S. 528 (2015) .................................. 17, 18, 24
FEDERAL STATUTES
15 U.S.C. 78j(b) ...................................................passim

ix
TABLE OF AUTHORITIES
(continued)

Page(s)

18 U.S.C. 371 ............................................................... 7
18 U.S.C. 641 ......................................................passim
18 U.S.C. 793 ............................................................. 23
18 U.S.C. 794 ............................................................. 23
18 U.S.C. 798 ............................................................. 23
18 U.S.C. 1030(a)(1) ................................................... 23
18 U.S.C. 1341 ........................................................... 25
18 U.S.C. 1343 ....................................................passim
18 U.S.C. 1348 ....................................................passim
18 U.S.C. 1349 ............................................................. 7
18 U.S.C. 1905 ........................................................... 23
18 U.S.C. 3237(a) ....................................................... 34
28 U.S.C. 1254(1) ......................................................... 3
50 U.S.C. 783(a) ......................................................... 23
FEDERAL REGULATIONS
17 C.F.R. 240.10b-5 ............................................passim
LEGISLATIVE MATERIALS
S. Rep. No. 107-146 (May 6, 2002) ............................ 30

x
TABLE OF AUTHORITIES
(continued)

Page(s)

OTHER AUTHORITIES
Peter Bake & Eileen Sullivan, U.S.
Virus Plan Anticipates 18-Month
Pandemic and Widespread Shortages,
New York Times (Mar. 17, 2020),
https://www.nytimes.com/2020/03/17/
us/politics/trump-coronavirusplan.html .............................................................. 20
Maddie Bender, She Blew the Whistle on
Pathogens That Escaped From a
Government Lab. Now She’s Being
Fired, VICE (Feb. 27, 2020),
https://www.vice.com/en_us/article/bv
g5xm/whistleblower-biosafetygovernment-lab-pathogen-leakwashington ........................................................... 20
John C. Coffee Jr., Hush!: The Criminal
Status of Confidential Information
after McNally and Carpenter and the
Enduring Problem of
Overcriminalization, 26 Am. Crim. L.
Rev. 121 (1988) ..................................................... 21
Oliver Darcy, White House says it is
creating ‘very large’ dossier on
Washington Post journalist and
others, CNN Business (Aug. 27,
2020), https://www.cnn.com/2020/
08/27/media/white-house-dossierjournalists/index.html .................................... 21, 22

xi
TABLE OF AUTHORITIES
(continued)

Page(s)

Matthias Gafni & Joe Garofoli, Captain
of aircraft carrier with growing
coronavirus outbreak pleads for help
from Navy, San Francisco Chronicle
(Mar. 31, 2020),
https://www.sfchronicle.com/coronavi
rus/article/aircraft-carrier-captainoutbreak-ship-navy-help15169227.php ....................................................... 20
Anne Marimow, A rare peek into a
Justice Department leak probe, Wash.
Post (May 19, 2013),
https://www.washingtonpost.com/loca
l/a-rare-peek-into-a-justicedepartment-leak-probe/2013/05/19/
0bc473de-be5e-11e2-97d4a479289a31
f9_story.html?utm_term=.907b3e250
b3b ......................................................................... 22
Walter Pavlo, Appeal Court’s Rush On
Insider Trading Decision Will Hurt
Wall Street, Forbes (Jan. 21, 2020),
https://www.forbes.com/sites/walterp
avlo/2020/01/21/appeal-courts-rushon-insider-trading-decision-will-hurtwall-street/#4fedf07e7891 .................................... 33

xii
TABLE OF AUTHORITIES
(continued)

Page(s)

Adam Pritchard, 2nd Circ. Ruling
Makes Messy Insider Trading Law
Worse, Law360 (Jan. 27, 2020),
www.law360.com/articles/1237586/
2nd-circ-ruling-makes-messy-insidertrading-law-worse................................................. 33
Russell G. Ryan, Insider trading law is
irreparably broken, Wash. Post (Jan.
27, 2020),
https://www.washingtonpost.com/
opinions/2020/01/27/insider-tradinglaw-is-irreparably-broken/ ................................... 33
Brette M. Tannenbaum, Note,
Reframing the Right: Using Theories
of Intangible Property to Target
Honest Services Fraud after Skilling,
112 Colum. L. Rev. 359 (2012) ............................. 22
United States v. Bogucki,
No. 18-Cr.-21 (N.D. Cal.), Dkt.162....................... 31
United States v. Stewart,
No. 15-Cr.-287 (S.D.N.Y.), Dkt.109...................... 31
United States v. Walters,
No. 16-Cr.-338 (S.D.N.Y.), Dkt.91, 95.................. 31
U.S. Br., Carpenter v. United States,
484 U.S. 19 (1987) (No. 86-422) ........................... 32

xiii
TABLE OF AUTHORITIES
(continued)

Page(s)

U.S. Br., United States v. O’Hagan,
521 U.S. 642 (No. 96-842) .................................... 32
Andrew N. Vollmer, The Second
Circuit’s Blaszczak Decision: Dirks
Besieged (Jan. 11, 2020)
https://ssrn.com/abstract=3516082 ...................... 29
Eugene Volokh, Journalists Might Be
Felons for Publishing Leaked
Governmental “Predecisional
Information,” Reason (Jan. 27, 2020),
https://reason.com/2020/01/27/journal
ists-might-be-felons-for-publishingleaked-governmental-predecisionalinformation/ .................................................... 19, 20

INTRODUCTION
In recent years, this Court has been forced—again
and again—to rein in overzealous enforcement of the
federal criminal law by prosecutors whose charging decisions, particularly in fraud cases, reflect little regard
for the statutory text enacted by Congress, principles
of fair notice, and the federal-state balance. E.g., Kelly
v. United States, 140 S. Ct. 1565 (2020); McDonnell v.
United States, 136 S. Ct. 2355 (2016); Bond v. United
States, 572 U.S. 844 (2014); Skilling v. United States,
561 U.S. 358 (2010). This is another such case. The
government secured convictions here, which a divided
Second Circuit panel affirmed, by interpreting federal
fraud and conversion statutes in ways that vastly exceed the limits imposed by the statutes’ language and
this Court’s precedents.
First, the panel majority endorsed the government’s novel theory that individuals commit criminal
fraud and conversion by disclosing or obtaining confidential government information about potential regulations, even though the information has no economic
value to the government. As Judge Kearse explained
in her dissent, however, and as this Court’s recent decision in Kelly confirms, treating that kind of government information as property conflicts directly with
Cleveland v. United States, 531 U.S. 12 (2000).
Second, the panel majority erased the personalbenefit requirement from criminal insider-trading
law, concluding that individuals commit fraud by using confidential information in making investment decisions even absent any proof that the source of the information received a personal benefit in exchange for
the disclosure. That decision is irreconcilable with
four decades of this Court’s precedents, from Dirks v.
SEC, 463 U.S. 646 (1983), to Salman v. United States,

2
137 S. Ct. 420 (2016), which establish that trading on
inside information is not fraudulent unless the person
who provided the information disclosed it for a “personal benefit.”
Both of those rulings cry out for review by this
Court.
Deeming the unauthorized disclosure of
nonproprietary government information to be a theft
of property stretches the concepts of fraud and conversion far beyond what the text of the relevant statutes
will bear. The result is to criminalize not only the routine activities of investment analysts but also those of
whistleblowers, journalists, and publishers. Indeed, if
leaked government information constitutes government property, wire fraud and criminal conversion occur many times daily in Washington, D.C., and state
capitols across the country.
In like manner, the Second Circuit’s elimination of
the personal-benefit requirement transforms the prohibition on insider-trading fraud into a sweeping and
amorphous prohibition on all trading in material nonpublic information, no matter how obtained. For
nearly 40 years, courts, prosecutors, and market participants have understood that the personal-benefit requirement this Court established in Dirks and reaffirmed in Salman marks “the line between permissible
and impermissible disclosures and uses” of nonpublic
information. Dirks, 463 U.S. at 658 n.17. The ruling
below makes all of that precedent irrelevant—a true
sea change in the law. That change deprives financial
professionals of Dirks’s clear “guiding principle,” id. at
657-658, thereby exposing them to imprisonment
merely for doing their jobs and chilling the analysis of
information on which the health of securities markets
depends. And that change also creates bizarre anomalies, criminalizing conduct as to which the SEC—the

3
expert agency charged with regulating the securities
markets—could not bring a civil enforcement action.
OPINIONS BELOW
The Second Circuit’s opinion is published at 947
F.3d 19. The district court did not issue a written opinion on the questions presented.
JURISDICTION
The Second Circuit issued its opinion and entered
judgment on December 30, 2019, Pet.App.1a, and denied rehearing on April 10, 2020, Pet.App.57a. This
Court’s jurisdiction is invoked under 28 U.S.C.
1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are reproduced
in the appendix to this petition. Pet.App.58a.
STATEMENT
1. a. The Centers for Medicare & Medicaid Services (“CMS”) establishes the rates at which Medicare
and Medicaid reimburse healthcare providers for services. Each year, the agency reevaluates those rates
in notice-and-comment proceedings and promulgates
new price-setting regulations. C.A.App.474. CMS’s
reimbursement rates are a subject of great public interest. They determine the cost of healthcare services
provided to tens of millions of Americans and affect
many members of the healthcare industry.
During the period in which the events at issue occurred, CMS relied on an exchange of information with
interested parties to better inform its rulemaking process. That dialogue occurred both before and after
CMS formally proposed rules for public comment, including in private conversations. E.g., C.A.App.515-

4
516, 779-781, 964. Information flowed in both directions: CMS gathered input about particular procedures and the equipment, cost, and time required to
provide them, and it shared non-public information
relevant to draft regulations, including pricing methodologies. C.A.App.862-864; see C.A.App.523, 641,
857, 2772-2774.
CMS exchanged information with patients, hospitals, and healthcare companies as well as with members of Congress, congressional staff, and industry analysts. C.A.App.527-528, 849, 2602. For example, industry analysts advocated positions to CMS and
closely tracked CMS’s actions and anticipated actions.
Those analysts’ publications openly referred to their
“conversations with key officials and staff” at CMS
and, on that basis, made predictions about what actions CMS was likely to take. C.A.App.2992-2994; see,
e.g., C.A.App.2957-2959, 2964-2971, 3006-3014; see
also C.A.App.849 (CMS official: consultants “share information about CMS’s policies and try to inform us
about * * * policies that CMS should adopt”).
CMS had a generally worded, internal non-disclosure policy for confidential information. But CMS’s
practice of selective disclosure made it exceedingly difficult for members of the public to know who was authorized to disclose such information or whether a particular piece of confidential information had been released on an authorized basis. C.A.App.477-478, 493,
538-539, 2043-2045.
b. Petitioners Olan and Huber were analysts at
Deerfield, a healthcare-focused investment fund.
Their job was to “ferret out and analyze information”—
a role “necessary to the preservation of a healthy mar-

5
ket.” Dirks, 463 U.S. at 658. They made recommendations to others at Deerfield but did not make trading
decisions. C.A.App.553, 570.
Defendant David Blaszczak, a former CMS employee, was retained by various investor clients, including Deerfield, as a consultant. C.A.App.553, 570,
638, 812, 827. Deerfield’s legal and compliance officers
knew that he continued to speak to his former CMS
colleagues and approved use by Deerfield’s analysts of
the information he provided. C.A.App.810-825, 983986, 2035-2037; see C.A.App.821 (discussing that
Blaszczak “spoke to officials at CMS”). Olan and Huber made no secret of the fact that Blaszczak transmitted information to Deerfield. They circulated the information by email to a large group that included inhouse lawyers and compliance personnel; discussed
Blaszczak’s communications and shared investment
recommendations with the general counsel and others;
and memorialized their analysis in a permanent database that anyone at Deerfield could access. E.g.,
C.A.App.553-560, 650-651, 821, 1995-1998.
c. It was in that context that the alleged unlawful
tip underlying this prosecution occurred. On May 9,
2012, while CMS was considering its annual proposed
reimbursement rule for radiation-oncology treatments, Blaszczak predicted to Deerfield analyst Jordan Fogel that CMS would cut those reimbursement
rates “in half”—consistent with new, public information from a medical association about the length of
those treatments.
C.A.App.1985.
Fogel relayed
Blaszczak’s prediction by email to a large group at
Deerfield, including Huber and Olan. Ibid. Petitioners treated Blaszczak’s prediction not as definitive “inside” information, but as legitimate intelligence. The
following day, Deerfield placed an order to short

6
shares
of
a
C.A.App.2574.

radiation-device

manufacturer.

The government alleged that Blaszczak based his
prediction on confidential information he received
from a CMS employee, defendant Christopher Worrall.
Pet.App.4a. According to the government, information
flowed from Worrall at CMS to Blaszczak, Worrall’s
former colleague, and then to Fogel and to petitioners.
It is undisputed that Fogel, Olan, and Huber had no
idea who Worrall was, much less what if any information he might have provided to Blaszczak, why he
provided it, or whether he received any benefit in exchange for providing it. C.A.App.556, 1010. 1
When the proposed rule issued, CMS proposed a
lower reimbursement rate based on reduced treatment
times, but applied it only to certain facilities not responsible for most radiation treatments. Blaszczak
had incorrectly predicted that the reduction would apply across the board. C.A.App.578-579, 659-668, 25672570.
Deerfield made approximately $2.7 million in profits on the trades—an amount the firm considered disappointing. C.A.App.659, 2573-2578, 2587-2925. Because Olan’s and Huber’s compensation was based on
seniority and overall firm performance, not particular
trades, their share of those profits was miniscule.
C.A.App.979, 2924.
2. a. The government charged Olan and Huber
with violating Section 10(b) of the Securities Exchange
1 Olan and Huber also recognized that Blaszczak was “wrong at
least as much as he was right.”
C.A.App.964-966; see
C.A.App.606. They created analyses based on the view that CMS
would not do what Blaszczak predicted (Olan put that chance at
85%, Huber at 80%). C.A.App.3056-3064; see C.A.App.966, 2973.

7
Act of 1934 and Rule 10b-5 (Title 15 fraud provisions),
as it typically does when prosecuting alleged insidertrading fraud. To prove fraud by remote tippees such
as Huber and Olan under those provisions, the government must show that the source of confidential information disclosed it in exchange for a personal benefit
and that the tippees knew of the benefit. Salman, 137
S. Ct. at 423, 426-428. But here the government also
charged the alleged insider trading in additional ways,
bringing Title 18 charges for defrauding the government of its property in violation of the federal wirefraud statute (18 U.S.C. 1343); conversion of government property (18 U.S.C. 641); Title 18 securities
fraud (18 U.S.C. 1348); and conspiracy (18 U.S.C. 371,
1349).
In adding those Title 18 charges, the government
sought to extend existing law in two ways. First, the
government contended that confidential government
information about proposed regulations—in this case,
predictions about what reimbursement rates CMS
would propose—constitutes government property under the wire-fraud, conversion, and Title 18 securitiesfraud statutes. The government introduced no evidence that the information here had economic value to
the government or that its disclosure caused the government economic loss, arguing only that disclosure
could increase lobbying or otherwise make the regulatory process less smooth. C.A.App.504.
Second, the government contended that to establish insider trading under Title 18’s fraud statutes—
as opposed to under Title 15—it was not required to
prove that the source of the information sought any
personal benefit in exchange for disclosure, or that petitioners knew that the information was disclosed for
such a benefit. The government contended that it

8
needed to prove only that Olan and Huber knew that
the information originated in an unauthorized disclosure from a government source.
The government presented no evidence that Olan
or Huber knew the identity of the source or the nature
of the circumstances in which Blaszczak allegedly obtained confidential information about the proposed
rule, let alone that they knew of any personal benefit
to a CMS employee. E.g., C.A.App.556, 1010. 2
b. The district court instructed the jury that “information about CMS’s proposed radiation oncology rule”
was U.S. property for purposes of Section 641, Title 18
securities fraud, and wire fraud. Pet.App.64a-67a,
89a-91a.
The court also instructed that Olan and Huber
could be guilty of Title 15 securities-fraud charges only
if they had knowledge that a “tipper” at CMS “disclosed the information in violation of a duty of confidentiality and that it was disclosed in exchange for a
personal benefit.” Pet.App.82a-83a. Olan and Huber
requested that the court give the same instruction
with respect to the Title 18 fraud counts, but the court
refused. Pet.App.9a.
2 The government relied principally on Fogel’s testimony. Fogel,
who cooperated, claimed that he intuited from Blaszczak’s level
of assurance that his information was confidential, describing
this as a “subliminal wink-wink,” C.A.App.662; see C.A.App.557,
582, 599—but admitted that Blaszczak often acted “as if he was
certain when he really wasn’t.” C.A.App.661. Unable to provide
anything more specific, Fogel responded “yes” to a vague question
asking whether he discussed “illegal edge” with Huber and Olan.
C.A.App.567. Moreover, Fogel was unreliable: he changed his
statements, C.A.App.617, and lied to the government repeatedly,
C.A.App.547-548, 601, 620-630, including about ongoing drug,
gambling, and fraud crimes, C.A.App.549, 601-602, 621-628.

9
Olan and Huber moved for acquittal on multiple
grounds, including that (1) the purportedly confidential CMS information was not property within the
meaning of the Title 18 statutes, and (2) there was no
evidence that they knew any CMS tipper disclosed information for a personal benefit and therefore no evidence of any fraud. Dkt.251 (S.D.N.Y.). The district
court reserved decision.
The jury acquitted all defendants of all Title 15
charges—undoubtedly because no evidence established any personal benefit to any tipper, much less
“tippee” knowledge of any such benefit—but convicted
them of wire fraud and conversion. The jury also convicted petitioners of the Section 1348 and conspiracy
charges. Pet.App.2a, 9a-10a, 87a-90a, 96a-108a. The
district court denied the motions for acquittal orally at
sentencing and sentenced both Olan and Huber to
three years of imprisonment and a substantial fine.
Pet.App.10a, 53a-56a.
3. On December 30, 2019, a divided panel of the
Second Circuit affirmed, with Judge Kearse dissenting.
a. The panel majority endorsed the government’s
proposed expansion of federal criminal law. First, the
majority held that confidential information regarding
agency deliberations over a proposed regulation is government “property” under Sections 1343 and 1348 and
a “thing of value” under Section 641. Analogizing to
confidential proprietary information sold by a private
business, the majority asserted that “CMS’s right to
exclude the public from accessing” regulatory information “implicates the government’s role as property

10
holder,” particularly given that the government “invests * * * resources into generating and maintaining
* * * confidentiality.” Pet.App.16a-17a. 3
Second, the majority concluded that a Title 18 insider-trading conviction does not require proof of a tipper’s benefit or tippee knowledge of that benefit. Eschewing any analysis of the statutory text, which mirrors that of Section 10(b)/Rule 10b-5, the majority
stated that the personal-benefit test is “premised” on
Section 10(b)’s “statutory purpose” rather than constituting (as this Court has long held) the very thing that
makes insider trading “a scheme to defraud.”
Pet.App.22a. The majority also asserted that personal
benefit is irrelevant to an “embezzlement theory of
fraud.” Pet.App.23a. The majority acknowledged that
its decision permits the government to “avoid the personal-benefit test altogether” simply by charging insider trading under Title 18 rather than Title 15.
Pet.App.25a.
b. Judge Kearse dissented. She concluded that a
defendant who uses information about “the substance
and timing” of “a planned CMS regulation” does not
obtain government “property” or convert a “thing of
value” to the government. 4 Pet.App.46a-47a.
As Judge Kearse explained, this Court’s holding in
Cleveland establishes that “property” does not encompass a regulatory “right[] of * * * control,” and—“[l]ike
the gaming licenses in question in Cleveland * * * —
As the majority explained, the court of appeals was required to
adjudicate petitioners’ sufficiency challenge on that issue by determining what the governing legal principle actually is, unconstrained by the jury instructions. Pet.App.13a (citing Musacchio
v. United States, 136 S. Ct. 709, 715 (2016)).
4 On that basis, Judge Kearse would have reversed or vacated all
of Olan’s and Huber’s convictions. Pet.App.50a.
3

11
the predecisional CMS information has no economic
impact on the government until after CMS has actually decided what regulation to issue and when the
regulation will take effect.” Pet.App.49a. She reasoned that “CMS is not a business; * * * it is a regulatory agency” that “adopts its preferred planned regulation” regardless of whether information about those
plans becomes public. Pet.App.46a-47a; see ibid.
(“CMS does not seek buyers or subscribers; it is not in
a competition; it is an agency of the government that
regulates * * * whether or not any information on
which its regulation is premised is confidential”). Accordingly, she concluded, confidentiality does not “enhance[] the value of the information” to CMS, and disclosure does not “deprive[]” the agency “of anything
that could be considered property.” Pet.App.48a.
c. On April 10, 2020, the Second Circuit denied petitions for rehearing. Pet.App.57a. On July 14, 2020,
following this Court’s decision in Kelly, the Second Circuit stayed its mandate. 5
REASONS FOR GRANTING THE PETITION
The Second Circuit’s decision in this case vastly expands the scope of federal criminal law in disregard of
the statutory text, this Court’s precedents, and fundamental, constitutionally based principles of interpretation.
The divided panel’s holding that confidential government information about regulatory actions is property under the federal fraud and conversion statutes is
irreconcilable with the text of those provisions, which
Just hours after issuance of the 2-1 decision in this case, Judge
Droney, who had joined Judge Sullivan in the majority, retired.
Judge Walker subsequently joined the panel when it stayed the
mandate.
5

12
criminalize conduct that causes economic loss. That
holding directly conflicts with this Court’s decisions in
Cleveland and Kelly, both of which unanimously and
unambiguously foreclose wire-fraud prosecutions for
conduct that causes the government no economic
harm. It resurrects the boundless “honest services”
theory of fraud that this Court has repeatedly rejected.
And it criminalizes a vast swath of routine behavior on
the part of government officials and employees, journalists, and analysts. It gives the government a free
hand to prosecute—and thus intimidate into silence—
whistleblowers, the journalists with whom they speak,
and the media entities that publish their disclosures.
Indeed, one cannot read a daily newspaper without encountering examples of conduct that would be wire
fraud and criminal conversion under the Second Circuit’s interpretation of those provisions.
The panel’s elimination of the personal-benefit requirement (and concomitant knowledge requirement
for tippees) in Title 18 insider-trading cases is equally
cavalier in its disregard for the statutory text and this
Court’s precedents, and equally pernicious in the consequences it threatens. This Court held four decades
ago—and reaffirmed just four years ago in Salman—
that insider trading constitutes fraud only when an insider or other fiduciary discloses confidential information in exchange for a personal benefit. By eliminating that requirement, the Second Circuit has radically expanded the scope of criminal insider trading in
a manner that defies this Court’s precedents and
erases the clear line that separates prohibited insider
trading from the analytical work that is not only lawful but “necessary to the preservation of a healthy market.” Dirks, 463 U.S. at 658-659 & n.17.

13
Most fundamentally, it is the responsibility of Congress—not overzealous prosecutors or courts implementing their own views of sound public policy—to determine what is and is not a federal crime. The Second
Circuit’s decision transgresses that bedrock principle.
I.

The Second Circuit’s Ruling That
Government
Regulatory
Information
Constitutes The Government’s “Property”
And “Thing of Value” Warrants This
Court’s Review

1. a. The Second Circuit’s decision on the meaning
of “property” and “thing of value” in the federal fraud
and conversion statutes directly conflicts with this
Court’s decisions in Cleveland and Kelly. Pet.App.44a52a (Kearse, J., dissenting). 6 This Court’s plenary review is warranted.
In Cleveland, this Court ruled that lying to obtain
a state license is not federal criminal fraud because licenses are not government “property.” 531 U.S. at 15.
Emphasizing that the fraud statutes do not extend beyond “traditional concepts of property,” the Court reasoned that if the government’s “core concern is regulatory” rather than “economic,” the object of that concern
“is not ‘property’ in the government regulator’s hands.”
Id. at 20-22, 24. The Court therefore concluded that a
“government regulator” does not “part[] with ‘property’
when it issues a license,” even if the government has
“significant control” over licenses and “receives a sub-

To violate Section 1343 (wire fraud) or Section 1348 (Title 18
securities fraud), a defendant must defraud someone of money or
property. McNally v. United States, 483 U.S. 350, 358-360 & n.8
(1987). To violate the conversion statute as charged here, a defendant must convert a “thing of value.” 18 U.S.C. 641.
6

14
stantial sum of money” for processing, issuing, or continuing them. Id. at 20-22. As the Court explained,
the government’s “intangible rights of allocation, exclusion, and control amount to no more and no less
than [the State’s] power to regulate,” and licensing decisions therefore “implicate[] the Government’s role as
sovereign, not as property holder.” Id. at 23-24.
In Kelly, which set aside convictions for rerouting
traffic on the George Washington Bridge, this Court
reaffirmed Cleveland’s holding that “a scheme to alter * * * a regulatory choice is not one to appropriate
the government’s property.” 140 S. Ct. at 1572. The
Court explained that “allocating lanes as between different groups of drivers” on the bridge is a “run-of-themine exercise of regulatory power” to allocate and control resources. Id. at 1572-1573 (emphasis added).
And the Court emphasized that, although the scheme
required “the time and labor of Port Authority employees,” that sort of “incidental byproduct” is not enough
to show that “property fraud” occurred—because
“[e]very regulatory decision,” including the allocation
of licenses in Cleveland, involves some employee labor.
Id. at 1573-1574.
The Second Circuit’s decision cannot be reconciled
with those decisions. It is difficult to imagine something more “quintessential[ly] * * * regulatory,” Kelly,
140 S. Ct. at 1572-1573, than predictive information
about what regulation the government may propose.
The government has no “traditional” economic interest
in such regulatory information, Cleveland, 531 U.S. at
24, which the government does not sell. And because
the government can—and did—issue exactly the regulation it planned regardless of the public’s advance
knowledge, disclosure of information about a regula-

15
tion’s contents does not deprive the government of anything of value to it. Pet.App.48a-49a (Kearse, J., dissenting). In short, the government’s decision about
how to allocate access to that information, and when
to release it, no more constitutes government property
than a decision about who should obtain a license or
who should be able to drive in a particular lane of a
public road. See Kelly, 140 S. Ct. at 1572. The unauthorized disclosure of such confidential government information simply is not a property crime.
The majority here undertook no analysis of
whether such information is a “traditional” form of
property. Pet.App.15a. Instead, it rested its conclusion “most significant[ly]” on the government’s “‘right
to exclude’” others from learning that information. Id.
at 16a. But Cleveland held that the “right to exclude
in [a] governing capacity is not one appropriately labeled ‘property.’” 531 U.S. at 24 (emphasis added).
Kelly held the same thing, explaining that a regulatory
exclusion of certain segments of the public from certain traffic lanes did not involve any government property right. See 140 S. Ct. at 1572-1573.
The majority also posited that the regulatory information here is property because the government “invests time and resources into generating and maintaining [its] confidentiality.” Pet.App.17a. But Cleveland held that such ancillary economic costs, like the
costs of processing a license, are not “sufficient to establish” a “property right.” 531 U.S. at 22. And Kelly
likewise concluded that “incidental” costs, such as employee time and compensation associated with making
a regulatory change, are irrelevant to whether the government has been deprived of any property. See 140
S. Ct. at 1573-1574.

16
In light of those stark conflicts, the majority was
able to rule the way it did only by arrogating to itself
the power to limit this Court’s decision in Cleveland to
its facts. For instance, the majority said that Cleveland had little effect on the “existing legal landscape”
and that “Cleveland’s ‘particular selection of factors’
did not establish ‘rigid criteria for defining property
but instead * * * provid[ed]” only “permissible considerations.” Pet.App.15a-16a (citation omitted). Those
characterizations cannot be reconciled with Cleveland,
or with subsequent decisions of this Court that relied
on Cleveland. See Sekhar v. United States, 570 U.S.
729, 737 (2013); see also id. at 740-741 (Alito, J., concurring in judgment) (“Cleveland * * * supports the
conclusion that internal recommendations regarding
government decisions are not property.”). Among
those, of course, is Kelly, which made Cleveland the
centerpiece of its reasoning. See 140 S. Ct. at 15721574.
In short, under the Second Circuit’s analysis, both
Cleveland and Kelly would have come out the opposite
way. And that conflict with Cleveland and (now) with
Kelly is not, as the majority suggested, obviated by the
earlier decision in Carpenter v. United States, 484 U.S.
19 (1987), which concluded that “[c]onfidential business information has long been recognized as property.” Id. at 26 (emphasis added). As Judge Kearse’s
dissent explained, Carpenter addressed a business’s
self-evident economic interest in selling information,
which a government regulator lacks. Pet.App.47a (unlike the “victim in Carpenter * * * CMS does not seek
buyers or subscribers”; it “regulates”); see Carpenter,
484 U.S. at 25. Tellingly, Cleveland distinguished
Carpenter on precisely that basis. See 531 U.S. at 19,
23.

17
Moreover, as Judge Kearse concluded, the majority’s erroneous interpretation of Cleveland equally infects its ruling that regulatory information is a “thing
of value” that can be converted. Pet.App.47a (Kearse,
J., dissenting). “Thing of value” cannot have a broader
meaning than “property,” 18 U.S.C. 641 (referring to
“thing of value” as “property” and requiring monetary
value), and must be read in light of the other terms
with which it keeps company (“record, voucher,
money”). E.g., Yates v. United States, 574 U.S. 528,
534-544 (2015). The majority cited no authority for the
proposition that regulatory information is a propertylike “thing of value” capable of being “converted” in violation of Section 641, and Cleveland and Kelly make
clear that it is not.
b. The Second Circuit’s decision also conflicts with
this Court’s decisions in an additional respect: it flouts
bedrock principles of statutory interpretation that this
Court has repeatedly said are mandatory.
This Court has explained that federal criminal
statutes should not be read to authorize prosecutions
raising “significant constitutional concerns,” McDonnell, 136 S. Ct. at 2372, or otherwise encroaching into
“wide expanses of the law which Congress has evidenced no intention to enter by way of criminal sanction,” Dowling v. United States, 473 U.S. 207, 227
(1985); see Cleveland, 531 U.S. at 25-26. The decision
below authorizes both of those things: it criminalizes
any speech about the inner workings of federal, state,
or local government that involves unauthorized disclosure of confidential government information.
It
thereby subjects journalists, whistleblowers, and others carrying out routine and beneficial activities to arbitrary federal prosecution and harsh criminal penalties. The Second Circuit inexplicably dismissed those

18
problems as mere “enforcement policy concerns.”
Pet.App.43a.
The Second Circuit also ignored this Court’s insistence on construing criminal statutes narrowly and
consistent with lenity to avoid an interpretation that
“fails to give ordinary people fair notice of the conduct
it punishes” or is “so standardless that it invites arbitrary enforcement.” Johnson v. United States, 576
U.S. 591, 595 (2015). The Court has been particularly
vigilant in enforcing those interpretive principles in
fraud cases—for instance, limiting mail and wire fraud
to traditional property, see McNally, 483 U.S. at 375;
Cleveland, 531 U.S. at 24-25, and paring honest-services fraud to its “core” to avoid vagueness concerns,
Skilling, 561 U.S. at 404; see Yates, 574 U.S. at 548
(“harsher” reading of criminal statute impermissible
unless Congress has “spoken in language that is clear
and definite”) (citation omitted).
2. Review also is warranted because the Second
Circuit’s decision conflicts with decisions of other circuits, none of which has ever found government regulatory information like that at issue here to be property or a thing of value within the meaning of federal
criminal law.
In United States v. Tobias, 836 F.2d 449 (9th Cir.
1988), the Ninth Circuit held that classified information is not a “thing of value” under the conversion
statute. Id. at 451. Applying Chappell v. United
States, 270 F.2d 274 (9th Cir. 1959), the court explained that “section 641 should not be read to apply
to intangible goods[] like classified information,”
which would raise “[F]irst [A]mendment problems.”
836 F.2d at 451.

19
Similarly, in Pearson v. Dodd, 410 F.2d 701 (D.C.
Cir. 1969), a common-law conversion case involving information taken from a Senator’s office, the D.C. Circuit set forth a “general rule” that “ideas or information are not subject to legal protection” as property
that can be converted. Id. at 707-708. The court of
appeals made exceptions only for information “sold as
a commodity on the market,” for “ideas * * * formulated with labor and inventive genius” (such as “literary works or scientific researches”), and for “instruments of * * * commercial competition,” none of which
were at issue. Ibid. (footnotes omitted); see United
States ex rel. Kasowitz Benson Torres LLP v. BASF
Corp., 929 F.3d 721, 726-728 (D.C. Cir. 2019) (information not government “property” when government
“does not acquire [the] information for its own economic benefit but to carry out its regulatory mission”).
Those decisions are irreconcilable with the Second
Circuit’s decision here. Had the Ninth Circuit’s rule or
the D.C. Circuit’s reasoning been applied in this case,
petitioners’ convictions would not have survived.
3. Finally, the Second Circuit’s interpretation of
“property” and “thing of value” will have untenable
consequences.
a. First, that interpretation amounts to “a sweeping expansion of federal criminal jurisdiction in the absence of a clear statement by Congress.” Cleveland,
531 U.S. at 24. If the ruling below is allowed to stand,
then disclosure of confidential regulatory information
by a whistleblower who reveals government malfeasance, a journalist who reports that revelation, and a
reformer who publicizes it would constitute violations
of the federal fraud and conversion statutes punishable by decades in prison. See, e.g., Eugene Volokh,

20
Journalists Might Be Felons for Publishing Leaked
Governmental “Predecisional Information,” Reason
(Jan. 27, 2020). 7
Such disclosures are commonplace—indeed, stories
about them are published daily. See, e.g., Peter Bake
& Eileen Sullivan, U.S. Virus Plan Anticipates 18Month Pandemic and Widespread Shortages, New
York Times (Mar. 17, 2020). 8 They are essential for
keeping the government accountable to the people and
shining light on practices that harm the public, violate
the law, or both. See, e.g., Matthias Gafni & Joe
Garofoli, Captain of aircraft carrier with growing coronavirus outbreak pleads for help from Navy, San Francisco Chronicle (Mar. 31, 2020); 9 Maddie Bender, She
Blew the Whistle on Pathogens That Escaped From a
Government Lab. Now She’s Being Fired, VICE (Feb.
27, 2020). 10 And there are serious First Amendment
problems associated with characterizing information
that the government has designated confidential—a
designation that the government can place on even the
most innocuous information—as a commodity that is
“stolen” at the moment of disclosure. See, e.g., United
States v. Truong Dinh Hung, 629 F.2d 908, 924-925
(4th Cir. 1980) (opinion of Winter, J.); see also Bond,
572 U.S. at 866 (“narrow[er]” interpretation of criminal statute “call[ed] for” if “most sweeping reading”

Available at https://reason.com/2020/01/27/journalists-mightbe-felons-for-publishing-leaked-governmental-predecisional-information/.
8 Available at https://www.nytimes.com/2020/03/17/us/politics/
trump-coronavirus-plan.html.
9 Available at https://www.sfchronicle.com/coronavirus/article/
aircraft-carrier-captain-outbreak-ship-navy-help-15169227.php.
10 Available at https://www.vice.com/en_us/article/bvg5xm/whistleblower-biosafety-government-lab-pathogen-leak-washington.
7

21
would “fundamentally upset” constitutional constraints); John C. Coffee Jr., Hush!: The Criminal Status of Confidential Information after McNally and Carpenter and the Enduring Problem of Overcriminalization, 26 Am. Crim. L. Rev. 121, 140-141 (1988).
Notably, the decision below encompasses not only
confidential federal government information but also
confidential state and local government information,
all of which is now government property in the Second
Circuit. That transforms a local police officer’s disclosure of a body-camera video, or a journalist’s report on
a governor’s secret criteria for staff hiring, into serious
federal crimes. By “subject[ing] to” federal prosecution
“a wide range of conduct traditionally regulated by
state and local authorities,” the Second Circuit’s decision seriously destabilizes the “federal-state balance.”
Cleveland, 531 U.S. at 24-25 (citation omitted); see,
e.g., Kelly, 140 S. Ct. at 1571, 1574 (barring federal
government from “us[ing] the criminal law to enforce
(its view of) integrity in broad swaths of state and local
policymaking”); Bond, 572 U.S. at 862-863, 866.
The only thing now standing in the way of those
kinds of charges in the Second Circuit is prosecutorial
discretion. But, as this Court has repeatedly emphasized, reliance on such discretion is not a sufficient
safeguard against abuse. See, e.g., McDonnell, 136 S.
Ct. at 2372-2373 (“[W]e cannot construe a criminal
statute on the assumption that the Government will
‘use it responsibly.’”) (citation omitted); Marinello v.
United States, 138 S. Ct. 1101, 1108-1109 (2018). That
is especially true here, given that whistleblowers and
journalists are often thorns in the government’s side.
See, e.g., Oliver Darcy, White House says it is creating
‘very large’ dossier on Washington Post journalist and

22
others, CNN Business (Aug. 27, 2020); 11 Anne
Marimow, A rare peek into a Justice Department leak
probe, Wash. Post (May 19, 2013). 12
b. Second, the Second Circuit’s decision would eviscerate the limits this Court has placed on “honest-services” fraud prosecutions, which seek to punish employees who deprive their employers of the “intangible
right” to honest conduct. Skilling, 561 U.S. at 399-402;
see McNally, 483 U.S. at 360. Interpreting a statute
specific to honest-services fraud that the government
chose not to charge in this case, this Court limited such
prosecutions to those in which the government can
prove a bribe or kickback. The Court explained that a
broader rule would “involve[] the Federal Government
in setting standards of disclosure and good government for local and state officials.” Skilling, 561 U.S.
at 402 (citation omitted). But under the Second Circuit’s approach, deprivations of honest services—even
where no bribe or kickback is involved—can be
charged as federal property crimes. See Brette M.
Tannenbaum, Note, Reframing the Right: Using Theories of Intangible Property to Target Honest Services
Fraud after Skilling, 112 Colum. L. Rev. 359, 363-364,
393-395 (2012). After all, faithless government employees often disclose confidential government information in the course of advancing their own personal
interests and inevitably expend government “time and
resources” in doing so. Pet.App.17a. The Second Circuit’s decision thus accomplishes the end-run around
Available at https://www.cnn.com/2020/08/27/media/whitehouse-dossier-journalists/index.html.
12 Available at https://www.washingtonpost.com/local/a-rarepeek-into-a-justice-department-leak-probe/2013/05/19/0bc473debe5e-11e2-97d4a479289a31f9_story.html?utm_term=.907b3e
250b3b.
11

23
limitations on honest-services fraud that this Court
has sought to thwart. See, e.g., Kelly, 140 S. Ct. at
1574.
c. Third, the decision below negates a host of carefully calibrated federal statutes—many enacted well
after the statutes at issue here—penalizing disclosure
of confidential or classified information. Those statutes impose penalties only as to disclosure of certain
information by particular actors for particular purposes. See, e.g., 18 U.S.C. 793 (confidential nationaldefense information); 18 U.S.C. 794 (similar); 18
U.S.C. 798 (classified information); 50 U.S.C. 783(a)
(classified national-security information to foreign
government); 18 U.S.C. 1030(a)(1) (national-defense or
foreign-relations information accessed by computer).
Moreover, the penalties they impose are often limited
ones. See, e.g., 18 U.S.C. 1905 (one-year maximum
sentence under general statute criminalizing unauthorized disclosure by government employee).
Under the Second Circuit’s interpretation, federal
fraud and conversion statutes would indiscriminately
cover the same ground—and much more. Moreover,
the applicable statutory maximum would often be far
more draconian. See, e.g., 18 U.S.C. 1343 (20-year
maximum sentence for wire fraud). The panel majority’s overbroad reading thus allows prosecutors to
override Congress’s considered judgments about
whether and how to criminally punish disclosures of
government information. See Truong Dinh Hung, 629
F.2d at 927 & n.21 (opinion of Winter, J.) (“It would
greatly disrupt th[at] network of carefully confined
criminal prohibitions * * * if the courts permitted [the
federal conversion statute] to serve as a criminal prohibition against the merely willful unauthorized disclosure of any classified information.”).

24
d. All of those consequences speak directly to the
deep concerns this Court has expressed in recent years
about government misuse of the fraud statutes and
overbroad federal criminal liability more generally.
The Second Circuit’s decision permits a dangerous
“ballooning of federal power” that vastly expands the
scope of the fraud and conversion statutes. Kelly, 140
S. Ct. at 1574; see, e.g., McDonnell, 136 S. Ct. at 23722373; Skilling, 561 U.S. at 411; Cleveland, 531 U.S. at
25; McNally, 483 U.S. at 360; see also, e.g., Marinello,
138 S. Ct. at 1106-1109; Yates, 574 U.S. at 548-549.
This Court’s plenary review of the question presented
is thus more than warranted—it is urgently needed.
II. The Second Circuit’s “Personal Benefit”
Ruling
Conflicts
With
This
Court’s
Precedents And Disrupts An Exceptionally
Important Area Of The Law
This Court held in Dirks and reaffirmed in Salman
that tipping and tippee trading are not fraudulent unless the tipper acts for a personal benefit. That personal-benefit requirement, as Dirks explained, is “essential” for securities markets to function efficiently:
it marks a clear line “between permissible and impermissible disclosures and uses” of nonpublic information, thereby ensuring that analysts are not inhibited from “ferret[ing] out” information for the benefit
of the financial markets. Dirks, 463 U.S. at 658-659,
664 & n.17. Yet the Second Circuit has now given
prosecutors an end run around Dirks and its progeny,
essentially erasing the requirement that the tipper
benefit personally (and that tippees know of that personal benefit). That renders decades of this Court’s
precedents a dead letter, creates nonsensical anomalies in insider-trading law, and threatens both individual liberty and the stability of the securities markets.

25
Moreover, left undisturbed, the decision will have outsized influence, because venue within the Second Circuit can lie over virtually any securities trade, and because other courts often follow the Second Circuit’s
lead in securities matters. The question of whether
the personal-benefit requirement applies in Title 18
insider-trading fraud cases therefore calls out for this
Court’s review.
A. The Second Circuit’s Decision Conflicts
With This Court’s Precedents
1. Congress has never enacted a criminal statute
prohibiting insider trading. Instead, the government
charges insider trading as a form of “fraud,” using Section 10(b) of the Securities Exchange Act of 1934 as
well as other similarly worded, general anti-fraud provisions. Read in conjunction with SEC Rule 10b-5,
Section 10(b) broadly proscribes employing any “device, scheme, or artifice to defraud,” or “fraud or deceit,” “in connection with the purchase or sale” of securities. 15 U.S.C. 78j(b); 17 C.F.R. 240.10b-5. The mailand wire-fraud statutes likewise proscribe using the
mail or wires for any “scheme or artifice to defraud” or
involving “false or fraudulent pretenses, representations, or promises.” 18 U.S.C. 1341, 1343. That same
language is repeated in Section 1348, a securitiesfraud statute enacted in 2002 to combat large-scale accounting frauds.
This Court has repeatedly concluded that trading
securities on the basis of material, nonpublic information is not inherently “deceptive” or “fraudulent,”
and that general anti-fraud offenses like Section
10(b)/10b-5 create no “general duty” to refrain from
trading on the basis of such information. Chiarella v.
United States, 445 U.S. 222, 233 (1980); see O’Hagan

26
v. United States, 521 U.S. 642, 655 (1997); Dirks, 463
U.S. at 654. Rather, the Court has held, what makes
insider trading deceptive, and thus fraudulent, is
breaching a duty to the source of information through
use of the information for “personal benefit.” Dirks,
463 U.S. at 661-664; see Chiarella, 445 U.S. at 230;
O’Hagan, 521 U.S. at 653-655.
Dirks involved a financial analyst whose clients
traded on confidential information he had received
from a corporate whistleblower. This Court concluded
that neither the whistleblower’s disclosure nor the
subsequent trades were fraudulent because the whistleblower acted to expose corporate wrongdoing, not
for any personal benefit. 463 U.S. at 666-667. To determine whether a disclosure is fraudulent, the Court
held, “the test is whether the insider personally will
benefit, directly or indirectly, from his disclosure. Absent some personal gain, there has been no breach of
duty * * * . And absent a breach by the insider, there
is no derivative breach” by any trading tippee. Id. at
662 (emphasis added). Personal benefit is what “determin[es] whether the insider’s purpose in making a
particular disclosure is fraudulent.” Id. at 663 (emphasis added). The Court further explained that the
personal-benefit requirement is the “essential * * *
guiding principle” by which market participants
should conduct their affairs in order to navigate the
line separating unlawful behavior from lawful trading.
Id. at 664; see id. at 658-659 & n.17.
This Court’s decisions after Dirks confirm that a
personal benefit for the tipper is essential to proving
fraud under both Title 18 and Title 15. In Carpenter,
the Court affirmed the mail- and wire-fraud convictions of a reporter who “embezzled” his employer’s con-

27
fidential business information by tipping others in exchange for a share of their trading profits. That was
fraud, the Court said, because “a person who acquires
special knowledge or information by virtue of a confidential or fiduciary relationship with another is not
free to exploit that knowledge or information for his
own personal benefit.” 484 U.S. at 27-28 (emphasis
added). Similarly, in O’Hagan, the Court extended
Carpenter’s embezzlement-fraud theory to Title 15.
See 521 U.S. at 654. Regardless of the particular section of the U.S. Code at issue, the Court explained, a
fiduciary “defrauds” his principal when he “convert[s]
the principal’s information for personal gain.” Id. at
653-654 (emphasis added).
Most recently, in Salman, the Court unanimously
reaffirmed Dirks’ core holdings: “[a] tipper breaches
[his] fiduciary duty” only “when the tipper discloses
the inside information for a personal benefit,” and “the
disclosure of confidential information without personal benefit is not enough” to prove fraud. 137 S. Ct.
at 423, 427. The Court rejected the government’s invitation to lower the burden of proof by replacing the
personal-benefit test with a standard that would have
deemed conduct fraudulent “whenever the tipper discloses confidential trading information for a noncorporate purpose.” Id. at 426.
The Court’s rulings in those cases confirm that the
existence of a personal benefit for the tipper is critical
not only to establishing the tipper’s liability for fraud
but also to establishing that a downstream tippee who
has traded on the tipped information has engaged in
fraud. As this Court has explained, a tippee owes no
fiduciary duty to the original source of the information,
and therefore can be liable only on a “constructive

28
trust” theory under which he inherits the tipper’s fiduciary duty. Dirks, 463 U.S. at 659-661 & n.20; Salman,
137 S. Ct. at 423, 427. That theory does not apply unless the tipper “has breached his fiduciary duty * * *
by disclosing the information to the tippee” in exchange for a personal benefit “and the tippee knows
* * * that there has been a breach.” Dirks, 463 U.S. at
660 (emphasis added); see Salman, 137 S. Ct. at 423.
If the tippee lacks that knowledge, then he has not
“participate[d]” in a fraudulent scheme, Salman, 137
S. Ct. at 427; he has simply traded using information
in his possession, see Dirks, 463 U.S. at 657.
2. The Second Circuit’s holding that proof of personal benefit is not required in criminal insider-trading cases brought under Title 18 fraud provisions directly conflicts with those precedents and represents a
sea change in insider-trading law.
The provisions of Title 18 at issue here—Sections
1343 and 1348—proscribe schemes to “defraud” in language that is identical in relevant part to the language
in the Title 15 securities laws. And under this Court’s
precedents, the meaning of criminal “fraud” does not
change from statute to statute. See, e.g., Carpenter,
484 U.S. at 25 n.6; Pasquantino v. United States, 544
U.S. 349, 355 n.2 (2005) (“identical language” in criminal fraud statutes is construed “in pari materia”);
O’Hagan, 521 U.S. at 653-654 (insider-trading fraud
under Title 15 is “fraud of the same species” as Title
18 fraud); see also, e.g., Branch v. Smith, 538 U.S. 254,
281 (2003); Sekhar, 570 U.S. at 733. The Second Circuit’s decision is thus irreconcilable with this Court’s
decisions holding that “fraud” exists in the insidertrading context only if the source of the information
has received a personal benefit for the disclosure. See

29
Andrew N. Vollmer, The Second Circuit’s Blaszczak
Decision: Dirks Besieged (Jan. 11, 2020). 13
Nothing in the Second Circuit’s opinion justifies its
radical departure from precedent or vast expansion of
the insider-trading crime. First, the panel asserted
that the personal-benefit requirement, as set forth in
Dirks, is “premised” on Congress having “enacted the
Title 15 fraud provisions with the limited ‘purpose of
* * * eliminat[ing] [the] use of inside information for
personal advantage.’” Pet.App.22a (quoting Dirks, 463
U.S. at 662). That is wrong. Nothing in Dirks limits
its holding to Title 15 or suggests that the Court intended to implement some statutory purpose unique to
Section 10(b). On the contrary, Dirks held—and reiterated no fewer than seven times—that personal benefit is indispensable to proving fraud, because absent
such a benefit there has been no deceit. See 463 U.S.
at 663 (personal benefit “determine[s] whether the
[tipper]’s purpose * * * is fraudulent” and whether
“disclosure” of information “defraud[s]”); see also id. at
654, 662, 666-667 & n.27. The Court also described the
personal-benefit requirement as “essential” to
“guid[e]” traders and analysts in their “daily activities”—and that “guiding principle” would be meaningless if the requirement disappeared in fraud provisions
outside Title 15. Id. at 664 & n.24.
Second, the Second Circuit asserted that “Carpenter’s formulation of embezzlement” fraud does not require the government to prove personal benefit.
Pet.App.23a. That, too, is wrong. In Carpenter, the
Court explained that embezzlement doctrine requires
a fiduciary breach for personal benefit: a person who
acquires information through a fiduciary relationship
13

Available at https://ssrn.com/abstract=3516082.

30
“is not free to exploit that knowledge or information for
his own personal benefit but must account to his principal for any profits derived therefrom.” 484 U.S. at 2728 (emphasis added; citation omitted). And the Court
reaffirmed that point when it applied Carpenter to Title 15 in O’Hagan, explaining that a “fiduciary who
* * * secretly convert[s] the principal’s information for
personal gain * * * ‘dupes’ or defrauds the principal.”
521 U.S. at 653-654 (quoting U.S. Br. 17).
Finally, the Second Circuit suggested that Section
1348 should be treated differently from other fraud
statutes because it has a different purpose. But interpreting statutes using atextual speculation about statutory purpose is an impermissible “relic from a ‘bygone
era.’” Food Mktg. Inst. v. Argus Leader Media, 139 S.
Ct. 2356, 2364 (2019). And even if Section 1348’s purpose were relevant, it would not support the ruling below or obviate the conflict with this Court’s precedents.
Congress enacted that statute to combat large-scale
accounting frauds like the one that engulfed Enron
Corporation. Congress accomplished that goal by
eliminating some “technical legal requirements” incidental to fraud that were found in existing anti-fraud
provisions, such as “purchase or sale” of securities or
use of the interstate wires. S. Rep. No. 107-146, at 26 & n.9, 30 (May 6, 2002). Nothing in Section 1348’s
legislative history suggests that Congress intended to
alter the established meaning of “fraud” in tipping
cases. To the contrary, Section 1348 retains the requirement “that a defendant knowingly engaged in a
scheme or artifice to defraud,” id. at 30, and under this
Court’s precedents, a tipper’s personal benefit is precisely what converts otherwise innocent trading into
“fraud.”

31
B. The Second Circuit’s Decision Creates
Nonsensical Anomalies In Insider-Trading
Law
The Second Circuit’s decision wipes away a fourdecade history of carefully crafted limits on the scope
of fraud in the insider-trading context, rendering an
enormous body of caselaw—including this Court’s decisions in Dirks and Salman—a nullity. Since Dirks,
the government has continued bringing criminal insider-trading cases under Title 15, and (until this case)
it has understood that when it charges insider trading
as criminal fraud under Title 18, the personal-benefit
requirement continues to apply. 14 This Court and
other courts have thus extensively explicated what
that requirement means. But if charging criminal insider-trading as a violation of Sections 1343 and 1348
obviates the need to prove that the tipper received a
personal benefit and that the tippee knew of the benefit, the government will never again charge that conduct under Title 15. That would represent the culmination of a long series of efforts by the government—
thus far blocked by this Court—to dilute or eliminate
the personal-benefit requirement. See pp. 26-28, supra; United States v. Newman, 773 F.3d 438 (2d Cir.
2014), abrogated on other grounds by Salman.
This case is not somehow distinct, as the government has contended, because it involves so-called “embezzlement” of information. The courts of appeals

See, e.g., United States v. Walters, No. 16-Cr.-338 (S.D.N.Y.),
Dkt.91, at 17, 19, 32 (to establish “wire fraud,” government must
prove insider “anticipated receiving a personal benefit”) & Dkt.95,
at 6; United States v. Stewart, No. 15-Cr.-287 (S.D.N.Y.), Dkt.109,
at 20, 33 (same); cf. United States v. Bogucki, No. 18-Cr.-21 (N.D.

14

32
have universally required proof of personal benefit in
Title 15 embezzlement (i.e., “misappropriation”) tipping cases. See, e.g., United States v. Martoma, 894
F.3d 64, 73 n.5 (2d Cir. 2017); United States v. Bray,
853 F.3d 18, 25 (1st Cir. 2017); United States v. Evans,
486 F.3d 315, 323 (7th Cir. 2007); SEC v. Yun, 327
F.3d 1263, 1275 (11th Cir. 2003). And the government
acknowledged in Salman that “Dirks’s personal-benefit analysis applies” in such “misappropriation cases.”
137 S. Ct. at 425 n.2. Yet under the Second Circuit’s
ruling, proof of personal benefit would be required for
cases involving “embezzlement” of information
brought under Title 15 but not under Title 18, even
though the two statutory proscriptions are supposed to
be “the same” as to whether any fraud has been committed. O’Hagan, 521 U.S. at 654.
The effect of that anomaly will be an irrational disparity between criminal and civil insider-trading actions, subjecting conduct that the SEC cannot pursue
civilly to severe criminal penalties. The SEC is the expert agency charged with rooting out fraud in the securities markets, but it is limited to civil enforcement
of Title 15 provisions such as Section 10(b)/Rule 10b-5,
and therefore bound by the personal-benefit requirement set forth in this Court’s precedents interpreting
those provisions. It would be bizarre if trading by a
remote tippee that involves no personal benefit to the

Cal.), Dkt.162, at 42 (same for misappropriation). The government’s briefs in this Court have said the same thing. See U.S. Br.
14-17, Carpenter v. United States, 484 U.S. 19 (1987) (No. 86-422)
(“essential characteristic of a fraudulent breach” is that the fiduciary “benefit himself”); U.S. Br. 24, United States v. O’Hagan,
521 U.S. 642 (No. 96-842) (prohibition on using “confidential information for personal gain” under Section 10(b) “parallels the
similar inquiry” under mail-fraud statute).

33
tipper or knowledge of benefit by the tippee, and therefore does not trigger even the monetary penalties that
arise from SEC enforcement action, nevertheless subjects the tippee to criminal liability and years of imprisonment.
That absurd legal landscape is not the one that
Congress enacted or that this Court’s many careful insider-trading decisions countenance. But it is exactly
what will happen if the Second Circuit’s decision is allowed to stand. Indeed, in this very case, Olan and
Huber were acquitted of any violation of Title 15,
which the jury was charged required proof of personal
benefit, yet convicted under Title 18, as to which the
district court refused to instruct that proof of personal
benefit was required. C.A.App.1082-1101.
C. The Second Circuit’s Decision Will Harm
The Securities Markets And The People
Who Make Those Markets Function
By allowing prosecutors to circumvent the personal-benefit requirement, the decision below also will
have profound implications for securities analysts and
traders who, until now, have justifiably ordered their
conduct based on Dirks’ “guiding principle.” 15 The ab-

See Adam Pritchard, 2nd Circ. Ruling Makes Messy Insider
Trading Law Worse, Law360 (Jan. 27, 2020), available at
www.law360.com/articles/1237586/2nd-circ-ruling-makes-messyinsider-trading-law-worse; Walter Pavlo, Appeal Court’s Rush On
Insider Trading Decision Will Hurt Wall Street, Forbes (Jan. 21,
2020), available at https://www.forbes.com/sites/walterpavlo/
2020/01/21/appeal-courts-rush-on-insider-trading-decision-willhurt-wall-street/#4fedf07e7891; Russell G. Ryan, Insider trading
law is irreparably broken, Wash. Post (Jan. 27, 2020), available
at https://www.washingtonpost.com/opinions/2020/01/27/insidertrading-law-is-irreparably-broken/.
15

34
sence of that principle will “produce[] unpredictable results” and “risk[] over-deterring activities related to
lawful securities sales.” Pinter v. Dahl, 486 U.S. 622,
654 n.29 (1988). And it will subject market actors to
criminal prosecution for simply doing their jobs in ferreting out information.
That is particularly true for remote tippees like
Olan and Huber, who were not alleged to even know
who provided the information. C.A.App.556, 1010.
Analysts routinely receive information, including rumors about how the government might act, from a
wide variety of sources. It is imperative that they have
a way of sorting out, ex ante, which information they
can legally use to trade. But if criminal liability can
be imposed even though such tippees have no
knowledge that the tipper was acting for his own benefit rather than for a legitimate purpose, then there is
no way that they can continue to carry out their necessary functions.
The breadth and indeterminacy of the Second Circuit’s new standard for establishing a tipping crime
also threatens bedrock separation-of-powers and dueprocess principles. As discussed above, this Court has
insisted that criminal statutes—and especially the
fraud statutes—be interpreted narrowly. See pp. 1718, supra. The panel majority in this case has done
the opposite.
The Second Circuit’s decision will have nationwide
effects because virtually all securities transactions
touch New York. Given the government’s considerable
discretion as to where it files cases, see 18 U.S.C.
3237(a), the decision invites prosecutors to seize on the
substantially lower burden of proof they now enjoy in

35
the Second Circuit by funneling all but slam-dunk insider-trading cases to that venue—achieving the government’s long-sought goal of eliminating the personal-benefit requirement without legislation. Such
forum shopping, together with the Second Circuit’s
prominence in securities law, see Morrison v. Nat’l
Australia Bank Ltd., 561 U.S. 247, 260 (2010), will inhibit further percolation of the question presented and
ultimately destabilize securities markets.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ALEXANDRA A.E. SHAPIRO
DANIEL J. O’NEILL
ERIC S. OLNEY
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
BARRY H. BERKE
DANI R. JAMES
KRAMER LEVIN NAFTALIS &
FRANKEL LLP
1177 Sixth Avenue
New York, New York 10036
(212) 715-9011
Counsel for Petitioner
Theodore Huber

September 4, 2020

DONALD B. VERRILLI, JR.
Counsel of Record
ELAINE J. GOLDENBERG
JONATHAN S. MELTZER
JACOBUS P. VAN DER VEN
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, Seventh Floor
Washington, DC 20004-1357
(202) 220-1100
Donald.Verrilli@mto.com
DAVID ESSEKS
EUGENE INGOGLIA
ALEXANDER BUSSEY
ALLEN & OVERY LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 610-6300
Counsel for Petitioner
Robert Olan

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Nos. 18-2811, 18-2825, 18-2867, 18-2878
UNITED STATES OF AMERICA,
Appellee,
v.
DAVID BLASZCZAK, THEODORE HUBER,
ROBERT OLAN, CHRISTOPHER WORRALL,
Defendants-Appellants.
Argued: November 21, 2019
Decided: December 30, 2019
Before: KEARSE, DRONEY, and SULLIVAN, Circuit
Judges.
OPINION
RICHARD J. SULLIVAN, Circuit Judge:
These consolidated appeals require us to consider
whether the federal wire fraud, securities fraud, and
conversion statutes, codified at 18 U.S.C. §§ 1343,
1348, and 641, respectively, reach misappropriation
of a government agency’s confidential nonpublic
information relating to its contemplated rules.
Defendants David Blaszczak, Theodore Huber,
Robert Olan, and Christopher Worrall were charged
with violating these statutes – and with engaging in
securities fraud in violation of Section 10(b) of the
Securities and Exchange Act, 15 U.S.C. § 78j(b), and
SEC Rule 10b-5 (“Title 15 securities fraud”) – by
misappropriating confidential nonpublic information
from the Centers for Medicare & Medicaid Services
(“CMS”). The indictment principally alleged that

2a
CMS employees, including Worrall, disclosed the
agency’s confidential information to Blaszczak, a
“political intelligence” consultant for hedge funds,
who in turn tipped the information to Huber and
Olan, employees of the healthcare-focused hedge fund
Deerfield Management Company, L.P. (“Deerfield”),
which traded on it. After a one-month trial before the
United States District Court for the Southern District
of New York (Kaplan, J.), a jury found Defendants
guilty of wire fraud, conversion, and, with the
exception of Worrall, Title 18 securities fraud and
conspiracy. The jury acquitted Defendants on all
counts alleging Title 15 securities fraud.
Defendants now challenge their convictions on
various grounds. For the reasons set forth below, we
reject these challenges. In doing so, we hold, inter
alia, that (1) confidential government information
such as the CMS information at issue here may
constitute “property” in the hands of the government
for purposes of the wire fraud and Title 18 securities
fraud statutes, and (2) the “personal-benefit” test
established in Dirks v. SEC, 463 U.S. 646, 103 S.Ct.
3255, 77 L.Ed.2d 911 (1983), does not apply to these
Title 18 fraud statutes. Because we also discern no
prejudicial error with respect to the remaining issues
raised on appeal, we affirm the judgments of the
district court.
I. BACKGROUND
A. Facts
The jury returned guilty verdicts on counts
charging two insider-trading schemes: (1) a scheme
relating to Deerfield that involved all defendants to
varying degrees, and (2) a scheme relating to another
hedge fund investment manager, Visium Asset

3a
Management, L.P. (“Visium”), that involved
Blaszczak only. We recite the facts pertaining to each
of these schemes in turn, construing the evidence at
trial underlying the counts of conviction in the light
most favorable to the prosecution. See United States
v. Kirk Tang Yuk, 885 F.3d 57, 65 (2d Cir. 2018).
1. The Deerfield Scheme
At various times between 2009 and 2014, Olan,
Huber, and fellow Deerfield partner Jordan Fogel – a
cooperating witness who pleaded guilty and testified
at trial – approached Blaszczak for the purpose of
obtaining so-called “predecisional” information
concerning
CMS’s
contemplated
rules
and
regulations. The three Deerfield partners knew that
Blaszczak, who had worked at CMS before becoming
a consultant for hedge funds, enjoyed unique access
to the agency’s predecisional information through his
inside sources at the agency. Because other
consultants did not have access to Blaszczak’s
sources, the Deerfield partners counted him as a
particularly lucrative fount of illegal market “edge.”
App’x at 567, 606.
This illegal market edge first paid off for the three
Deerfield partners in July 2009, after Blaszczak
passed them nonpublic CMS information concerning
both the timing and substance of an upcoming
proposed CMS rule change that would reduce the
reimbursement rate for certain radiation oncology
treatments. The Deerfield partners sought to
maximize this market edge by trading while “the
information wasn’t known to others, and ... wasn’t
public.” Id. at 593. In late June 2009, Olan, Huber,
and Fogel directed Deerfield to enter orders shorting
approximately $33 million worth of stock in

4a
radiation-device manufacturer Varian Medical
Systems (“Varian”), a company that would be hurt by
CMS’s proposed rule. Blaszczak’s information was
consistent with the proposed rule that CMS
ultimately announced on July 1, 2009, and as a result
of the Varian trade, Deerfield made $2.76 million in
profits.
Deerfield again traded on confidential CMS
information obtained from Blaszczak in 2012. This
time,
Blaszczak
obtained
the
predecisional
information at issue from Worrall, a CMS employee
who had previously worked with Blaszczak at the
agency and remained friends with him after
Blaszczak left CMS to become a hedge fund
consultant. Blaszczak met Worrall at CMS’s
headquarters in Maryland on May 8, 2012; the
following day, Blaszczak emailed Fogel to set up a
phone call so that he could update him on one of
Fogel’s “favorite topics.” Id. at 2439. On the call,
Blaszczak provided Fogel with predecisional CMS
information about additional radiation oncology
reimbursement rate changes. Fogel, in turn, shared
this information with Huber and Olan, and together
the three of them relied on it – in combination with
other confidential CMS information that Blaszczak
passed them over the next few weeks – in
recommending that Deerfield short millions of dollars
in the shares of companies that would be hurt by the
reimbursement changes. Deerfield earned profits of
$2.73 million from trades relating to this radiation
oncology rule, which was publicly announced on July
6, 2012.
In February 2013, shortly after Fogel moved to a
different group within Deerfield, he reached out to
Blaszczak in the hopes of “re-ignit[ing] the

5a
Blaszczak-Fogel money printing machine.” Supp.
App’x at 6. As Fogel testified at trial, the
“Blaszczak-Fogel money printing machine” meant
that “Blaszczak had a long history of providing
[Fogel] and [his] teammates nonpublic information
that [they] could trade on, and it was a great asset to
get edge for investments.” App’x at 581.
Fogel did not have to wait long for the machine to
reignite. In June 2013, Blaszczak told Fogel that he
expected CMS to propose cutting the reimbursement
rate for end-stage renal disease (“ESRD”) treatments
by 12 percent. Although Blaszczak did not reveal the
source of his information to Fogel, the prediction was
so specific – and so different from the market
consensus – that Fogel believed it came “from a
credible source inside of CMS.” Id. at 582. Still, Fogel
remained anxious about the outlier status of
Blaszczak’s prediction and continued to check in with
him about his level of certainty. On June 25, 2013,
less than a week before CMS announced the ESRD
rule, Blaszczak told Fogel that there was “[n]o change
in [his] numbers” and that he was “pretty confident”
in his information. Id. at 2024. Fogel again took this
to mean that Blaszczak obtained the information
from a reliable inside source, and further inferred
that the public announcement of the proposed rate
cut (the timing of which was also nonpublic) was
around the corner and thus less likely to change. On
the basis of this confidential nonpublic information,
Fogel directed Deerfield to enter orders shorting
stock in Fresenius Medical Care, a public company
that would be hurt by the reimbursement rate cuts.
CMS publicly announced the 12 percent rate cut on
July 1, 2013, and Deerfield earned approximately
$860,000 in profits from the trade.

6a
Blaszczak continued to provide Fogel with
predecisional CMS information in advance of CMS’s
announcement of the final ESRD rule on November
22, 2013. In particular, Blaszczak informed Fogel
that the final ESRD rule would keep the 12 percent
rate cut but would be phased in over three to four
years.
Based
on
that
information,
Fogel
recommended that Deerfield enter orders to short
stock in Fresenius and DaVita Healthcare Partners
Inc. Deerfield did so, earning profits of approximately
$791,000. Immediately after CMS announced the
final ESRD rule, Fogel emailed his colleagues at
Deerfield to praise Blaszczak for his ESRD
reimbursement predictions: “I told u guys blazcack
[sic] is the man. ... [H]e has crushed it on these two
rules both times round.” Supp. App’x at 10.
2. The Visium Scheme
Around the same time that Blaszczak was tipping
confidential CMS information to his contacts at
Deerfield, he also provided similar information to
Christopher Plaford, a portfolio manager at the hedge
fund Visium. After subsequently pleading guilty
pursuant to a cooperation agreement, Plaford
testified
that
he
used
Blaszczak
as
a
political-intelligence consultant from around 2010 to
2013, during which time Blaszczak would provide
him with both public and nonpublic information
concerning the healthcare industry. Plaford, like the
Deerfield partners, especially valued Blaszczak’s
nonpublic CMS information due to the market edge it
gave him. Indeed, Plaford considered Blaszczak’s
CMS information to be “much more accurate” than
the information provided by other consultants, since
it came “directly from the horse’s mouth,” meaning
Blaszczak’s friends and former colleagues at CMS.

7a
App’x at 750–51.
In May 2013, for example, Blaszczak tipped
Plaford that he expected CMS to propose cutting the
reimbursement rate for home healthcare coverage by
between three and three-and-a-half percent per year
between 2014 and 2017. In the ensuing weeks,
Plaford arranged phone calls with Blaszczak to
discuss the sources of his information and thus his
level of certainty, an issue that Plaford did not want
to discuss over email “because it was potentially
incriminating.” Id. at 752. On the phone call,
Blaszczak told Plaford that he had a “high conviction”
that his information was accurate because he was
“interacting directly with his counterparties in CMS
[who] were working on the rule, and they were telling
him ... [what] the cut would be.” Id. Based on
Blaszczak’s information, Plaford directed Visium to
maintain its short positions for Amedisys Inc. and
Gentiva Health Services Inc., and to buy put-options
in those companies. Following CMS’s June 27, 2013
announcement of the proposed home healthcare rule,
which included a three-and-a-half percent annual
rate cut consistent with Blaszczak’s information,
Visium earned approximately $330,000 in trading
profits.
B. Procedural History
On March 5, 2018, the government filed an
eighteen-count superseding indictment in the United
States District Court for the Southern District of New
York setting forth allegations relating to the
Deerfield scheme (Counts One through Sixteen) and
Visium scheme (Counts Seventeen and Eighteen).
Counts One and Two charged Defendants with
participating in conspiracies centering on the

8a
misappropriation of confidential CMS information
between 2009 and 2014. In Counts Three through
Ten, the indictment charged Defendants with
conversion of U.S. property (Count Three), Title 15
securities fraud (Counts Four through Eight), wire
fraud (Count Nine), and Title 18 securities fraud
(Count Ten), relating to the misappropriation of
confidential CMS information that pertained to the
July 2012 proposed radiation oncology rule. Counts
Eleven and Twelve charged Blaszczak and Worrall
with conversion of U.S. property (Count Eleven) and
wire
fraud
(Count
Twelve)
for
allegedly
misappropriating confidential CMS information
relating to a company called NxStage Medical Inc.
The remaining four Deerfield-related counts charged
Blaszczak and Worrall with conversion of U.S.
property (Count Thirteen), Title 15 securities fraud
(Count Fourteen), wire fraud (Count Fifteen), and
Title 18 securities fraud (Count Sixteen), based on
the
misappropriation
of
confidential
CMS
information concerning the 2013 proposed and final
ESRD rules. Counts Seventeen and Eighteen charged
Blaszczak alone with conspiracy and conversion of
U.S. property, respectively, for providing confidential
CMS information to Plaford as part of the Visium
scheme.
On April 2, 2018, the case proceeded to a jury trial
before Judge Kaplan. The parties rested their cases
three weeks later, on April 23, 2018, and after
summations, the district court charged the jury.
In particular, the district court instructed the jury
pursuant to Dirks that, (1) in order to convict Worrall
of Title 15 securities fraud, it needed to find that he
tipped confidential CMS information in exchange for
a “personal benefit;” (2) in order to convict Blaszczak

9a
of Title 15 securities fraud, it additionally needed to
find that he knew that Worrall disclosed the
information in exchange for a personal benefit; and
(3) in order to convict Huber or Olan of Title 15
securities fraud, it needed to find that Huber or Olan
knew that a CMS insider tipped the information in
exchange for a personal benefit. App’x at 1042–43.
The district court, however, refused to give
Dirks-style instructions on the wire fraud and Title
18 securities fraud counts. The district court instead
instructed the jury that wire fraud “includes the act
of embezzlement, which is ... the fraudulent
appropriation to one’s own use of the money or
property entrusted to one’s care by someone else.” Id.
at 1044–45; see Carpenter v. United States, 484 U.S.
19, 27, 108 S.Ct. 316, 98 L.Ed.2d 275 (1987). The
district court similarly instructed the jury, for the
Title 18 securities fraud counts, that it could find the
existence of a scheme to defraud if a defendant
“participated in a scheme to embezzle or convert
confidential information from CMS by wrongfully
taking that information and transferring it to his own
use or the use of someone else.” App’x at 1045. For
both Title 18 fraud offenses, the district court further
instructed the jury that it could only convict if it
found that the defendant it was considering
knowingly and willfully participated in the
fraudulent scheme.
On May 3, 2018, after four days of deliberations,
the jury returned a split verdict. The jury acquitted
all defendants on the Title 15 securities fraud counts;
Blaszczak and Worrall on the offenses charged in
Counts Eleven and Twelve relating to the NxStage
information; and Worrall on the conspiracies charged
in Counts One and Two and the substantive offenses

10a
charged in Counts Thirteen through Sixteen. The
jury nevertheless found all defendants guilty of the
conversion and wire fraud offenses charged in Counts
Three and Nine, respectively; all defendants but
Worrall guilty of the conspiracy offenses charged in
Counts One and Two as well as Title 18 securities
fraud as charged in Count Ten; and Blaszczak alone
guilty of the offenses charged in Counts Thirteen and
Fifteen through Eighteen.
On September 13, 2018, the district court denied
from the bench Defendants’ post-trial motions for a
new trial and/or judgment of acquittal and proceeded
to sentencing. The district court sentenced Blaszczak
to twelve months and one day of imprisonment,
Worrall to twenty months’ imprisonment, and Huber
and Olan each to thirty-six months’ imprisonment
and fines of $1,250,000. The district court also
ordered Blaszczak to forfeit $727,500, Huber to forfeit
$87,078, and Olan to forfeit $98,244, and ordered
joint and several restitution in the amount of
$1,644.26 against all defendants to cover the costs
that CMS expended on witnesses’ travel in connection
with the criminal investigation and trial. Finally, the
district court granted all defendants bail pending
appeal on the ground that the forthcoming appeal
would present novel and substantial questions. See
United States v. Randell, 761 F.2d 122, 125 (2d Cir.
1985). Defendants timely appealed.
II. JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review de novo questions of statutory
interpretation, challenges to the district court’s jury
instructions, and the propriety of joinder. See United
States v. Gayle, 342 F.3d 89, 91 (2d Cir. 2003); United

11a
States v. Sabhnani, 599 F.3d 215, 237 (2d Cir. 2010);
United States v. Shellef, 507 F.3d 82, 96 (2d Cir.
2007). We also review de novo the sufficiency of the
evidence, Sabhnani, 599 F.3d at 241, recognizing, of
course, that a defendant raising such a challenge
“bears a heavy burden because a reviewing court
must consider the evidence ‘in the light most
favorable to the prosecution’ and uphold the
conviction if ‘any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt,’” United States v. Aguilar, 585 F.3d
652, 656 (2d Cir. 2009) (quoting Jackson v. Virginia,
443 U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979)); accord United States v. Harvey, 746 F.3d 87,
89 (2d Cir. 2014). The district court’s evidentiary
rulings are reviewed for abuse of discretion. See
United States v. Nektalov, 461 F.3d 309, 318 (2d Cir.
2006).
III. DISCUSSION
Defendants challenge their convictions on several
grounds. They argue that (1) the confidential CMS
information at issue is not “property” in the hands of
CMS for purposes of the wire fraud and Title 18
securities fraud statutes; (2) the district court erred
by refusing to instruct the jury on the Dirks
personal-benefit test as to the Title 18 fraud counts;
(3) Defendants’ convictions for converting U.S.
property were infected by a series of legal and factual
errors; (4) the evidence at trial was insufficient on all
counts; (5) Counts Seventeen and Eighteen, charging
Blaszczak alone in the Visium scheme, were
misjoined with the other counts; and (6) the district
court made a variety of evidentiary errors. We
address each of these arguments in turn.

12a
A. “Property” under 18 U.S.C.§§ 1343, 1348
Defendants argue that their convictions for fraud
under Title 18 must be reversed because there was
insufficient evidence to prove that they engaged in a
scheme to defraud CMS of “property.” 18 U.S.C.
§§ 1343, 1348. 1 The gravamen of their argument is
that a government agency’s confidential information
is not “property” in the hands of the agency under the
Supreme Court’s decision in Cleveland v. United
States, 531 U.S. 12, 121 S.Ct. 365, 148 L.Ed.2d 221
(2000), because the agency has a “purely regulatory”
interest in such information, id. at 22, 121 S.Ct. 365.
As a preliminary matter, the government
contends that Defendants failed to preserve the
argument that confidential government information
is not “property,” since Defendants did not object to
the district court’s instruction that “confidential
government information may be considered to be
property” for purposes of Title 18 securities fraud.
App’x at 1045; see also id. (instructing the jury, for
purposes of the wire fraud counts, that the
government was required to prove that a defendant
The superseding indictment charged Defendants with
violating both subsections (1) and (2) of 18 U.S.C. § 1348, either
of which may independently support a conviction. See United
States v. Mahaffy, 693 F.3d 113, 125 (2d Cir. 2012). While
subsection (2) proscribes a “scheme or artifice ... to obtain, by
means of false or fraudulent pretenses, ... any money or property
in connection with the purchase or sale of” securities, subsection
(1) does not use the term “property,” proscribing instead a
“scheme or artifice ... to defraud any person in connection with”
securities. 18 U.S.C. § 1348. Nevertheless, the government does
not argue that the object of a “scheme to defraud” in subsection
(1) can be anything other than “property,” and thus we assume,
for purposes of this case, that the “property” requirement in
subsection (2) also applies in subsection (1).
1

13a
intended to deprive CMS of “something of value – for
example,
confidential
material,
non-public
information”). But while Defendants did not
challenge the pertinent jury instructions in the
district court (and have not done so on appeal),
Defendants filed a Rule 29(a) motion for a judgment
of acquittal on the ground that the evidence at trial
was insufficient to establish that CMS’s information
was “property” in the hands of the agency. Contrary
to the government’s argument, we do not construe
Defendants’ Rule 29(a) motion in the district court as
raising a claim distinct from their sufficiency claim
on appeal; at both stages, Defendants expressly tied
their sufficiency claim to the Supreme Court’s
decision in Cleveland, thus raising the broader
threshold question of whether a government agency’s
confidential regulatory information may constitute
“property” in the hands of the agency as a general
matter. In answering this question, we are not bound
by the district court’s jury instruction that
“confidential government information may be
considered to be property,” id., since “[a] reviewing
court’s limited determination on sufficiency
review ... does not rest on how the jury was
instructed,” Musacchio v. United States, ––– U.S.
––––, 136 S. Ct. 709, 715, 193 L.Ed.2d 639 (2016).
Proceeding to the merits, we afford the same
meaning to the word “property” in both the wire
fraud and Title 18 securities fraud statutes. See S.
Rep. No. 107-146, at 20 (2002) (Title 18 securities
fraud statute created to be comparable to Title 18
bank and healthcare fraud statutes); Neder v. United
States, 527 U.S. 1, 20, 119 S.Ct. 1827, 144 L.Ed.2d 35
(1999) (Title 18 mail, wire, and bank fraud statutes
should be analyzed similarly). We may also look to

14a
cases interpreting the same word in the mail fraud
statute. See, e.g., Pasquantino v. United States, 544
U.S. 349, 355 n.2, 125 S.Ct. 1766, 161 L.Ed.2d 619
(2005). Under each of these fraud statutes, the word
“property” is construed in accordance with its
ordinary meaning: “something of value” in the
possession of the property holder (in this context, the
fraud victim). Pasquantino, 544 U.S. at 355, 125 S.Ct.
1766 (quoting McNally v. United States, 483 U.S. 350,
358, 107 S.Ct. 2875, 97 L.Ed.2d 292 (1987),
superseded by statute on other grounds as stated in
Skilling v. United States, 561 U.S. 358, 130 S.Ct.
2896, 177 L.Ed.2d 619 (2010)); see also id. at 356, 125
S.Ct. 1766 (citing Black’s Law Dictionary 1382 (4th
ed. 1951) (defining “property” as “extend[ing] to every
species of valuable right and interest”)). In applying
this general notion of property to the facts of this
case, in which the fraud victim is a government
agency and the claimed property is confidential
information regarding contemplated regulatory
action, we are guided by two precedents in particular:
Carpenter and Cleveland.
In Carpenter, the Supreme Court held that the
publication schedule and contents of forthcoming
articles in a Wall Street Journal column were the
Journal’s “property” because “[t]he Journal had a
property right in keeping confidential and making
exclusive use” of the information before publication.
484 U.S. at 26, 108 S.Ct. 316. In fact, the Court noted
that “[c]onfidential business information ha[d] long
been recognized as property.” Id. The Court further
noted that pre-publication information was “stock in
trade, to be gathered at the cost of enterprise,
organization, skill, labor, and money, and to be
distributed and sold to those who [would] pay money

15a
for it.” Id. (quoting Int’l News Serv. v. Associated
Press, 248 U.S. 215, 236, 39 S.Ct. 68, 63 L.Ed. 211
(1918)). The Court therefore concluded that a Journal
employee
fraudulently
misappropriated
his
employer’s “property” in violation of the mail and
wire fraud statutes when he knowingly disclosed the
Journal’s confidential pre-publication information to
a stockbroker who traded on it. Id. at 28, 108 S.Ct.
316.
By contrast, thirteen years later, the Court in
Cleveland held that the mail fraud statute did “not
reach fraud in obtaining a state or municipal license”
to operate video poker machines, holding that “such a
license [was] not ‘property’ in the government
regulator’s hands.” 531 U.S. at 20, 121 S.Ct. 365. The
Court reasoned that (1) the licenses themselves had
no economic value until they were issued to a private
actor, and (2) the state’s right to control the issuance
of its licenses “implicated [its] role as sovereign, not
as property holder.” Id. at 22–24, 121 S.Ct. 365. Thus,
the Court concluded that the government’s “theories
of property rights ... [both] stray[ed] from traditional
concepts of property” and invited a “sweeping
expansion of federal criminal jurisdiction in the
absence of a clear statement by Congress.” Id. at 24,
121 S.Ct. 365.
While Cleveland remains good law, courts have
consistently rejected attempts – similar to those
advanced by Defendants here – to apply its holding
expansively. See, e.g., Pasquantino, 544 U.S. at 357,
125 S.Ct. 1766 (“Cleveland is different from this
case.”); Fountain v. United States, 357 F.3d 250, 256
(2d Cir. 2004) (explaining that Cleveland had only a
“modest” effect on the existing legal landscape);
United States v. Middendorf, No. 18-cr-36 (JPO),

16a
2018 WL 3443117, at *8–9 (S.D.N.Y. July 17, 2018)
(rejecting a Cleveland-based argument similar to the
one raised here). As the Supreme Court has clarified,
Cleveland simply “held that a [s]tate’s interest in an
unissued video poker license was not ‘property,’
because the interest in choosing particular licensees
was ‘purely regulatory’ and ‘could not be economic.’”
Pasquantino, 544 U.S. at 357, 125 S.Ct. 1766
(emphasis added) (brackets omitted) (quoting
Cleveland, 531 U.S. at 22–23, 121 S.Ct. 365).
Consistent with this formulation, we have observed
that Cleveland’s “particular selection of factors” did
not establish “rigid criteria for defining property but
instead ... provid[ed] permissible considerations.”
Fountain, 357 F.3d at 256. The considerations relied
upon by the Court in Cleveland are thus in addition
to considerations recognized in other cases, such as
the “right to exclude” that was “deemed crucial in
defining property” in Carpenter. Id.
Here, we find it most significant that CMS
possesses a “right to exclude” that is comparable to
the proprietary right recognized in Carpenter. Like
the private news company in Carpenter, CMS has a
“property right in keeping confidential and making
exclusive use” of its nonpublic predecisional
information. Carpenter, 484 U.S. at 26, 108 S.Ct. 316.
In stark contrast to a state’s right to issue or deny a
poker license – a “paradigmatic exercise[ ] of the
[state’s] traditional police powers” – CMS’s right to
exclude the public from accessing its confidential
predecisional information squarely implicates the
government’s role as property holder, not as
sovereign. Cleveland, 531 U.S. at 23, 121 S.Ct. 365.
This view is consistent with pre-Cleveland decisions
from this and other Circuits. See United States v.

17a
Girard, 601 F.2d 69, 71 (2d Cir. 1979) (concluding
that “the [g]overnment has a property interest in
certain of its private records,” including the
confidential information contained in those records);
United States v. Czubinski, 106 F.3d 1069, 1074 (1st
Cir. 1997) (holding that the IRS’s confidential
taxpayer information “may constitute intangible
‘property’” under the wire fraud statute (citing
Carpenter, 484 U.S. at 26, 108 S.Ct. 316)).
Furthermore, although we do not read Cleveland
as strictly requiring the government’s property
interest to be “economic” in nature, the government
presented evidence that CMS does have an economic
interest in its confidential predecisional information.
For example, the evidence at trial established that
CMS invests time and resources into generating and
maintaining the confidentiality of its nonpublic
predecisional information – resources that are
devalued when the information is leaked to members
of the public. See Carpenter, 484 U.S. at 26, 108 S.Ct.
316; see also, e.g., Middendorf, 2018 WL 3443117, at
*9 (concluding that a statutory non-profit’s
confidential
inspection
lists
were
“certainly
something of value to the [non-profit], which invested
time and resources into their creation” (internal
quotation marks omitted)). Relatedly, the selective
leaking of confidential CMS information risks
hampering the agency’s decision-making process.
Although this risk obviously implicates CMS’s
regulatory interests, it also implicates CMS’s
economic interest in making efficient use of its
limited time and resources. As former CMS Director
Dr. Jonathan Blum testified, leaks of confidential
information could result in unbalanced lobbying
efforts, which would in turn impede the agency’s

18a
efficient functioning by making it “more difficult to
manage the process flow and to convince [Blum’s]
superiors of the right course for the Medicare
program.” App’x at 467. Leaks may also require the
agency
to
“tighten
up”
its
internal
information-sharing processes, again with the result
that the agency would become less efficient. Id. at
766; see also EPA v. Mink, 410 U.S. 73, 87, 93 S.Ct.
827, 35 L.Ed.2d 119 (1973) (explaining that Congress
enacted the “deliberative process” exemption to the
Freedom
of
Information
Act’s
disclosure
requirements, 5 U.S.C. § 552(b)(5), because the
“efficiency of [g]overnment would be greatly
hampered if, with respect to legal and policy matters,
all [g]overnment agencies were prematurely forced to
‘operate in a fishbowl.’” (quoting S. Rep. No. 89-813,
at 9 (1965))), superseded by statute on other grounds
as stated in CIA v. Sims, 471 U.S. 159, 190 n.5, 105
S.Ct. 1881, 85 L.Ed.2d 173 (1985).
Despite CMS’s proprietary right to exclude and
well-recognized economic interests, Defendants argue
that the confidential CMS information at issue in this
case was not “property” because there was no
evidence at trial to establish that CMS suffered an
actual monetary loss. In support of this argument,
Defendants mainly rely on a single sentence in this
Court’s decision in Fountain: “[Cleveland] indicates
that, in the context of government regulation,
monetary loss presents a critical, perhaps threshold
consideration.” 357 F.3d at 257. For two reasons, this
sentence cannot bear the weight Defendants place on
it.
First, Fountain, like Cleveland, was not a case
about confidential government information – it
simply held that taxes owed to a government may

19a
constitute “property” in its hands – and thus we do
not believe that Fountain’s reference to “the context
of government regulation” contemplated the
circumstances presented here. Second, and more
fundamentally, while monetary loss may generally be
a useful tool for distinguishing the government’s
property interests from its “purely regulatory”
interests, Cleveland did not, we emphasize, establish
any “rigid criteria for defining property.” Id. at 256.
Nor do we see any reason to impose a rigid “monetary
loss” criterion here. Such a requirement would be at
odds with Carpenter, which squarely rejected the
argument “that a scheme to defraud requires a
monetary loss,” and instead found it “sufficient that
the Journal ha[d] been deprived of its right to
exclusive use of the information” because “exclusivity
is an important aspect of confidential business
information and most private property for that
matter.” 484 U.S. at 26–27, 108 S.Ct. 316. Although
CMS is not a private entity, Carpenter’s reasoning
applies with equal force, since exclusivity is no less
important in the context of confidential government
information. See, e.g., Girard, 601 F.2d at 71; see also
Pasquantino, 544 U.S. at 356, 125 S.Ct. 1766 (“The
fact that the victim of the fraud happens to be the
government, rather than a private party, does not
lessen the injury.”); Middendorf, 2018 WL 3443117,
at *8 (explaining that the “reasoning of Carpenter
supports the conclusion that confidential information
– whether held by the government [or] a private
entity ... – is ‘property’”). It is abundantly clear that
government agencies have strong interests – both
regulatory and economic – in controlling whether,
when, and how to disclose confidential information
relating to their contemplated rules. See Mink, 410

20a
U.S. at 87, 93 S.Ct. 827 (recognizing the important
“public policy ... of open, frank discussion between
subordinate and chief concerning administrative
action” (internal quotation marks omitted)); supra pp.
33–34. Although fraudulent interference with these
interests may at times result in monetary loss to the
fraud victim, nothing in the Title 18 fraud statutes
requires that to be so.
In sum, the government’s theory of property rights
over a regulatory agency’s confidential predecisional
information does not “stray from traditional concepts
of property,” Cleveland, 531 U.S. at 24, 121 S.Ct. 365,
but rather is entirely consistent with them. We
therefore hold that, in general, confidential
government information may constitute government
“property” for purposes of 18 U.S.C. §§ 1343 and
1348, and that here, there was sufficient evidence to
establish that the CMS information at issue was
“property” in the hands of CMS.
B. Whether Dirks v. SEC applies to 18 U.S.C. §§ 1343
and 1348
Under Dirks, an insider may not be convicted of
Title 15 securities fraud unless the government
proves that he breached a duty of trust and
confidence by disclosing material, nonpublic
information in exchange for a “personal benefit.” 463
U.S. at 663, 103 S.Ct. 3255. Similarly, a tippee may
not be convicted of such fraud unless he utilized the
inside information knowing that it had been obtained
in breach of the insider’s duty. See United States v.
Newman, 773 F.3d 438, 447–49 (2d Cir. 2014),
abrogated on other grounds by Salman v. United
States, ––– U.S. ––––, 137 S. Ct. 420, 196 L.Ed.2d 351
(2016). Here, Defendants claim that the district court

21a
erred by not instructing the jury that Dirks’s
personal-benefit test also applied to the wire fraud
and Title 18 securities fraud counts. In essence,
Defendants argue that the term “defraud” should be
construed to have the same meaning across the Title
18 fraud provisions and Rule 10b-5, so that the
elements of insider-trading fraud are the same under
each of these provisions. We disagree.
We begin by noting what the Title 18 fraud
statutes and Title 15 fraud provisions have in
common: their text does not mention a “personal
benefit” test. Rather, these provisions prohibit, with
certain variations, schemes to “defraud.” 18 U.S.C. §§
1343, 1348(1); 17 C.F.R. § 240.10b-5(a); see 18 U.S.C.
§ 1348(2) (prohibiting schemes to obtain certain
property “by means of false or fraudulent pretenses”);
15 U.S.C. § 78j(b) (prohibiting the use of any
“manipulative or deceptive device”). For each of these
provisions, the term “defraud” encompasses the
so-called “embezzlement” or “misappropriation”
theory of fraud. See United States v. O’Hagan, 521
U.S. 642, 653–54, 117 S.Ct. 2199, 138 L.Ed.2d 724
(1997) (Title 15 securities fraud); Carpenter, 484 U.S.
at 27, 108 S.Ct. 316 (mail and wire fraud); see also,
e.g., United States v. Mahaffy, 693 F.3d 113, 123 (2d
Cir. 2012) (Title 18 securities fraud). According to
this theory, “[t]he concept of ‘fraud’ includes the act of
embezzlement, which is ‘the fraudulent appropriation
to one’s own use of the money or goods entrusted to
one’s care by another.’” Carpenter, 484 U.S. at 27, 108
S.Ct. 316 (quoting Grin v. Shine, 187 U.S. 181, 189,
23 S.Ct. 98, 47 L.Ed. 130 (1902)). The undisclosed
misappropriation of confidential information, in
breach of a fiduciary or similar duty of trust and
confidence, “constitutes fraud akin to embezzlement.”

22a
O’Hagan, 521 U.S. at 654, 117 S.Ct. 2199; see also
United States v. Chestman, 947 F.2d 551, 566–67, 571
(2d Cir. 1991) (en banc).
While the Title 18 fraud statutes and Title 15
fraud provisions thus share similar text and proscribe
similar theories of fraud, these common features have
little to do with the personal-benefit test. Rather, the
personal-benefit test is a judge-made doctrine
premised on the Exchange Act’s statutory purpose.
As Dirks explained, in order to protect the free flow of
information into the securities markets, Congress
enacted the Title 15 fraud provisions with the limited
“purpose of ... eliminat[ing] [the] use of inside
information for personal advantage.” 463 U.S. at 662,
103 S.Ct. 3255 (emphasis added) (internal quotation
marks omitted). Dirks effectuated this purpose by
holding that an insider could not breach his fiduciary
duties by tipping confidential information unless he
did so in exchange for a personal benefit. Id. at
662–64, 103 S.Ct. 3255; see also Chestman, 947 F.2d
at 581 (Winter, J., concurring in part and dissenting
in part) (observing that whereas the theory of fraud
recognized in Carpenter “is derived from the law of
theft or embezzlement,” the “Dirks rule is derived
from securities law, and ... [is] influenced by the need
to allow persons to profit from generating information
about firms so that the pricing of securities is
efficient”); United States v. Pinto-Thomaz, 352 F.
Supp. 3d 287, 298 (S.D.N.Y. 2018) (Rakoff, J.)
(“Although [the Dirks personal-benefit test] was novel
law, the Court reasoned that this test was consistent
with the ‘purpose of the [Title 15] securities laws ... to
eliminate use of inside information for personal
advantage.’” (quoting Dirks, 463 U.S. at 662, 103
S.Ct. 3255)).

23a
But once untethered from the statutory context in
which it arose, the personal-benefit test finds no
support in the embezzlement theory of fraud
recognized in Carpenter. In the context of
embezzlement, there is no additional requirement
that an insider breach a duty to the owner of the
property, since “it is impossible for a person to
embezzle the money of another without committing a
fraud upon him.” Grin, 187 U.S. at 189, 23 S.Ct. 98.
Because a breach of duty is thus inherent in
Carpenter’s formulation of embezzlement, there is
likewise no additional requirement that the
government prove a breach of duty in a specific
manner, let alone through evidence that an insider
tipped confidential information in exchange for a
personal benefit. See O’Hagan, 521 U.S. at 682 n.1,
117 S.Ct. 2199 (Thomas, J., concurring in the
judgment in part and dissenting in part) (“Of course,
the ‘use’ to which one puts misappropriated property
need not be one designed to bring profit to the
misappropriator: Any ‘fraudulent appropriation to
one’s own use’ constitutes embezzlement, regardless
of what the embezzler chooses to do with the
money.”); see also United States v. Bryan, 58 F.3d
933, 953 (4th Cir. 1995) (“Those who trade on
purloined information but who do not come within
the ... definition of ‘insider’ [set forth in Chiarella v.
United States, 445 U.S. 222, 100 S.Ct. 1108, 63
L.Ed.2d 348 (1980), and Dirks] are still almost
certain to be subject to criminal liability for federal
mail or wire fraud.”), abrogated on other grounds by
O’Hagan, 521 U.S. 642, 117 S.Ct. 2199. In short,
because the personal-benefit test is not grounded in
the embezzlement theory of fraud, but rather
depends entirely on the purpose of the Exchange Act,

24a
we decline to extend Dirks beyond the context of that
statute.
Our conclusion is the same for both the wire fraud
and Title 18 securities fraud statutes. While it is true
that Section 1348 of Title 18, unlike the wire fraud
statute, concerns the general subject matter of
securities law, Section 1348 and the Exchange Act do
not share the same statutory purpose. See United
States v. Mills, 850 F.3d 693, 699 (4th Cir. 2017)
(“The doctrine of in pari materia is inapplicable when
statutes have different purposes.”). Indeed, Section
1348 was added to the criminal code by the
Sarbanes-Oxley Act of 2002 in large part to overcome
the “technical legal requirements” of the Title 15
fraud provisions. S. Rep. No. 107-146, at 6; see United
States v. Hoskins, 902 F.3d 69, 81 n.5 (2d Cir. 2018)
(“As a general matter, we may consider reliable
legislative history where, as here, the statute is
susceptible to divergent understandings and, equally
important, where there exists authoritative
legislative history that assists in discerning what
Congress actually meant.” (internal quotation marks
omitted)). In particular, Congress intended for
Section 1348 to “supplement the patchwork of
existing technical securities law violations with a
more general and less technical provision, with
elements and intent requirements comparable to
current bank fraud and health care fraud statutes.”
S. Rep. No. 107-146, at 14. Given that Section 1348
was intended to provide prosecutors with a different
– and broader – enforcement mechanism to address
securities fraud than what had been previously
provided in the Title 15 fraud provisions, we decline
to graft the Dirks personal-benefit test onto the
elements of Title 18 securities fraud.

25a
Finally, Defendants argue that we should extend
Dirks beyond the Title 15 fraud provisions because
otherwise
the
government
may avoid the
personal-benefit test altogether by prosecuting
insider-trading fraud with less difficulty under the
Title 18 fraud statutes – particularly the Title 18
securities fraud statute, which (unlike the wire fraud
statute) does not require proof that wires were used
to carry out the fraud. But whatever the force of this
argument as a policy matter, we may not rest our
interpretation of the Title 18 fraud provisions “on
such enforcement policy considerations.” O’Hagan,
521 U.S. at 678 n.25, 117 S.Ct. 2199. “The Federal
Criminal Code is replete with provisions that
criminalize overlapping conduct,” and so “[t]he mere
fact that two federal criminal statutes criminalize
similar conduct says little about the scope of either.”
Pasquantino, 544 U.S. at 358 n.4, 125 S.Ct. 1766.
Congress was certainly authorized to enact a broader
securities fraud provision, and it is not the place of
courts to check that decision on policy grounds.
Accordingly, we hold that the personal-benefit test
does not apply to the wire fraud and Title 18
securities fraud statutes, and thus the district court
did not err by refusing to instruct the jury on the
personal-benefit test for those offenses.
C. Conversion of U.S. Property
The federal conversion statute proscribes
“knowingly convert[ing] to [one’s] use or the use of
another ... any ... thing of value of the United States,”
or “receiv[ing] ... the same with intent to convert it to
[one’s] use or gain, knowing it to have been ...
converted.” 18 U.S.C. § 641. Defendants challenge
their convictions under this statute on five grounds.

26a
All defendants argue that (1) the evidence was
insufficient to establish that they “seriously
interfered” with CMS’s ownership of its confidential
information, as required to prove conversion, and (2)
information is not a “thing of value” for purposes of
Section 641. Olan, Huber, and Blaszczak further
argue that (3) the conversion statute is
unconstitutionally vague as applied to them, and (4)
the evidence was insufficient to establish scienter.
Finally, Olan and Huber contend that (5) the district
court erred in giving a conscious avoidance jury
instruction. We address each of these arguments in
turn.
1. “Serious Interference”
Defendants first argue that there was insufficient
evidence at trial to prove conversion of U.S. property
because the government presented no evidence that
Defendants
interfered,
let
alone
“seriously
interfered,” with CMS’s ability to use its confidential
information in the rulemaking process. Although the
government agrees that “serious interference” is
required, it responds that “the interference is
complete when the [confidential] information is
disclosed, and the interference is serious when the
government has demonstrated a strong interest in
maintaining confidentiality of that species of
information.” 2 Appellee’s Br. at 109.
Because there is no dispute here, we assume without deciding
that the conversion statute requires a “serious interference”
with property. It is worth noting that although this court has yet
to decide this issue, all of our sister Circuits to address the
question have held, consistent with the common-law definition
of conversion, that a “serious interference” is required. See
United States v. Collins, 56 F.3d 1416, 1420 (D.C. Cir. 1995)
(“The cornerstone of conversion is the unauthorized exercise of
2

27a
We disagree with Defendants’ view of how the
“serious interference” standard applies when, as here,
the property at issue is confidential information. By
focusing on the fact that their misappropriation of
confidential CMS information did not ultimately
affect the rules that CMS subsequently announced,
Defendants disregard the Supreme Court’s teaching
in Morissette v. United States that conversion under
Section 641 extends broadly to the “misuse or abuse
of [government] property.” 342 U.S. 246, 272, 72 S.Ct.
240, 96 L.Ed. 288 (1952). Moreover, Defendants’
argument overlooks the fact that the unauthorized
disclosure
of
CMS’s
confidential
nonpublic
information by definition interferes with the agency’s
right to exclude the public from accessing such
information. See Carpenter, 484 U.S. at 26, 108 S.Ct.
316 (rejecting the defendants’ argument that they
“did not interfere with the Journal’s use of the
[pre-publication] information” as “miss[ing] the
point,” because it sufficed that the defendants
interfered with the Journal’s “right to decide how to
use [the information] prior to disclosing it to the
public”). Thus, we agree with the government that
the relevant “interference” with CMS’s ownership of
control over property in such a manner that serious interference
with ownership rights occurs.”); United States v. Scott, 789 F.2d
795, 798 (9th Cir. 1986) (similar); United States v. May, 625
F.2d 186, 192 (8th Cir. 1980) (similar); see also Restatement
(Second) of Torts § 222A (1965). Although arguably a lesser
quantum of interference might be required under the federal
conversion statute, which was intended to broaden the scope of
the common-law crime, see Collins, 56 F.3d at 1419, certainly
evidence sufficient to establish “serious interference” under the
common law would, at a minimum, also be sufficient to establish
the requisite interference required for conversion under Section
641.

28a
confidential information was complete upon the
unauthorized disclosure.
As for the “seriousness” of the interference, we
also reject Defendants’ contention that their
misappropriation of confidential CMS information
exceeded the reach of the conversion statute simply
because CMS was able to keep using the information.
Defendants’ argument is inconsistent with the
Restatement, which sets forth a multi-factor test for
determining the “seriousness of the interference” that
lists “the harm done to the [property]” and “the
inconvenience and expense caused to the [property
owner]” as only two of six non-exhaustive factors,
none of which “is always predominant.” Restatement
(Second) of Torts § 222A(2) & cmt. d (1965)
(hereinafter “Restatement”); see also United States v.
Collins, 56 F.3d 1416, 1420 (D.C. Cir. 1995) (citing
the Restatement to interpret Section 641); United
States v. May, 625 F.2d 186, 192 (8th Cir. 1980)
(same). Moreover, Defendants’ view is also in stark
tension with our holding in Girard, where we upheld
the defendants’ convictions under Section 641 for
engaging in a scheme to sell confidential DEA
information that identified the agency’s informants,
even though the scheme was unsuccessful and there
was no suggestion that the informants were in fact
compromised. 601 F.2d at 70, 73; see also Morissette,
342 U.S. at 272, 72 S.Ct. 240 (explaining that “merely
... commingling” money may constitute conversion
where the custodian is “under a duty to keep it
separate and intact”).
Thus, while the jury in this case was free to
consider the fact that CMS was able to use the
misappropriated information and did not suffer any
monetary loss, it was also free to consider other

29a
factors, including (1) the strength of the government’s
interest in maintaining confidentiality, (2) the risk of
harm to the government’s interests posed by the
unauthorized disclosure, and (3) the extent of the
unauthorized disclosure. See Restatement § 222A(2);
see also, e.g., Girard, 601 F.2d at 70, 73.
Applying this standard here, we conclude that
there was sufficient evidence to support the jury’s
finding of serious interference with CMS’s ownership
of its confidential information. Dr. Blum testified that
“[i]t’s a very strong precedent and a very strong
principle that every stakeholder has the right to
receive the materials [concerning a rule] at the same
time,” because the “rule-making process is based
upon the notion that the entire public that can be
affected ... ha[s] the right to comment” in a manner
that is fair to all stakeholders. App’x at 467. The
leaking of predecisional information, Dr. Blum
explained, could thus tilt the playing field against
interest groups (and the public) who were not yet
privy to the information, and also prematurely
“trigger powerful [lobbying] forces to try and stop
decisions.” Id. CMS employee Amy Bassano echoed
these views in her testimony, while adding that CMS
employees were more “wary of what [stakeholders
were] going to be sharing” with the agency after
predecisional information had leaked. Id. at 767. This
increased wariness, combined with the agency’s
tightening up of internal information-sharing
protocols, “sometimes result[ed] in suboptimal
[policy] outcomes.” Id. Furthermore, all of these
adverse effects harmed CMS economically by making
the agency function less efficiently. See supra pp.
33–34.
As for other relevant factors, the jury could

30a
reasonably infer that the disclosure of confidential
information to a Washington D.C. consultant like
Blaszczak – and ultimately to Blaszczak’s clients –
seriously risked harming the government’s interests
by threatening wider disclosure of the information to
interested stakeholders. Indeed, the government
presented evidence that Blaszczak tipped confidential
information not only to hedge fund partners, who
sought to use the information for trading purposes,
but also to employees of healthcare companies such
as Amgen, a regulated entity that stood to benefit
from the very informational asymmetry that the
government’s confidentiality rules for predecisional
information were designed to prevent. Taken
together, this evidence was sufficient to support a
finding that Defendants’ misappropriation of CMS’s
confidential
nonpublic
information
“seriously
interfered” with CMS’s ownership rights for purposes
of the conversion statute.
2. “Thing of Value”
Defendants
next
argue
that
confidential
information is not a “thing of value” within the
meaning of the conversion statute. 18 U.S.C. § 641
(emphasis added). But as this Court explained in
Girard, “[t]he word ‘thing’ notwithstanding, the
phrase is generally construed to cover intangibles as
well as tangibles.” 601 F.2d at 71 (collecting cases).
Thus, “[a]lthough the content of a writing is an
intangible, it is nonetheless a thing a value.” Id.
Contrary to Defendants’ strained reading of the case,
we read Girard to hold that confidential information
can itself be a “thing of value” under Section 641. Id.;
see also United States v. Matzkin, 14 F.3d 1014, 1021
(4th Cir. 1994) (holding that confidential information
was a “thing of value”); United States v. Barger, 931

31a
F.2d 359, 368 (6th Cir. 1991) (citing, inter alia,
Girard for the proposition that “information itself is
enough to meet the property or ‘thing of value’
element of the statute.”). Thus, whatever the merit of
Defendants’ textual argument, we are not at liberty
to reconsider Girard here. See, e.g., Deem v.
DiMella-Deem, 941 F.3d 618, 623 (2d Cir. 2019) (“[A]
published panel decision is binding on future panels
unless and until it is overruled by the Court en banc
or by the Supreme Court.” (internal quotation marks
omitted)).
3. Vagueness
Olan, Huber, and Blaszczak further argue that
Section 641 is unconstitutionally vague as applied to
them because there was no rule or regulation making
clear that Worrall’s disclosure of CMS’s confidential
information was “without authority.” 3 This argument
too lacks merit.
“Where, as here, we are not dealing with
defendants’ exercise of a first amendment freedom,
we should not search for statutory vagueness that did
not exist for the defendants themselves.” Girard, 601
F.2d at 71; see also United States v. Mazurie, 419 U.S.
544, 550, 95 S.Ct. 710, 42 L.Ed.2d 706 (1975)
(“[V]agueness challenges to statutes which do not
The phrase “without authority” in Section 641 modifies only
the words that follow it, “sells, conveys, or disposes,” not the
words preceding it, “embezzles, steals, purloins, or knowingly
converts.” 18 U.S.C. § 641. Nevertheless, in this context, the
“without authority” requirement is implied by the definition of
conversion. See Restatement § 228 (“One who is authorized to
make a particular use of a chattel, and uses it in a manner
exceeding the authorization, is subject to liability for conversion
to another whose right to control the use of the chattel is
thereby seriously violated.”).
3

32a
involve First Amendment freedoms must be
examined in the light of the facts of the case at
hand.”). In Girard, we held that “statutory vagueness
... did not exist for the defendants themselves”
because the defendants “must have known” that the
disclosure of the identity of DEA informants was
unauthorized. 601 F.2d at 71. Although we noted that
the “DEA’s own rules and regulations forbidding such
disclosure” were relevant to the inquiry, id., we did
not, contrary to Defendants’ suggestion, require the
existence of a published rule or regulation on point.
See United States v. McAusland, 979 F.2d 970, 975
(4th Cir. 1992) (“We do not read [Girard] as requiring
the disclosure to be specifically proscribed by
published regulations.”). Nor will we impose such a
sweeping extra-textual requirement here. Rather, we
agree with the Fourth Circuit that “the existence of a
published regulation proscribing disclosure” is not
“the exclusive method of preventing vagueness.” Id.;
see also, e.g., id. at 975–76 (rejecting defendants’
as-applied vagueness challenge in light of “legends
restricting disclosure” on the converted documents,
“[d]efendants’ behavior,” and witnesses’ testimony at
trial that defendants “would have known that the
information was not to be disclosed”); United States v.
Jones, 677 F. Supp. 238, 241 (S.D.N.Y. 1988) (“Given
the government’s long[-]standing practice of
maintaining the confidentiality of information
relevant to on-going criminal investigations, and
given the government’s obvious interest in
maintaining such confidentiality, the defendant could
reasonably know the proscribed nature of his alleged
actions.”).
Here, as in Girard, there was ample evidence at
trial to establish that Defendants “must have known”

33a
that the disclosure of the predecisional CMS
information at issue was prohibited. Although
Worrall does not raise a vagueness challenge himself,
it bears noting that CMS employees were subject to 5
C.F.R. § 2635.703(a) (the text of which was
introduced into evidence at trial), which forbids the
“improper use of nonpublic information to further
[the employee’s] own private interest or that of
another ... by knowing unauthorized disclosure.” The
regulation
further
provides
that
“nonpublic
information is information that the employee gains
by reason of Federal employment and that he knows
or reasonably should know has not been made
available to the general public.” Id. § 2635.703(b). In
addition, CMS employees received extensive training
on the rules prohibiting disclosure of nonpublic
predecisional information.
As a former employee, Blaszczak was previously
subject to these same rules and presumably had also
received training on the confidential nature of
predecisional information. At trial, moreover, the
government’s witnesses consistently testified to the
fact that Blaszczak, Olan, and Huber – and
consultants and securities traders in the healthcare
space more generally – knew that predecisional CMS
information was nonpublic and confidential. Indeed,
Fogel testified that the Deerfield defendants valued
predecisional CMS information precisely because it
was not available to other traders. Plaford testified
similarly as to his own motivations.
That testimony was corroborated by evidence of
Defendants’ own communications and behavior. In
one episode in 2012, for example, Olan, Huber, Fogel,
and Blaszczak attempted to extract predecisional
CMS information from CMS consultant Dr. Niles

34a
Rosen, prompting an email discussion of the fact that
Rosen was unlikely to disclose such information. Olan
commented that he thought the odds of Blaszczak
“getting shut down by [R]osen [were] 103%,” but
nevertheless Blaszczak and the Deerfield partners
pushed ahead in the hopes that Blaszczak might get
Rosen to “bite[ ],” since he was “the man with the
keys to [the radiation-oncology device] companies’
coffins.” App’x at 1982, 2428. Ultimately, Rosen
rebuffed Blaszczak’s efforts, writing in an email, “As
you clearly understand, I cannot share with you our
recommendations to CMS.” Id. at 2431.
Thus, construing the evidence in the light most
favorable to the prosecution, we conclude that there
was sufficient evidence to establish that Olan, Huber,
and Blaszczak knew that the CMS information at
issue was disclosed “without authority.” Accordingly,
their as-applied vagueness challenge fails.
4. Scienter
Olan and Huber next argue that there was
insufficient evidence at trial to establish that they
received confidential CMS information “knowing it to
have been ... converted,” as required by 18 U.S.C. §
641. Blaszczak similarly argues that the evidence
was insufficient to prove his “intent to convert [such
information] to his use or gain.” Id. Again, we
disagree, and find that the evidence at trial was
sufficient to establish Olan’s and Huber’s knowledge
that they received converted property.
Specifically, we reject, for the reasons just
mentioned, Olan’s argument (joined by Huber) that
the evidence was insufficient to prove his knowledge
of unauthorized disclosure. We also reject Olan’s
claim that the evidence was insufficient to prove his

35a
knowledge of “serious interference” with CMS’s
ownership of its confidential information. Despite
Olan’s bald assertion that “[t]here was no way for
[him] ... to know that disclosure of the information”
could affect CMS’s rulemaking process given that he
had “never worked for CMS,” Olan Br. at 45, fellow
Deerfield partner Fogel – who had also never worked
for CMS – testified that he understood that disclosure
of CMS’s confidential information “had the potential
to disrupt CMS’s process,” App’x at 564. Indeed,
Fogel specifically acknowledged that if CMS’s
confidential “information was out there, it would give
industry lobbyists and others a chance to ... stop a
proposed cut or increase from happening.” Id. Most
notably, Fogel testified that he “discuss[ed] th[e]
impact on the CMS process” with Huber and Olan.
Id. This detailed testimony alone was enough to
establish Huber’s and Olan’s knowledge of serious
interference. See United States v. Hamilton, 334 F.3d
170, 179 (2d Cir. 2003) (“The testimony of a single
accomplice is sufficient to sustain a conviction so long
as that testimony is not incredible on its face and is
capable of establishing guilt beyond a reasonable
doubt.” (internal quotation marks omitted)).
As to Blaszczak’s sufficiency challenge, there was
ample evidence to support a finding that Blaszczak
intended to convert the confidential CMS information
that he received from CMS insiders to his use or gain.
Although Blaszczak argues that there was
insufficient evidence to establish that he specifically
“intend[ed] [for] his predictions and analyses ... to
interfere ... with CMS’s work,” Blaszczak Br. at 57,
the requisite intent was established by evidence that
Blaszczak, himself a former CMS employee, obviously
knew that the disclosure of the predecisional CMS

36a
information he received was unauthorized and could
spawn interference with CMS’s processes, but he
nevertheless intentionally proceeded to appropriate
such information to his own use by disclosing it to his
hedge fund clients. See Morissette, 342 U.S. at
270–72, 72 S.Ct. 240.
5. Conscious Avoidance Instruction
Last, we reject Olan’s and Huber’s claim that the
district court erred in giving a “conscious avoidance”
instruction. As relevant here, a conscious avoidance
instruction may only be given if “the appropriate
factual predicate for the charge exists, i.e. the
evidence is such that a rational juror may reach the
conclusion beyond a reasonable doubt that the
defendant was aware of a high probability of the fact
in dispute and consciously avoided confirming that
fact.” United States v. Goffer, 721 F.3d 113, 126–27
(2d Cir. 2013) (internal quotation marks omitted).
This standard is easily satisfied here. To repeat, the
evidence at trial established that Olan and Huber
sought out Blaszczak’s services precisely so they
could trade on information that other analysts and
consultants did not possess. And as Fogel testified,
when Blaszczak gave the Deerfield partners the
nonpublic information they sought, he either told
them “explicitly” that it came from CMS insiders, or
that fact was “implied or obvious” given the context in
which the information was conveyed. App’x at 555. In
addition, Fogel testified that he, Olan, and Huber
specifically discussed the fact that disclosure of
CMS’s confidential predecisional information could
harm the agency’s regulatory process. In these
circumstances, a rational juror could find that, even if
Olan and Huber did not have actual knowledge that
Blaszczak’s predictions were based on confidential

37a
CMS information that had been converted, Olan and
Huber were at least aware of a high probability of
that fact and yet consciously avoided confirming it.
D. Other Sufficiency Arguments
Blaszczak, joined by Olan and Huber, next argues
that at most the evidence established that he passed
along information that was already public, or that
was disclosed by CMS insiders who had the authority
to disclose it. This argument is meritless. The fact
that Blaszczak had access to legitimate sources of
information that could have supported his predictions
hardly compels the conclusion that he in fact relied
on those sources, rather than on CMS insiders who
disclosed confidential information without authority,
as Fogel and Plaford testified. And while Blaszczak
makes much of the fact that his predictions were not
always accurate, his lack of perfection does not
compel an inference that his sources were legitimate
and public. As the evidence reflected, there were
various reasons why CMS might adjust its position
between the time that confidential predecisional
information leaked and the time that a rule was
publicly announced. Moreover, despite Blaszczak’s
imperfect record, his predictions were still more
accurate (and valuable) than those of other market
consultants. Put simply, Blaszczak invites us to
choose “between competing inferences,” but this is a
fact-finding function that lies “solely within the
province of the jury.” United States v. Payne, 591 F.3d
46, 60 (2d Cir. 2010).
For similar reasons, we reject Worrall’s argument
that the evidence was insufficient to establish that he
was the source of leaked CMS information in 2012.
Contrary to Worrall’s suggestion, the government

38a
was not required to prove the precise way in which he
became
aware
of
predecisional
information
concerning the proposed radiation oncology rule.
Rather, the government was entitled to prove
Worrall’s knowledge of the information through
circumstantial evidence, including evidence that
Worrall had access to the information because he
worked closely with Blum and his job responsibilities
exposed him to various matters within the agency. As
to whether Worrall disclosed this information to
Blaszczak, the government introduced into evidence a
May 8, 2012 CMS sign-in sheet establishing that
Blaszczak met Worrall the day before relaying
confidential information concerning the proposed
radiation oncology rule to Fogel. This evidence was
buttressed by testimony from Marc Samuels,
Blaszczak’s consulting partner between 2008 and
2012, who recalled that Blaszczak had specifically
named Worrall as a source of confidential CMS
information. The government also presented evidence
that Blaszczak and Worrall remained close in 2013
and 2014; for example, Blaszczak’s research analyst
during that period, Timothy Epple, testified that
Blaszczak “would reference his friend Chris most
often” as his source of nonpublic CMS information.
App’x at 872. Epple further testified that, after
Blaszczak learned he was under investigation by the
SEC, he pointedly asked Worrall whether
investigators had been questioning people at CMS.
While Worrall argues that Blaszczak could
nevertheless have obtained information about the
2012 radiation oncology rule from other people at
CMS, the above-referenced evidence was more than
sufficient to support the jury’s contrary finding on
this point.

39a
Thus, having carefully reviewed the record, we
conclude that the evidence at trial was sufficient to
support the jury’s verdict on each count of conviction. 4
E. Misjoinder
Olan and Huber next argue that the district court
erred in denying their motion under Federal Rule of
Criminal Procedure 8(b) to sever Counts Seventeen
and Eighteen, which charged Blaszczak alone in the
Visium scheme, from the remaining counts.
Rule 8(b) provides that an indictment “may charge
[two] or more defendants if they are alleged to have
participated in the same act or transaction, or in the
same series of acts or transactions, constituting an
offense or offenses.” Fed. R. Crim. P. 8(b). Under this
rule, “joinder of defendants is proper when the
alleged acts are ‘unified by some substantial identity
of facts or participants, or arise out of a common plan
or scheme.’” United States v. Feyrer, 333 F.3d 110,
114 (2d Cir. 2003) (quoting United States v.
Attanasio, 870 F.2d 809, 815 (2d Cir. 1989)). In
administering this standard, we “apply a
‘commonsense rule’ to decide whether, in light of the
factual overlap among charges, joint proceedings
would produce sufficient efficiencies such that joinder
is proper notwithstanding the possibility of prejudice
Because each of the conspiracy convictions was predicated on
substantive counts for which there was sufficient evidence, we
need not reach the issue of whether there was also sufficient
evidence to support so-called “Klein” conspiracies to defraud the
United States, in violation of 18 U.S.C. § 371, by “obstruct[ing] a
lawful function of the Government ... by deceitful or dishonest
means.” United States v. Coplan, 703 F.3d 46, 61 (2d Cir. 2012)
(internal quotation marks omitted); see United States v.
Desnoyers, 637 F.3d 105, 109–10 (2d Cir. 2011); United States v.
Coriaty, 300 F.3d 244, 250 (2d Cir. 2002).
4

40a
to either or both of the defendants resulting from the
joinder.” United States v. Rittweger, 524 F.3d 171,
177 (2d Cir. 2008) (Sotomayor, J.) (quoting Shellef,
507 F.3d at 96). Even where joinder is erroneous, we
will not reverse unless the “misjoinder results in
actual prejudice because it had [a] substantial and
injurious effect or influence in determining the jury’s
verdict.” Shellef, 507 F.3d at 100 (internal quotation
marks omitted).
Here, the district court did not err in concluding
that the Visium-related charges against Blaszczak
were properly joined with the Deerfield-related
charges against Blaszczak, Olan, Huber, and Worrall.
Although these two sets of charges involved distinct
schemes, there was substantial temporal overlap
between the Visium scheme (2011 to 2013) and
Deerfield scheme (mainly 2012 to 2014); the schemes
involved
nearly
identical
conduct,
i.e.,
misappropriation and insider trading of confidential
government information concerning healthcare rules;
and in both schemes, Blaszczak was the key player
and CMS was the victim. These similarities alone
were sufficient to render Rule 8(b) joinder both
efficient and proper. See Rittweger, 524 F.3d at 177;
Feyrer, 333 F.3d at 114; Attanasio, 870 F.2d at 815.
In any event, even if joinder were improper, any
error would be harmless because much of the
evidence relating to the Visium scheme would have
been admissible against Olan and Huber on Counts
One through Sixteen. See Shellef, 507 F.3d at 101–02.
The district court correctly determined that Plaford’s
testimony, which both corroborated Fogel’s testimony
and provided useful background on Blaszczak’s
methods and sources during the same time period as
the Deerfield conspiracy, was relevant evidence on

41a
the charges against Olan and Huber. See Fed. R.
Evid. 401; see also id. 404(b). While the court also
recognized that the probative value of Plaford’s
testimony “may [have been] somewhat attenuated” in
relation to the Deerfield scheme, the court
permissibly concluded that such testimony would not
result in any undue prejudice for purposes of Rule
403(b). App’x at 996; see United States v. Awadallah,
436 F.3d 125, 134 (2d Cir. 2006) (“Only rarely – and
in extraordinarily compelling circumstances – will
we, from the vista of a cold appellate record, reverse a
district court’s on-the-spot judgment concerning the
relative weighing of probative value and unfair
effect.” (internal quotation marks omitted)).
F. Evidentiary Issues
Blaszczak, again joined by Olan and Huber, also
argues that the district court committed several
evidentiary errors warranting a new trial.
Specifically, Blaszczak contends that the district
court erred by (1) limiting as cumulative the defense’s
cross-examination of CMS employee Mark Hartstein
concerning the fact that CMS’s 2012 proposed
radiation oncology rule was based on published
recommendations of the American College for
Radiology; (2) precluding cross-examination of
Plaford as to a prior inconsistent statement; (3)
admitting into evidence statements made by Amgen
employee Ruth Hoffman under the coconspirator
exclusion set forth in Rule 801(d)(2)(E); and (4)
admitting into evidence minutes of a 2007 Deerfield
meeting as a business record for the purpose of
proving Olan’s and Huber’s states of mind.
Having considered these arguments in the context
of the record as a whole, we discern no error

42a
warranting a new trial. The district court acted
within its discretion in limiting Hartstein’s testimony
as to the basis for CMS’s proposed radiation oncology
rule, since other evidence had indeed been introduced
on this subject and Hartstein’s testimony would have
been
cumulative.
Regarding
Plaford’s
prior
inconsistent statement that the market’s prediction
for the home healthcare cuts was 2.5% rather than
3.5% as he recalled at trial, the district court did not
err in concluding that Plaford’s recollection as to the
actual market consensus was a collateral issue. As for
Hoffman’s email statements, the evidence at trial was
sufficient to establish Hoffman’s status as an
unindicted coconspirator for purposes of Rule
801(d)(2)(E) based on her implied agreement with
Blaszczak to misappropriate confidential CMS
information. See, e.g., United States v. Downing, 297
F.3d 52, 57–58 (2d Cir. 2002). Finally, the district
court properly admitted the minutes of the 2007
Deerfield meeting – reflecting that someone at the
meeting had opined that “Blazacks [sic] comments
pre-news suggest he had a read of draft documents,”
App’x at 2039 – as a business record probative of
Olan’s and Huber’s states of mind during the years of
the charged conspiracy, see Fed. R. Evid. 803(6), and
subject to a clear limiting instruction that such
evidence could not be considered against Blaszczak.
We therefore discern no error in the district
court’s evidentiary rulings. Moreover, even assuming
that one or more of these rulings were erroneous, any
errors would fall well short of prejudicial. Over the
course of the month-long trial, the government
presented various forms of evidence establishing that
Blaszczak’s predictions were based on confidential
nonpublic CMS information obtained directly from

43a
CMS insiders, and that Olan and Huber were aware
of that fact when they sought out this information,
received it, and directed Deerfield to trade on it.
IV. CONCLUSION
In upholding the jury’s verdict, we pause to reject
Defendants’ thematic claim that the government’s
positions, if accepted, would herald an unprecedented
expansion of federal criminal law. It is Defendants
who ask us to break new ground by rejecting
well-recognized theories of property rights and by
adding, in effect, a “personal benefit” element to the
Title 18 fraud statutes. We decline these requests,
holding instead that (1) a government agency’s
confidential information relating to its contemplated
rules may constitute “property” for purposes of the
wire fraud and Title 18 securities fraud statutes, and
(2) Dirks’s “personal-benefit” framework does not
apply to these Title 18 fraud statutes. Our remaining
holdings confirm that Defendants’ misappropriation
of CMS’s predecisional information, as proven at
trial, fall comfortably within the Title 18 securities
fraud, wire fraud, conversion, and conspiracy
statutes. To the extent that the government’s decision
to prosecute any or all of these crimes in this case
raises broader enforcement policy concerns, that is a
matter for Congress and the Executive, not the
Judiciary. Our inquiry is a more limited one, and
having now completed it, we AFFIRM the judgments
of the district court.

44a
KEARSE, Circuit Judge, dissenting:
I respectfully dissent from the majority’s
affirmance of the convictions of these four defendants
for substantive crimes of conversion of government
property in violation of 18 U.S.C. § 641 and wire
fraud in violation of 18 U.S.C. § 1343, as well as the
convictions of three of the defendants for substantive
crimes of securities fraud in violation of 18 U.S.C. §
1348, for conspiracy in violation of 18 U.S.C. § 1349
to commit Title 18 crimes of wire fraud and securities
fraud, and for conspiracy in violation of 18 U.S.C. §
371 to commit offenses under § 641 and other
provisions, including Title 15 securities fraud in
violation of 15 U.S.C. § 78j(b) and SEC Rule 10b-5
promulgated thereunder.
Section 641, one of the sections under which all
four defendants were convicted, provides that it is
unlawful to
embezzle[ ], steal[ ], purloin[ ], or
knowingly convert[ ] to his use or the
use of another, or without authority,
sell[ ], convey[ ] or dispose[ ] of any
record, voucher, money, or thing of
value of the United States or of any
department or agency thereof ....
18 U.S.C. § 641 (emphases added). Section 1343,
under which all four defendants were also convicted,
provides in part that
[w]hoever, having devised or intending
to devise any scheme or artifice ... for
obtaining money or property by means
of false or fraudulent pretenses ...
transmits or causes to be transmitted by

45a
means of wire ... any writings, signs,
signals ... for the purpose of executing
such scheme or artifice, shall be fined
under this title or imprisoned not more
than 20 years, or both.
18 U.S.C. § 1343 (emphases added). Section 1348,
under which three defendants were convicted, is
similar to § 1343. It provides in part that
[w]hoever knowingly
attempts to execute,
artifice--

executes,
a scheme

or
or

....
(2) to obtain, by means of false or
fraudulent pretenses, representations,
or promises, any money or property in
connection with the purchase or sale of
... any security of an issuer with a class
of securities registered under Section 12
of the Securities Exchange Act of 1934
....
shall be fined under this title or
imprisoned not more than 25 years, or
both.
18 U.S.C. § 1348(2) (emphases added).
With respect to the issue dividing us, the majority
treats the relevant elements of §§ 1343 and 1348 as
the same: the property that the defendant is charged
with obtaining by false or fraudulent pretenses must
be the property of the defrauded victim. While this
has been held to be so with respect to the mail fraud
statute, 18 U.S.C. § 1341, see, e.g., Cleveland v.
United States, 531 U.S. 12, 15, 121 S.Ct. 365, 148

46a
L.Ed.2d 221 (2000) (“the thing obtained must be
property in the hands of the [fraud] victim”), and §§
1341 and 1343 “share the same language in relevant
part” and are subject to the same analysis, Carpenter
v. United States, 484 U.S. 19, 25 n.6, 108 S.Ct. 316,
98 L.Ed.2d 275 (1987), it is not entirely clear to me
that this is true of § 1348. However, for purposes of
this opinion, I accept that both §§ 1343 and 1348
prohibit obtaining property belonging to the victim of
the fraud.
My disagreement with the majority is focused on
the charges of the operative superseding indictment
(“Indictment”) that defendants violated §§ 1343 and
1348 by obtaining something that was government
“property” and violated § 641 by “converting”
something that was a “thing of value” to the
government.
The alleged conduct underlying virtually all of
these charges was that defendants Blaszczak, Huber,
and Olan obtained directly or indirectly from
defendant Worrall, an employee of the federal agency
Centers for Medicare & Medicaid Services (“CMS”),
confidential information as to the substance and
timing of upcoming changes to CMS rules governing
reimbursement rates for certain medical treatments.
CMS is not a business; it does not sell, or offer for
sale, a service or a product; it is a regulatory agency.
It adopts regulations that affect, inter alia, business
organizations or health industry entities--whether
the affected persons or entities favor the regulations
or not. While CMS seeks to maintain confidentiality
as to its planned regulations--and the regulations can
plainly have either a favorable or an adverse effect on
certain business entities’ fortunes--I do not view a
planned CMS regulation as a “thing of value” to CMS,

47a
18 U.S.C. § 641, that is susceptible to conversion.
Unlike the information that was planned for
publication by the news publisher victim in
Carpenter, information is not CMS’s “stock in trade,”
484 U.S. at 26, 108 S.Ct. 316 (internal quotation
marks omitted). CMS does not seek buyers or
subscribers; it is not in a competition; it is an agency
of the government that regulates the conduct of
others. It does so whether or not any information on
which its regulation is premised is confidential.
Further, regardless of whether information as to the
substance or timing of a planned regulation remains
confidential as CMS prefers or is disclosed to
unauthorized listeners, CMS adopts its preferred
planned regulation and--subject to legal requirements
as to timing, e.g., 42 U.S.C. § 1395w-4(b)(1) (requiring
that reimbursement rates for a given year be
announced prior to November 1 of the preceding
year)--can do so in accordance with its own timetable.
I cannot see that predecisional regulatory
information is subject to conversion within the
contemplation of § 641.
Although the majority views our decision
upholding a § 641 conviction in United States v.
Girard, 601 F.2d 69, 71 (2d Cir. 1979), as compelling
the conclusion that CMS’s desire for predecisional
confidentiality is a thing of value, I disagree. Girard
involved a drug dealer’s attempt to purchase
confidential records of the United States Drug
Enforcement Administration (“DEA”) as to what
persons were DEA informants. Confidential
information as to the identities of informants and
cooperators is clearly “[some]thing of value” to a
government agency whose mission is law
enforcement. That confidential information has

48a
inherent value because it enables the agency to, inter
alia, collect evidence upon which the Department of
Justice may obtain authorizations to conduct
electronic surveillance, obtain warrants for arrests,
and commence prosecutions. Confidentiality in that
context enhances the value of the information
because, inter alia, it reduces the chances that
suspects will alter their observable behavior, hide
their contraband, flee into hiding, or tamper with--or
harm--witnesses before the law enforcement agency
has an opportunity to fully act upon the information
it possesses.
An agency such as CMS whose brief is to issue
regulations is entirely different. It may either carry
out or deviate from its planned adoption of
regulations even if its plans, and/or the information
that affects those plans, become public knowledge
before CMS prefers that such disclosures occur. There
has been no conversion.
For similar reasons, I do not view CMS’s interest
in issuing a regulation, or in doing so on a particular
date, or in keeping the planned regulation a secret
until its issuance, as constituting government
“property” within the meaning of §§ 1343 and 1348.
Given that CMS, notwithstanding any premature
disclosure of its predecisional regulatory information,
can issue a regulation that adheres to its preliminary
inclination or can issue a different regulation, I
cannot see that CMS has been deprived of anything
that could be considered property.
Nor do I see merit in the government’s contention
that predecisional regulatory information should be
considered government property because CMS is
“responsible for allocating $1 trillion in federal funds

49a
every year,” and that “[b]ecause a large part of”
CMS’s “mission” to “develop[ ] and maintain[ ]
effective health care policy .... is centered on
cost-effective allocation of health care spending,
interference with CMS’s right to exclusive use of its
confidential information necessarily creates the
potential for significant economic consequences”
(Government brief on appeal at 92). Whatever
economic consequences actually occur will be based
on what CMS actually decides as to the substance
and the timing of the regulation it adopts. The
Cleveland Court rejected the government’s argument
that a property right of the State of Louisiana had
been interfered with because the defendant
“frustrated the State’s right to control the issuance”
of gaming licenses. 531 U.S. at 23, 121 S.Ct. 365. The
Court held that “these intangible rights of allocation,
exclusion, and control amount to no more and no less
than Louisiana’s sovereign power to regulate.” Id.
Like the gaming licenses in question in Cleveland,
which the State had the right to control or
withhold--but which had no property status or effect
until they were issued (and even when issued were
not the property of the State)--the predecisional CMS
information has no economic impact on the
government until after CMS has actually decided
what regulation to issue and when the regulation will
take effect. And at the point when the regulation has
economic impact on the government fisc, its impact
will be in accordance with whatever regulation CMS
ultimately decided to adopt. Thus, I cannot agree that
a premature disclosure of predecisional regulatory
information has taken any property from CMS or the
government.
As the majority notes, all four defendants were

50a
acquitted on all of the counts charging them with
substantive securities fraud violations of Title 15 and
SEC Rule 10b-5 promulgated thereunder. The only
substantive counts on which the jury found any
defendant guilty were those charging violations of 18
U.S.C. §§ 641, 1343, and 1348. Since, in my view, the
predecisional regulatory information at issue here did
not constitute CMS property within the meaning of
§§ 1343 and 1348, or a thing of value stolen from
CMS in violation of § 641, none of defendants’
convictions on substantive counts should stand.
The Indictment also contained three conspiracy
counts: Counts 1 and 2 against all four defendants
(on both of which Worrall was acquitted), and Count
17 against Blaszczak alone. Count 2 charged all
defendants with violating 18 U.S.C. § 1349, which
prohibits conspiracy “to commit any offense under
this chapter,” to wit, Chapter 63 of Title 18, i.e., 18
U.S.C. §§ 1341-1351. Count 17 charged Blaszczak
with violating 18 U.S.C. § 371 by conspiring with a
cooperating coconspirator to violate § 641. Since in
my view the Indictment’s allegations of substantive
violations of §§ 1343, 1348, and 641 charged
defendants only with conduct that was not prohibited
by those sections, defendants could not properly be
convicted of conspiring to violate them. Thus, I would
conclude that the convictions on Counts 2 and 17
should also be reversed.
The conspiracy charged in Count 1, however, was
not limited to a conspiracy to violate §§ 641, 1343,
and 1348. Count 1 (Indictment ¶¶ 1-76) charged
defendants with agreeing to commit “conversion of
United States property, in violation of Title 18,
United States Code, Section 641; securities fraud, in
violation of

51a
78j(b) and 78ff, and Title 17, Code of Federal
Regulations, Section 240.10b-5; and to defraud the
United States and an agency thereof, to wit, CMS, in
violation of Title 18, United States Code, Section 371
and Title 5, Code of Federal Regulations, Section
2635.703(a).” (Indictment ¶ 72 (emphases added)).
The latter Code of Federal Regulations provision
states in part that “[a]n employee shall not ... allow
the improper use of nonpublic information to further
his own private interest or that of another ... by
knowing unauthorized disclosure.” 5 C.F.R. §
2635.703(a) (emphases added). Count 1 alleged that
defendants agreed to, inter alia, defraud CMS by
obtaining from its employee Worrall confidential
information about CMS’s predecisional regulatory
information (see Indictment ¶ 75) and engage in
purchases and sales of securities in violation of 15
U.S.C. § 78j(b) and 78ff (see id. ¶ 74), and that
pursuant to their conspiracy certain overt acts,
including short sales of the shares of specified
companies, were committed, all in violation of 18
U.S.C. § 371 (see id. ¶ 76).
The defendants other than Worrall were found
guilty on this count. The jury was not given questions
to answer that would reveal, with respect to Count 1,
whether it found that the three convicted defendants
had conspired to violate the securities fraud
provisions of Title 15 and SEC Rule 10b-5
promulgated under that Title or to violate a
government employee’s duty of confidentiality, or
instead had only conspired to violate § 641. When, as
here, the jury has been presented with several bases
for conviction, one or more of which is invalid as a
matter of law, and it is impossible to tell which
ground the jury selected, the conviction should be

52a
vacated. See, e.g., Yates v. United States, 354 U.S.
298, 312, 77 S.Ct. 1064, 1 L.Ed.2d 1356 (1957)
(prosecution for conduct beyond statute-of-limitations
period invalid as a matter of law), partially overruled
on other grounds by Burks v. United States, 437 U.S.
1, 7-10, 98 S.Ct. 2141, 57 L.Ed.2d 1 (1978); see
generally Griffin v. United States, 502 U.S. 46, 52-56,
112 S.Ct. 466, 116 L.Ed.2d 371 (1991). While the
mere insufficiency of the evidence to support one of
the bases submitted to the jury does not fall within
this principle, see id. at 56, 112 S.Ct. 466, a basis is
invalid as a matter of law when the conduct in
question “fails to come within the statutory definition
of the crime,” id. at 59, 112 S.Ct. 466.
As the jury could have found that the three
defendants it convicted under Count 1 agreed to
commit crimes prohibited by Title 15 and the
regulations promulgated under that Title, but may
instead have found only that they agreed to engage in
conduct that was alleged to violate 18 U.S.C. § 641,
1343, or 1348 but that did not come within the
definitions of those sections, the convictions of
Blaszczak, Huber, and Olan on Count 1 should be
vacated.
Accordingly, I respectfully dissent.

53a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
No. 17 CR 357 (LAK)
UNITED STATES OF AMERICA,
v.
DAVID BLASZCZAK, THEODORE HUBER,
ROBERT OLAN, CHRISTOPHER WORRALL,
Defendants.
New York, N.Y.
September 13, 2018, 9:30 a.m.
Before: HON. LEWIS A. KAPLAN, District Judge
[SENTENCING TRANSCRIPT]
***
[3] THE COURT: Good morning.
We have one unfinished piece of business which is
I have not yet ruled on the post-verdict motions. I’m
prepared to do so. If anybody wants to add something
brief to the large [4] volume of argument and briefing
I’ve had, I’ll be happy to hear you for a couple of
minutes.
MR. NAFTALIS: No, your Honor.
THE COURT: All right. The motions are all the
denied. I’m just going to make one or two more
comments very briefly.
I considered writing at great length about the
sufficiency of the evidence and the Bruton point. I
concluded there is certainly not any need for it on the
Bruton point. The record is abundantly clear. I’d only

54a
be repeating myself. So far as the analysis of the
evidence, I think the record really does speak for itself.
The additional point that I think worth making is
one that, unless I have somehow overlooked it, none of
the parties made. And although the result with
respect to these motions would be the same
independent of this point, I think it’s worth making it.
The essence at least of Mr. Worrall’s motion -perhaps it is too strong to say “the essence,” but a very
important part of his motion is the assertion that
because the jury acquitted him on a considerable
number of counts, it must be concluded that the jury
found that he was not culpable with respect to any of
those counts. And from that, he effectively draws the
conclusion that in considering the sufficiency of the
evidence on the counts of conviction, evidence that
went to the [5] counts on which he was acquitted is not
to be considered.
I’m not sure that the defense ever stated it in those
words, but that’s really an important part of their
argument. I’m not sure it is a part only of their
argument, but certainly it is far and away most
prominently a part of that argument.
To give one example, and only one, Mr. Worrall’s
motion argues that the fact that he was acquitted on
some counts means that the jury, and now I quote from
his brief, “rejected the idea that Worrall was part of a
systematic attempt to illicitly extract information from
CMS. Acquitting him of all the conspiracy counts and
substantive counts relating to matters other than the
2012 radiology oncology rule, which,” as detailed above
in his brief, “related at most to a single interaction
between Worrall and Blaszczak.”

55a
The law in fact is exactly the opposite. I had
occasion to deal with this problem in a case that the
lawyers I think will all remember, United States v.
Ghailani, in which Mr. Ghailani was acquitted of
something like 282 out of 283 counts, and argued that
the verdicts were inconsistent as between the one
count of conviction and the 200-plus acquittals.
Now, the law of inconsistent verdicts is not a
precise fit to these or at least isn’t necessarily a precise
fit, but the fit is so good that it controls here.
The leading case on inconsistent verdicts for many,
[6] many years was Justice Holmes’ opinion in Dunn
v. United States in which he wrote consistency in the
verdict is not necessary. Each count in an indictment
is recorded as if it was a separate indictment. He then
went on to quote Learned Hand’s Second Circuit
opinion in a case called Steckler v. United States as
follows: “The most that can be said in such cases, that
is to say, cases of truly inconsistent verdicts, and I
don’t think this is one, is that the verdict shows that
either in the acquittal or the conviction, the jury did
not speak their real conclusions. But that does not
show that they were not convinced of the defendant’s
guilt. We interpret the acquittal as no more than their
assumption of a power which they had no right to
exercise, but to which they were disposed through
lenity.”
If there were any doubt about the meaning of all
that, particularly in the circumstances of this case, it
was removed by the Supreme Court in United States
v. Powell, where the Court said that in reviewing the
sufficiency of the evidence on one count, which is
precisely what I’m asked to do here by Mr. Worrall,
“The review should be independent of the jury’s

56a
determination that evidence on another count was
insufficient.” The Supreme Court in that case went on
to say that returning an inconsistent verdict, and now
I quote again “is as the Dunn court” -- that was Justice
Holmes’ opinion -- “recognized, an assumption of a
power which the jury has no right to exercise, [7] but
the illegality alone does not mean that such a collective
judgment should not be subject to review. The fact
that the inconsistency may be the result of a lenity
coupled with the government’s inability to invoke
review suggests that inconsistent verdicts should not
be reviewable.”
Now, here, I don’t think we have inconsistent
verdicts. There were so many elements on the other
counts on which the jury could have found a
reasonable doubt. They could have acquitted on all of
them without necessarily deciding anything favorably
to Mr. Worrall that would be preclusive of a conviction
on counts of conviction.
But even if there were an inconsistency it wouldn’t
matter. I reviewed the sufficiency of the evidence on
the convictions that were returned, completely
independently of the verdict on all the other counts,
and so I’m entitled to look at the entirety of the trial
evidence in determining the sufficiency. Ergo, if the
trial evidence would have permitted the jury to find
that Mr. Worrall was part of a systematic attempt to
illegally take information from CMS, and use it to tip
Blaszczak, then the verdict on the counts of conviction
stands. And I think considering the whole record, the
jury was entitled so to find.
So I did think it significant to make that point, and
that takes care of the motions.
***

57a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Nos. 18-2811, 18-2825, 18-2867, 18-2878
UNITED STATES OF AMERICA,
Appellee,
v.
DAVID BLASZCZAK, THEODORE HUBER,
ROBERT OLAN, CHRISTOPHER WORRALL,
Defendants-Appellants.
[Filed: April 10, 2020]
ORDER
Appellants, Theodore Huber and Robert Olan,
filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
/s/ Catherine O'Hagan Wolfe,
Clerk

58a
APPENDIX D
1. 15 U.S.C. § 78j provides:
Manipulative and deceptive devices
It shall be unlawful for any person, directly or
indirectly, by the use of any means or instrumentality
of interstate commerce or of the mails, or of any
facility of any national securities exchange-(a)(1) To effect a short sale, or to use or employ
any stop-loss order in connection with the purchase
or sale, of any security other than a government
security, in contravention of such rules and
regulations as the Commission may prescribe as
necessary or appropriate in the public interest or for
the protection of investors.
(2) Paragraph (1) of this subsection shall not
apply to security futures products.
(b) To use or employ, in connection with the
purchase or sale of any security registered on a
national securities exchange or any security not so
registered, or any securities-based swap agreement1
any manipulative or deceptive device or contrivance
in contravention of such rules and regulations as the
Commission may prescribe as necessary or
appropriate in the public interest or for the protection
of investors.
(c)(1) To effect, accept, or facilitate a transaction
involving the loan or borrowing of securities in
contravention of such rules and regulations as the
Commission may prescribe as necessary or
appropriate in the public interest or for the protection
of investors.
(2) Nothing in paragraph (1) may be construed

59a
to limit the authority of the appropriate Federal
banking agency (as defined in section 1813(q) of Title
12), the National Credit Union Administration, or
any other Federal department or agency having a
responsibility under Federal law to prescribe rules or
regulations restricting transactions involving the
loan or borrowing of securities in order to protect the
safety and soundness of a financial institution or to
protect the financial system from systemic risk.
Rules promulgated under subsection (b) that
prohibit fraud, manipulation, or insider trading (but
not rules imposing or specifying reporting or
recordkeeping
requirements,
procedures,
or
standards as prophylactic measures against fraud,
manipulation, or insider trading), and judicial
precedents decided under subsection (b) and rules
promulgated thereunder that prohibit fraud,
manipulation, or insider trading, shall apply to
security-based swap agreements to the same extent
as they apply to securities. Judicial precedents
decided under section 77q(a) of this title and sections
78i, 78o, 78p, 78t, and 78u-1 of this title, and judicial
precedents
decided
under
applicable
rules
promulgated under such sections, shall apply to
security-based swap agreements to the same extent
as they apply to securities.
2. 18 U.S.C. § 371 provides:
Conspiracy to commit offense or to defraud
United States
If two or more persons conspire either to commit
any offense against the United States, or to defraud
the United States, or any agency thereof in any

60a
manner or for any purpose, and one or more of such
persons do any act to effect the object of the
conspiracy, each shall be fined under this title or
imprisoned not more than five years, or both.
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor only,
the punishment for such conspiracy shall not exceed
the maximum punishment provided for such
misdemeanor.
3. 18 U.S.C. § 641 provides:
Public money, property or records
Whoever embezzles, steals, purloins, or knowingly
converts to his use or the use of another, or without
authority, sells, conveys or disposes of any record,
voucher, money, or thing of value of the United
States or of any department or agency thereof, or any
property made or being made under contract for the
United States or any department or agency thereof;
or
Whoever receives, conceals, or retains the same
with intent to convert it to his use or gain, knowing it
to have been embezzled, stolen, purloined or
converted-Shall be fined under this title or imprisoned not
more than ten years, or both; but if the value of such
property in the aggregate, combining amounts from
all the counts for which the defendant is convicted in
a single case, does not exceed the sum of $1,000, he
shall be fined under this title or imprisoned not more
than one year, or both.
The word “value” means face, par, or market

61a
value, or cost price, either wholesale or retail,
whichever is greater.
4. 18 U.S.C. § 1343 provides:
Fraud by wire, radio, or television
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, transmits or
causes to be transmitted by means of wire, radio, or
television communication in interstate or foreign
commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or
artifice, shall be fined under this title or imprisoned
not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a presidentially
declared major disaster or emergency (as those terms
are defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act (42
U.S.C. 5122)), or affects a financial institution, such
person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
5. 18 U.S.C. § 1348 provides:
Securities and commodities fraud
Whoever knowingly executes, or attempts to execute,
a scheme or artifice-(1) to defraud any person in connection with any
commodity for future delivery, or any option on a
commodity for future delivery, or any security of

62a
an issuer with a class of securities registered
under section 12 of the Securities Exchange Act of
1934 (15 U.S.C. 78l) or that is required to file
reports under section 15(d) of the Securities
Exchange Act of 1934 (15 U.S.C. 78o(d)); or
(2) to obtain, by means of false or fraudulent
pretenses, representations, or promises, any
money or property in connection with the
purchase or sale of any commodity for future
delivery, or any option on a commodity for future
delivery, or any security of an issuer with a class
of securities registered under section 12 of the
Securities Exchange Act of 1934 (15 U.S.C. 78l) or
that is required to file reports under section 15(d)
of the Securities Exchange Act of 1934 (15 U.S.C.
78o(d));
shall be fined under this title, or imprisoned not more
than 25 years, or both.
6. 18 U.S.C. § 1349 provides:
Attempt and conspiracy
Any person who attempts or conspires to commit any
offense under this chapter shall be subject to the
same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or
conspiracy.
7. 17 C.F.R. § 240.10b–5 provides:
Employment of manipulative and deceptive
devices.
It shall be unlawful for any person, directly or

63a
indirectly, by the use of any means or instrumentality
of interstate commerce, or of the mails or of any
facility of any national securities exchange,
(a) To employ any device, scheme, or artifice to
defraud,
(b) To make any untrue statement of a material
fact or to omit to state a material fact necessary in
order to make the statements made, in the light of
the circumstances under which they were made, not
misleading, or
(c) To engage in any act, practice, or course of
business which operates or would operate as a fraud
or deceit upon any person,
in connection with the purchase or sale of any
security.

64a
APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
No. S1 17-cr-357 (LAK)
UNITED STATES OF AMERICA,
v.
DAVID BLASZCZAK, et al.,
Defendants.
JURY INSTRUCTIONS
[* * *]
E.

Counts 3, 11, 13 and 18: Conversion
of Government Property (18 U.S.C.
§§ 2, 641)

I am going to begin with Counts 3, 11, 13, and 18,
each of which charges the substantive crime of
conversion of government property. Specifically, each
of these counts charges one or more defendants with
knowingly converting money or property belonging to
the United States government - here, confidential
information from the Centers for Medicare and
Medicaid Services, or “CMS.” These counts differ in
two respects. First, they differ with regard to the
specific information that allegedly was stolen. Second,
they do not all charge exactly the same defendants.
Count 3 charges each of the four defendants with
knowingly converting to their own use confidential
CMS information about CMS’s proposed radiation
oncology rule, or receiving and converting that
confidential information knowing it to have been

65a
converted, from approximately May 2012 through at
least in or about July 2012.
Count 11 charges Mr. Blaszczak and Mr. Worrall
with knowingly converting to their own use a
confidential CMS report with CMS’s internal data
analysis relevant to NxStage, among other companies,
or receiving and converting that confidential
information knowing it to have been converted, in or
about June 2012.
Count 13 charges Mr. Blaszczak and Mr. Worrall
with knowingly converting to their own use
confidential CMS reports with CMS’s internal data
analysis and other confidential information in advance
of a proposed kidney dialysis rule, or receiving and
converting that confidential information knowing it to
have been converted, in or about July 2013.
Count 18 charges Mr. Blaszczak with knowingly
converting to his own use confidential information
about CMS decisions, from at least in or about 2011
through at least in or about 2013, including the June
2013 home health regulatory action, or receiving and
converting that confidential information knowing it to
have been converted.
As to each of these counts, the government, in order
to convict a defendant on a particular count, must
prove each of the following elements beyond a
reasonable doubt:
First, that the money or property described in the
Indictment – here, the allegedly confidential CMS
information as set forth in each of these counts –
belonged to the United States Government;
Second, that the defendant you are considering
either (1) knowingly converted that property or caused

66a
such property to be converted or (2) knowing such
property to have been converted, received and
converted the property, or caused such property to be
received and converted;
Third, that the defendant you are considering acted
knowingly and willfully with the intent to deprive the
government of the use and benefit of its property; and
Fourth, that the value of the property was greater
than $1,000.
Now, as I said, the government may prove the
second element in either of two ways. It may do so by
establishing that the defendant you are considering
converted the property in question or caused someone
else to convert the property. It may do so also by
proving that the defendant you are considering
received and converted what he knew to be converted
property, or caused someone else to receive and
convert what he knew to be converted property. In
order to find that the government has established the
second element beyond a reasonable doubt for the
count you are considering, and for each defendant you
are considering, you must agree unanimously on
which of the two sets of facts described in the previous
sentence (if either) has been established beyond a
reasonable doubt – in other words, you must agree
unanimously that the defendant (1) converted the
property in question, or caused someone else to convert
the property, or (2) received and converted what he
knew to be converted property, or caused someone else
to receive and convert what he knew to be converted
property.

67a
1. First Element: Property Belonged to
the United States
On the first element, there is no dispute in this case
that the property in question – specifically, any
information from CMS, an agency of the U.S.
government, that was confidential – was property
belonging to the United States.
2. Second Element: Defendant Knowingly
Converted Property or Received and
Converted Property Knowing It to Be
Converted
As I said a moment ago, the government can prove
the second element of the crimes charged in Counts 3,
11, 13, and 18 by establishing that the defendant you
are considering either (1) converted the property in
question, or caused someone else to convert the
property, or (2) received and converted what he knew
to be converted property, or caused someone else to
receive and convert what he knew to be converted
property. Let me discuss each of the two alternatives
separately.
First, this element is satisfied if you find beyond a
reasonable doubt that the defendant you are
considering knowingly converted the information at
issue, or caused the information at issue to be
converted by someone else, in the count you are
considering. To convert property knowingly means to
use the property in an unauthorized manner in a way
that seriously interfered with the governments’s right
to use and control the property, knowing that the
property belonged to the government, and knowing
that the government did not authorize such a use.

68a
Second, and alternatively, this element is satisfied
if you find beyond a reasonable doubt that the
defendant you are considering, knowing the property
at issue to have been converted – that is, used in an
unauthorized manner and in a way that seriously
interfered with the owner’s right to use and control it
– received and converted the property, or caused
someone else to receive and convert the property, in
the relevant count. A person receives property when
he or she takes possession of it.
The property at issue in this case is government
information.
The disclosure of government
information may be unauthorized within the meaning
of this statute only if the disclosure of the information
at issue was affirmatively prohibited by a federal
statute, administrative rule or regulation, or any
longstanding government practices. You have before
you GX-2206, which is a regulation of the Office of
Government Ethics. That regulation has the force of
law.
A defendant may be convicted of this offense charge
only if he was aware of the unauthorized nature of the
disclosure. In addition, as I will explain further later
on in these instructions, in some circumstances, you
may find that a defendant acted with the necessary
knowledge because the defendant consciously avoided
learning certain facts by deliberately closing his eyes
to what otherwise would have been clear. I will
explain the specific circumstances and defendants as
to which you may consider this theory of knowledge
later in my instructions.
3. Third Element: Intent
The third element the government must prove
beyond a reasonable doubt under Counts 3, 11, 13, and

69a
18 is that the defendant you are considering acted
knowingly and willfully with the intent to deprive the
government of the use and benefit of the property at
issue in the count you are considering.
To act knowingly means to act intentionally and
voluntarily, and not because of ignorance, mistake,
accident or carelessness.
To act willfully means to act with knowledge that
one’s conduct is unlawful and with the intent to do
something the law forbids, that is to say, with the bad
purpose to disobey or disregard the law.
Because an essential element of the crime charged
is intent to deprive, good faith on the part of a
defendant you are considering is a complete defense to
the charge of conversion of government property. In
other words, the law is not violated if a defendant you
are considering had an actual, good faith belief that
the property was lawfully obtained.
A defendant has no burden to establish a defense of
good faith; it remains the government’s burden to
prove, beyond a reasonable doubt, that each defendant
acted knowingly, willfully, and with intent to deprive.
Whether the defendant acted knowingly and
willfully may be proven by the defendant’s conduct and
by all of the circumstances surrounding the case.
4. Fourth Element: Value of the Property
The fourth and final element the government must
prove beyond a reasonable doubt for Counts 3, 11, 13,
and 18 is that the value of the property converted from
the government here, the allegedly confidential CMS
information was greater than $1,000.

70a
In determining the value of the property, you may
consider the aggregate or total value of the property
referred to in the count you are considering. If you find
that the aggregate value is $1,000 or less, then you
must find the defendant you are considering not guilty
on that count. On the other hand, if you find the
aggregate value to be greater than $1,000, then this
element is satisfied.
***
If you find that the government proved beyond a
reasonable doubt each of the four elements I have
described with respect to the defendant you are
considering and on the count that you are considering,
then you should find that defendant guilty on that
count. If, however, you are not satisfied that the
government has so proved each of the four elements,
then you must find the defendant not guilty on that
count.
F. Counts 4, 5, 6, 7, 8 and 14: Title 15
Securities Fraud (15 U.S.C. §§ 78j(b), 78ff;
17 C.F.R. § 240.10b-5; 18 U.S.C. § 2)
Next I will turn to the counts that charge the
defendants with Title 15 securities fraud: Counts 4
through 8 and 14. As described below, Counts 4
through 8 allege that all of the defendants committed
Title 15 securities fraud based on conduct related to
CMS’s consideration of cuts in radiation oncology
reimbursements that ultimately were announced on or
about July 1, 2012.
Count 4 relates to the short sale of approximately
105,000 shares of Varian on or about June 7, 2012;
Count 5 relates to the short sale of approximately
90,000 shares of Varian on or about June 14, 2012;

71a
Count 6 relates to the short sale of approximately
90,000 shares of Varian on or about June 15, 2012;
Count 7 relates to the short sale of approximately
250,000 shares of Varian on or about June 18, 2012;
Count 8 relates to the short sale of approximately
265,000 shares of Varian on or about June 25 and June
29, 2012.
Count 14 alleges that Mr. Blaszczak and Mr.
Worrall committed Title 15 securities fraud from at
least in or about January 2013 through at least in or
about July 2013 based on conduct related CMS’s
consideration of possible cuts in reimbursement for
kidney dialysis that ultimately were announced on or
about July 6, 2013. This count relates to the short sale
of approximately 33,665 shares of Fresenius ADR on
or about June 25, 2013.
As to each of these six counts, the government, in
order to convict a defendant you are considering, must
prove each of the following three elements beyond a
reasonable doubt:
First, that in connection with the purchase or sale
of securities of the identified company, the defendant
you are considering employed a device, scheme, or
artifice to defraud, or engaged in an act, practice, or
course of business that operated, or would operate, as
fraud or deceit upon a purchaser or seller of the
specified security;
Second, that when he engaged in this scheme, the
defendant you are considering acted knowingly,
willfully, and with an intent to deceive; and
Third, that in furtherance of the scheme, there
occurred at least one use of any means or instrument

72a
of transportation or communication in interstate
commerce, or the use of the mails, or the use of any
facility of any national securities exchange.
1. First Element; Device,
Artifice to Defraud

Scheme,

or

The first element that the government must prove
beyond a reasonable doubt is that the defendant you
are considering employed a device, scheme or artifice
to defraud or engaged in an act, practice or course of
business that operated, or would operate, as fraud or
deceit in connection with the purchase or sale of
securities.
A “device, scheme or artifice to defraud” is merely
a plan for the accomplishment of any fraudulent
objective.
“Fraud” is a general term that embraces all efforts
and means that individuals devise to take unfair
advantage of others.
The specific “device, scheme or artifice to defraud,”
or course of business that the government alleges the
defendants employed in connection with Counts 4
through 8 and 14 is known as “insider trading.”
An “insider” is a person who comes into possession
of material, nonpublic information by virtue of a
relationship that imposes on the person a duty to
maintain that information in confidence. If a person
has such inside information and has a duty to keep it
confidential, the law forbids that person from (1)
buying or selling securities on the basis of that
information or (2) giving that information to another
person whom the insider anticipates will trade in
securities on the basis of that information. In addition,
the law prohibits a person who is not an insider from

73a
trading in securities based on material nonpublic
information, or assisting others in trading on the basis
of that information, if the person who trades securities
knows that the material, nonpublic information was
intended to be kept confidential and that it was
disclosed in violation of a duty to keep it confidential
and in exchange for a personal benefit to the insider.
It is not, however, a willful deceptive device in
contravention of the federal securities law for a person
to use his or others’ superior financial expertise or
expert analysis, his or others’ guesses or predictions,
or his or others’ past practice or experience to
determine whether to buy or sell securities. Nor is it
a deceptive device in contravention of the federal
securities laws for a person to buy or sell securities
based on public information, or on tips provided that
he does not know that the information has been
disclosed in violation of a duty or confidence and in
exchange for a benefit to the tipper.
Because the defendants are alleged to have played
different roles in the charged scheme, I will summarize
for you, with respect to each defendant, the facts that
the government must prove beyond a reasonable doubt
in order for you to find that the government has
established the first element of Title 15 securities
fraud, that is, use of a device, scheme, or artifice to
defraud in connection with the purchase or sale of
securities, with respect to that defendant. I will do
that by providing you with a list of questions that you
must consider in order to find whether the government
established the first of the three essential elements of
the crime of insider trading with respect to the
defendant that you are considering and on the count
that you are considering.

74a
The Indictment alleges that Mr. Worrall was an
“insider” at CMS who disclosed or, to use another
word, “tipped,” inside information to Mr. Blaszczak,
who in turn disclosed the inside information to Mr.
Huber, Mr. Olan and others in anticipation that those
persons would use it in securities trading. Messrs.
Blaszczak, Huber and Olan are not charged with being
“insiders,” but rather are charged with having been
“tippees.”
In order to find that the government has
established the first of the three essential elements of
the crime of insider trading with respect to Mr.
Worrall, you must be convinced that the government
has proved, with respect to the count you are
considering, that the answer to each of the following
three questions is “yes”:
Question A: Did Mr. Worrall owe a duty of trust and
confidence to CMS?
Question B: Did Mr. Worrall violate his duty of
trust and confidence by disclosing or causing someone
else to disclose material, non-public information to Mr.
Blaszczak?
Question C: Did any of the three defendants
charged as “tippees” in fact trade or cause others to
trade in securities based on the material, non-public
information?
In order to find that the government has
established the first of the three essential elements of
the crime of insider trading under Title 15 as to any of
Messrs. Blaszczak, Huber and Olan, the answers to
Questions A and B must be “yes” and, in addition, you
must be convinced that the government has proved
that the answer to the following Question D is “yes”

75a
with respect to the defendant you are considering for
each count in which that defendant is charged:
Question D is this: Did the defendant that you are
considering in fact trade or cause someone else to trade
in securities based on the material, non-public
information?
I will now discuss each of the questions separately.
Question A asks whether Mr. Worrall owed a duty
of trust and confidence to CMS. To answer this
question you must look to all of the facts and
circumstances and ask whether both Mr. Worrall and
CMS recognized their relationship as one that
involved trust and confidence.
Question B asks whether Mr. Worrall disclosed or
caused someone else to disclose material, non-public
information.
Information is “material” if a reasonable investor
would have considered it important in deciding
whether to buy, sell, or hold securities, and at what
price to buy or sell the securities. Put another way,
there must be a substantial likelihood that the fact
would have been viewed by a reasonable investor as
having significantly altered the total mix of
information then available.
Information is “non-public” if, at the time it was
disclosed, it was not available to the public through
such sources as press releases, trade publications,
analyst reports, newspapers, magazines, word of
mouth, public meetings, or other similar sources. In
assessing whether information is non-public, the key
word is “available.” If information is available, for
example, in the public media, analyst reports, or on
publically accessible government websites, it is public.

76a
In making this evaluation, you may consider also
written CMS policies, contracts, measures CMS has
taken to guard the information’s secrecy, the extent (if
any) to which the information already has been
disclosed to outsiders, and any other relevant facts and
circumstances.
I caution you that the fact that information has not
appeared in the newspaper or other widely available
public medium does not alone determine whether
information is non-public. Sometimes the government
authorizes the release of information, or is otherwise
willing to make information available to certain
members of the public even though it never may have
appeared in any newspaper or other publication. Such
information would be considered public. For example,
if CMS policy was to give certain information to
lobbyists or industry groups who ask for it, that
information is public information.
Accordingly,
information is not necessarily non-public simply
because there has been no formal announcement or
because only a few people have been made aware of it.
On the other hand, confirmation by an insider of
unconfirmed facts or rumors - even if those
unconfirmed facts or rumors have been reported in a
newspaper or research report or predicted by someone
else without use of material non-public information may itself be inside information. A tip from an insider
that is more reliable or specific than unconfirmed
facts, predictions, or public rumors is nonpublic
information despite the existence of such rumors,
predictions or unconfirmed facts in the media or
investment community.
Questions C and D each require you to consider
whether the government has proved that one or more

77a
of the three defendants charged as tippees – Messrs.
Blaszczak, Huber, and Olan – did in fact trade or cause
others to trade on the basis of the inside information
provided by Mr. Worrall. In this context, you may
conclude that a trade was made on the basis of the
inside information if the information was a factor in
the trading decision. It need not have been the only
factor.
As I indicated earlier, if the government has
established beyond a reasonable doubt that the
answer to each of Questions A through C is “yes” for a
given count in which Mr. Worrall is charged you
should find that the government has proved the first
element of the crime of Title 15 securities fraud as to
Mr. Worrall on that count. If, for any of Questions A
through C with respect to the count you are
considering, the government has failed to establish
beyond a reasonable doubt that the answer is “yes,”
you must find Mr. Worrall not guilty as to that count.
Similarly, if the government has established
beyond a reasonable doubt that the answer to each of
Questions A, B, and D is “yes” with respect to the
defendant you are considering (either Mr. Blaszczak,
Mr. Huber, or Mr. Olan) for a given count in which that
defendant is charged, you should find that the
government has proved the first element of the crime
of Title 15 securities fraud as to that defendant on that
count. If the government has failed to establish
beyond a reasonable doubt that the answer is “yes” to
all of Questions A, B and D with respect to the
defendant you are considering and the count you are
considering, you must find that defendant not guilty
as to that count.

78a
2. Second Element: State of Mind
The second element of the crime of Title 15
securities fraud relates to state of mind.
The
government must prove beyond a reasonable doubt
that the defendant you are considering engaged in an
insider-trading scheme knowingly, willfully, and with
an intent to deceive. To act knowingly means to act
intentionally, deliberately, and voluntarily, rather
than by mistake, accident, ignorance, or carelessness.
To act willfully means to act deliberately and with a
purpose to do something that the law forbids.
I am going to provide you with a list of questions
that you must consider in order to find whether the
government has established that the defendant you
are considering acted with an intent to deceive with
respect to any given count.
In order to find that the government has
established that Mr. Worrall acted with an intent to
deceive with respect to the count you are considering,
you must be convinced beyond a reasonable doubt that
the government has proved that the answer to each of
the following questions is “yes” with respect to Mr.
Worrall.
Question E: Did Mr. Worrall know that the
information that he disclosed to Mr. Blaszczak was
material and non-public?
Question F: Did Mr. Worrall know that, in
disclosing the information, he was violating his duty of
trust and confidence to CMS?
Question G: Did Mr. Worrall anticipate that Mr.
Blaszczak would use the material, non-public
information to trade in securities or to cause others to
trade in securities?

79a
Question H: Did Mr. Worrall, in providing this
information to Mr. Blaszczak, anticipate receiving a
personal benefit of some kind in return?
In order to find that the government has
established that Mr. Blaszczak acted with an intent to
deceive, you must conclude that it has proved beyond
a reasonable doubt that the answers to Questions E
through H are “yes” for the count you are considering
and, in addition, that it has so proved that the answer
to the following Question I is “yes” with respect to that
count.
Question I is this: Did Mr. Blaszczak know that Mr.
Worrall disclosed the information in breach of a duty
of trust and confidence and in anticipation of personal
benefit?
I now turn to Messrs. Huber and Olan. In order to
find that either Mr. Huber or Mr. Olan acted with an
intent to deceive, the answers to Questions E through
I must be “yes” and, in addition, you must be convinced
that the government has proved beyond a reasonable
doubt that the answer to the following Question J is
“yes” with respect to each of the counts in which the
defendant you are considering is charged.
Question J is this: Did the defendant you are
considering (either Mr. Huber or Mr. Olan) know that
the material, non-public information that he received
from Mr. Blaszczak was disclosed to Mr. Blaszczak by
someone who owed a duty to keep that information
confidential but breached that duty in anticipation of
a personal benefit?
I now will discuss each question separately.
Question E asks whether Mr. Worrall knew that
the information that he disclosed to Mr. Blaszczak was

80a
material and non-public. I instructed you on the
meaning of the terms “material” and “non-public” in
the first element of Title 15 securities fraud. You
should apply those definitions here.
Question F asks whether Mr. Worrall knew that, in
disclosing the information, he was violating his duty of
trust and confidence to CMS. It is not necessary for
Mr. Worrall to have had knowledge of the legal nature
of a breach of his duty of trust and confidence to CMS.
However, he must have understood that he violated a
confidence in disclosing the confidential information.
As to Question G, you must determine whether the
government has proven beyond a reasonable doubt
that Mr. Worrall anticipated that Mr. Blaszczak would
use or cause others to use the information to trade
securities. Direct proof that Mr. Worrall anticipated
Mr. Blaszczak would use the information to trade or
cause others to trade securities is not required. Mr.
Worrall’s knowledge may be established by
circumstantial evidence. Further, it is not necessary
for the government to prove that Mr. Worrall knew to
a certainty that Mr. Blaszczak would use the
information to trade or cause others to trade
securities. It is sufficient for the government to prove
that Mr. Worrall anticipated that Mr. Blaszczak would
use the information for his or others’ trading of
securities.
With respect to Question H, you must determine
whether Mr. Worrall anticipated receiving a personal
benefit in return for providing material non-public
information to Mr. Blaszczak. A “personal benefit,” in
the context of the securities laws, need not be financial
or tangible in nature; it includes also the benefit one
would obtain from simply making a gift of confidential

81a
information to a relative or friend with the expectation
that the recipient will trade on such confidential
information. In other words, a gift of confidential
information results in a personal benefit to the tipper
if the disclosure of that information has the same
anticipated effect as if the tipper had instead traded
on that information him- or herself and given the
proceeds of the trade to the recipient of the
information. A pre-existing relationship may be taken
into account as a factor in determining whether the
information was disclosed with the expectation that
the recipient would trade on it.
I must caution you that an insider’s disclosure of
material nonpublic information, standing alone, does
not establish this personal benefit factor. Even where
a person has a duty of trust and confidence, meaning
that he was required to keep information confidential,
his breach of the duty is not fraudulent unless he
discloses the information with the intention that he
receive a personal benefit in consequence of doing so.
While you need not be unanimous as to any particular
benefit Mr. Worrall may have received or expected to
receive as a result of his disclosures to Mr. Blaszczak,
you must all agree that Mr. Worrall received or
expected to receive a benefit of some kind and that any
such benefit was personal in order to answer Question
H “yes.”
Finally, as to Questions I and J, when you are
considering whether the government has met its
burden with respect to the alleged tippees – that is,
Mr. Blaszczak, Mr. Huber, or Mr. Olan – you must
determine whether the government has proved beyond
a reasonable doubt that the defendant you are
considering knew that the information disclosed to or
obtained by him was disclosed in breach of a duty of

82a
trust and confidence and for personal benefit. The
mere receipt of material, non-public information, and
even trading on that information is not sufficient; the
tippee must have known that the tipper disclosed the
information in violation of a duty of confidentiality and
that it was disclosed in exchange for a personal
benefit.
Whether a defendant acted knowingly, willfully,
and with intent to deceive is a question of fact for you
to determine, like any other fact question. Direct proof
of knowledge and intent to deceive is not required.
Knowledge and criminal intent may, like any other
fact, be established by circumstantial evidence.
Obviously, we cannot look into a person’s mind and
know what that person is thinking. However, you do
have before you evidence of certain acts, including
emails and conversations, alleged to have taken place
with the respective defendants or in their presence.
The government contends that these acts and
conversations show beyond a reasonable doubt
knowledge on the part of each defendant of the
unlawful purposes of the defendant’s actions. On the
other hand, each defendant denies either that these
acts and conversations took place or show that he had
such knowledge and intent. It is for you to determine
whether the government has established beyond a
reasonable doubt that such knowledge and intent on
the part of the defendant existed.
Because an essential element of the crime charged
is intent to deceive, good faith on the part of a
defendant you are considering is a complete defense to
the charge of insider trading. In other words, the law
is not violated if a defendant you are considering held
an honest belief that his actions were not in
furtherance of any unlawful scheme.

83a
A defendant has no burden to establish a defense of
good faith; it remains the government’s burden to
prove, beyond a reasonable doubt, that each defendant
acted knowingly, willfully, and with intent to deceive.
If the government has established beyond a
reasonable doubt that the answer to each of Questions
E through H is “yes” and that Mr. Worrall acted
knowingly and willfully with respect to the actions
charged in a given count, you should find that the
government has proved the second element of the
crime of Title 15 securities fraud as to Mr. Worrall on
that count. If the government has failed to establish
beyond a reasonable doubt that the answer is “yes” to
any of Questions E through H with respect to the count
you are considering or that Mr. Worrall acted
knowingly and willfully, you must find Mr. Worrall not
guilty as to that count.
Similarly, if the government has established
beyond a reasonable doubt that the answer to each of
Questions E through I is “yes” and that Mr. Blaszczak
acted knowingly and willfully for a given count in
which Mr. Blaszczak is charged, you should find that
the government has proved the second element of the
crime of Title 15 securities fraud as to Mr. Blaszczak
on that count. If the government has failed to
establish beyond a reasonable doubt that the answer
is “yes” for any of Questions E through I with respect
to the count you are considering or that Mr. Blaszczak
acted knowingly and willfully, you must find Mr.
Blaszczak not guilty as to that count.
Finally, if the government has established beyond
a reasonable doubt that the answer to each of
Questions E through J is “yes” with respect to the
defendant you are considering (either Mr. Huber, or

84a
Mr. Olan) and that the defendant you are considering
acted knowingly and willfully for a given count in
which the defendant you are considering is charged,
you should find that the government has proved the
second element of the crime of Title 15 securities fraud
as to that defendant on that count. If the government
has failed to establish beyond a reasonable doubt that
the answer is “yes” for any of Questions E through J
with respect to the defendant and the count you are
considering or that the defendant you are considering
acted knowingly and willfully, you must find that
defendant not guilty as to that count.
3. Third Element: Interstate Commerce
The third and final element that the government
must prove beyond a reasonable doubt is that the
disclosure of material, nonpublic information or
trading based on that information involved the use of
some instrumentality of interstate commerce, such as
an interstate telephone call, use of the mails, email or
use of a facility of a national securities exchange, such
as a stock or options trade A made on the NASDAQ,
the New York Stock Exchange or the International
Stock Exchange.
***
As to each tip and trade alleged in Counts 4
through 8 and 14 of the Indictment, if you find that the
government has failed to prove any element of any
count beyond a reasonable doubt as to a particular
defendant, then you must find that defendant not
guilty of that count. On the other hand, if you find that
the government has proven each element beyond a
reasonable doubt as to a particular defendant, then
you should find the defendant guilty of that count.

85a
G. Counts 9, 12 and 15: Wire Fraud (18 U.S.C.
§§ 2,1343)
Counts 9, 12 and 15 each charge certain defendants
with a substantive count of the crime of wire fraud.
Specifically:
Count 9 charges that, from at least in or about May
2012 through at least in or about July 2012, Messrs.
Blaszczak, Huber, Olan, and Worrall each participated
in a scheme to defraud CMS of confidential
information related to CMS’s proposed radiation
oncology rule by obtaining that confidential
information and then converting it to their own use
using interstate wires (for example, through the use of
cellular telephones and email communications) for the
purpose of executing securities transactions in Varian,
Elekta, and Accuray stock.
Count 12 charges that, in or about June 2012,
Messrs. Blaszczak and Worrall each participated in a
scheme to defraud CMS of confidential information
related to CMS’s internal data analysis relevant to
NxStage, among other companies, by obtaining that
information and then converting it to their own use
using interstate wires (for example, through the use of
cellular telephones and email communications) for the
purpose of executing securities transactions in
NxStage stock.
Count 15 charges that, from at least in or about
January 2013 through in or about July 2013, Messrs.
Blaszczak and Worrall each participated in a scheme
to defraud CMS of confidential information related to
CMS’s proposed kidney dialysis rule by obtaining that
information and then converting it to their own use
using interstate wires (for example, through the use of
cellular telephones and email communications) for the

86a
purpose of executing securities transactions in
Fresenius stock and ADRs.
For each of these counts, the government must
prove the following three elements:
First, the defendant you are considering employed
a device, scheme, or artifice to defraud or obtained
money or property by false pretenses, representations
or promises;
Second, the defendant you are considering acted
knowingly and willfully, with knowledge of the
fraudulent nature of the scheme and with specific
intent to defraud; and
Third, in the execution of the scheme, the
defendant you are considering used, or caused to be
used, interstate wires.
1. First Element: Device or Artifice to
Defraud
First, a device or artifice to defraud is merely a plan
to accomplish a fraudulent objective. For purposes of
the wire fraud statute, depriving another of money or
property by means of false or fraudulent pretenses,
representations, or promises includes the act of
embezzlement, which is the fraudulent appropriation
to one’s own use of the money or property entrusted to
one’s care by another.
2. Second Element: Intent
I explained in the context of Title 15 securities
fraud what it means to act knowingly and willfully,
and that earlier explanation applies here. To prove
that the defendant you are considering acted with
specific intent to defraud, the government must prove
that he acted with the intent to deprive CMS of

87a
something of value – for example, confidential
material, non-public information – by trading on the
basis of that information or converting it to his own
use by tipping it for use in trading. My prior
instructions concerning good faith apply here in
relation to whether there was a willful intent to
defraud. In this context, “material” means simply that
the information was important to CMS. “Non-public”
has the same meaning as I previously stated with
respect to Title 15 securities fraud.
3. Third Element: Use of Interstate Wires
Finally, in order to convict on each of these counts,
the government must prove beyond a reasonable doubt
that interstate or international wires (for example,
phone calls, email communications, or electronic
trades) were used in furtherance of the scheme to
defraud.
***
As to each scheme alleged in Counts 9, 12 and 15 of
the Indictment, if you find that the government has
failed to prove any element of any count beyond a
reasonable doubt as to a particular defendant, then
you must find that defendant not guilty of that count.
On the other hand, if you find that the government has
proven each element beyond a reasonable doubt as to
a particular defendant, then you should find the
defendant guilty of that count.
H. Counts 10 and 16: Title 18 Securities Fraud
(18 U.S.C. §§ 2, 1348)
Counts 10 and 16 charge each charge certain
defendants with participating in a scheme to commit
securities fraud under Title 18 of the United States
Code, The defendants accused in these counts are

88a
charged with participating in a scheme to defraud
CMS of confidential information relating to its
internal deliberations, data, and rule-making, and
converting that information to their own use in
connection with the purchase or sale of securities.
Specifically:
Count 10 charges that, from at least in or about
May 2012 through at least in or about July 2012, each
of the four defendants schemed to defraud CMS of
confidential information related to CMS’s proposed
radiation oncology rule by obtaining that information
and converting it to their own use, using cellular
telephone and email communications, for the purpose
of executing securities transactions in Varian, Elekta,
and Accuray stock.
Count 16 charges that, from at least in or about
January 2013 through in or about July 2013, Messrs.
Blaszczak and Worrall schemed to defraud CMS of
confidential information relating to CMS’s internal
data and proposed kidney dialysis rule by obtaining
that information and converting it to their own use,
using cellular telephone and email communications,
for the purpose of executing securities transactions in
Fresenius stock and ADRs.
In order to convict on these charges, the
government must prove each of the following elements
beyond a reasonable doubt:
First, that the defendant you are considering
executed a scheme to defraud a person or to obtain
money or property by materially false and fraudulent
pretenses, representations, or promises;

89a
Second, that the defendant you are considering
participated in the scheme knowingly, willfully, and
with an intent to defraud; and
Third, that the scheme to defraud was connected to
the purchase or sale of stock in a company whose
securities were registered under Section 12 of the
Securities Exchange Act of 1934 or was otherwise
required to file reports under that Act.
With respect to the first element, the government
alleges that the defendants engaged in an illegal
scheme or artifice by taking the confidential
information from CMS and transferring it to another
person for the purpose of buying or selling securities
on the basis of that information. As I explained
earlier, a device, scheme or artifice to defraud is
merely a plan to accomplish a fraudulent objective. In
the same way, a device, scheme or artifice to obtain
money or property by materially false and fraudulent
pretenses, representations, or promises, is merely a
plan to accomplish those ends. You might find that the
defendant you are considering participated in a
scheme to defraud if you find that he participated in a
scheme to embezzle or convert confidential
information from CMS by wrongfully taking that
information and transferring it to his own use, or the
use of another person. I instruct you that confidential
government information can be considered to be
“property” for purposes of Counts 10 and 16.
With respect to the second element, I explained in
the context of Title 15 securities fraud and wire fraud
what it means to act knowingly and willfully, and that
earlier explanation applies here. I explained also in
the context of wire fraud what it means to act with

90a
specific intent to defraud, and that earlier explanation
applies here.
With respect to the third element, I instruct you, as
a matter of law that each of the transactions charged
in Counts 10 and 16 are, if established beyond a
reasonable doubt, purchases or sales of securities of a
company with a class of securities registered under
Section 12 of the Securities Exchange Act of 1934.
***
As to each scheme alleged in Counts 10 and 16 of
the Indictment, if you find that the government has
failed to prove any element of any count beyond a
reasonable doubt as to a particular defendant, then
you must find that defendant not guilty of that count.
On the other hand, if you find that the government has
proven each element beyond a reasonable doubt as to
a particular defendant, then you should find the
defendant guilty of that count.
I. Conscious Avoidance
I mentioned earlier that, in some circumstances,
you may find that a defendant acted with the
necessary knowledge as to particular facts on the
theory that the defendant consciously avoided
learning those facts by deliberately closing his eyes to
what otherwise would have been clear. I mentioned
also that you could consider this theory only with
respect to specific circumstances and defendants. I
now will explain this theory of knowledge and those
circumstances and defendants to which it may be
applied.
I told you before that acts done knowingly must be
a product of a defendant’s conscious intention, not the
product of carelessness or negligence. A person,

91a
however, cannot willfully blind himself to what is
obvious and disregard what is plainly before him. A
person may not intentionally remain ignorant of facts
that are material and important to his conduct in order
to escape the consequences of criminal law.
We refer to this notion of blinding yourself to what
is staring you in the face as “conscious avoidance.”
When one consciously avoids learning a fact, the law
often treats that person as knowing that fact. An
argument of “conscious avoidance,” however, is not a
substitute for proof. It is simply another fact you may
consider in deciding what the defendant knew.
So now I will explain the circumstances in this case
in which conscious avoidance would be the legal
equivalent of actual knowledge.
With respect to the substantive crime of conversion
of government property (Counts 3, 11, 13 and 18), you
may infer that Messrs. Blasczak, Huber, or Olan, as
applicable, knew that the property at issue had been
converted – that is, the information had been used in
an unauthorized manner and in a way that seriously
interfered with the owner’s right to use and control it
– if you find that the defendant you are considering
deliberately and consciously avoided learning or
confirming that the property had been so converted.
With respect to the substantive crime of Title 15
securities fraud (Counts 4-8, and 14), you may infer
that Mr. Blasczak knew that Mr. Worrall disclosed the
information at issue in breach of a duty of trust and
confidence if you find that Mr. Blaszczak deliberately
and consciously avoided learning or confirming that
fact.

92a
In addition, with respect to the substantive crime
of Title 15 securities fraud (Counts 4-8), you may infer
that Messrs. Huber or Olan, as the case may be, knew
that material, non-public information that he received
from Mr. Blaszczak, if any, was disclosed to Mr.
Blaszczak by someone who owed a duty to keep that
information confidential if you find that Messrs.
Huber or Olan, as applicable, deliberately and
consciously avoided learning or confirming that fact.
In other words, for the circumstances and
defendants listed above, if you find that the defendant
you are considering was aware of a high probability
that a fact enumerated was so, and that the defendant
you are considering deliberately avoided learning or
confirming that fact, you may find that such defendant
acted knowingly. However, if you find that the
defendant actually believed the fact was not so, then
he did not act knowingly with respect to whatever
charge you are considering.
I note that you may consider this theory of
conscious avoidance only with respect to whether a
defendant is guilty as a principal, not as an aider or
abettor. Finally, please keep in mind that the
conscious avoidance theory does not apply to Mr.
Worrall.
J. Aiding and Abetting (18 U.S.C. § 2)
That concludes my instructions on the
government’s burden of proof with respect to the first
of the two theories of liability in respect of each
substantive count charged in the Indictment. If you
all agree that the government has proved a defendant
guilty as a principal beyond a reasonable doubt on any
substantive count in which that defendant is charged,
you need not consider the second theory of liability as

93a
to that count. But if you do not convict a defendant as
a principal on any of these counts, you then will
consider whether the government has proved that
defendant guilty on each such count on the second
theory, which is called aiding and abetting.
As I explained earlier, in addition to charging the
defendants as principals with the substantive crimes
of conversion of government property, securities fraud
under Title 15 and Title 18, and wire fraud – in other
words, all of the substantive crimes I have instructed
you on today – the Indictment charges that each
defendant is guilty on the ground that he aided and
abetted another person in committing the crime. I will
explain this second theory in greater detail now.
It is unlawful for a person to aid, abet, counsel,
command, induce, or procure another to commit an
offense. A person who does so is just as guilty of the
offense as someone who actually commits it.
Accordingly, you may find a defendant guilty of any of
the substantive counts in the Indictment if you find
that the government has proved beyond a reasonable
doubt that another person actually committed the
crime and that the defendant you are considering
aided, abetted, counseled, commanded, induced, or
procured the commission of that crime.
In order to convict the defendant as an aider and
abettor, the government must prove beyond a
reasonable doubt two elements.
First, it must prove that a person other than the
defendant you are considering, and other than a
person he caused to do so, committed the crime
charged. Obviously, no one can be convicted of aiding
or abetting the criminal acts of another person if no
crime was committed by the other person in the first

94a
place. Accordingly, if the government has not proved
beyond a reasonable doubt that a person other than
the defendant committed the substantive crimes
charged in the Indictment, then you need not consider
the second element under this theory. But if you do
find that a crime was committed by someone other
than the defendant you are considering, or someone he
caused to commit the crime, then you must consider
whether the defendant you are considering aided or
abetted the commission of that crime.
Second, in order to convict on an aiding and
abetting theory, the government must prove that the
defendant you are considering willfully and knowingly
associated himself in some way with the crime, and
that he willfully and knowingly engaged in some
affirmative conduct or some overt act for the specific
purpose of bringing about that crime. Participation in
a crime is willful if done voluntarily and intentionally,
and with the specific intent to do something which the
law forbids.
The mere presence of the defendant you are
considering in a place where a crime is being
committed, even coupled with knowledge that a crime
is being committed, is not enough to make him an
aider and abettor. A defendant’s acquiescence in the
criminal conduct of others, even with guilty
knowledge, is not enough to establish aiding and
abetting. An aider and abettor must know that the
crime is being committed and act in a way which is
intended to bring about the success of the criminal
venture.
To determine whether the defendant you are
considering aided and abetted the commission of the
crime, ask yourself these questions:

95a
Did the defendant you are considering participate
in the crime charged as something that he wished to
bring about?
Did he knowingly associate himself with the
criminal venture?
Did he seek by his actions to make the criminal
venture succeed?
If he did, then the defendant is an aider and
abettor. If, on the other hand, your answer to any one
of these questions is “no,” then the defendant is not an
aider and abettor.
Now, I understand that, depending on your view of
the evidence, there may be a subtle distinction with
respect to whether the defendant is guilty, if at all, as
a principal or an aider and abettor. The question is
what is the difference between a defendant causing
someone else to commit a crime as opposed to aiding
and abetting someone else to do so.
If this question comes up in your deliberations, you
should think of it in terms of the difference between
causing someone to do something versus facilitating or
helping someone to do it. If you are persuaded beyond
a reasonable doubt that the defendant you are
considering caused someone else to commit one or
more of the substantive crimes charged in the
Indictment, you should convict him as a principal. If,
on the other hand, you are persuaded beyond a
reasonable doubt that the defendant you are
considering, with the knowledge and intent that I
described, sought by his actions to facilitate or assist
that other person in committing the crime, then he is
guilty as an aider and abettor.

96a
If you find beyond a reasonable doubt that the
government has proven that another person actually
committed one or more of the substantive crimes
charged in the Indictment and that the defendant you
are considering aided or abetted that person in the
commission of the offense, you should find the
defendant guilty of that substantive crime on an
aiding and abetting theory. If, however, you do not so
find, you should find the defendant you are considering
not guilty on that substantive crime.
K. Count
1:
Conspiracy
to
Convert
Government Property, Commit Title 15
Securities Fraud, and Defraud the United
States (18 U.S.C. § 371)
Earlier in these instructions, I explained to you
that a conspiracy to commit a crime is a separate and
different offense from the substantive crime which
may have been the object of the conspiracy. Now that
I have discussed the substantive counts charged in the
Indictment, I will discuss the elements of the
conspiracy counts.
Count 1 charges all four defendants with
conspiracy to convert government property and Title
15 securities fraud – two crimes I have just described
to you – as well as conspiracy to defraud the United
States, which I will address momentarily.
In order to sustain its burden of proof with respect
to the conspiracy charged in Count 1, the government
must prove beyond a reasonable doubt each of the
following three elements:
First, an agreement or understanding to
accomplish at least one of the unlawful objectives
alleged in the Indictment to have existed;

97a
Second, that the defendant you are considering
knowingly and willfully became a member of, and
joined in, the conspiracy; and
Third, that at least one of the co-conspirators
committed an overt act in furtherance of the
conspiracy.
1. First
Element:
Understanding

Agreement

or

a. Existence of an Agreement
Starting with the first element, a conspiracy is a
combination, an agreement or an understanding of two
or more people to accomplish by concerted action a
criminal or unlawful purpose. In this instance, Count
1 charges that there was an agreement or
understanding to accomplish three unlawful
objectives. I will describe these objectives in more
detail in a moment. To establish a conspiracy, the
government is not required to show that two or more
persons sat around a table and entered into a solemn
compact stating that they have formed a conspiracy to
violate the law and setting forth details of the plans
and the means by which the unlawful project is to be
carried out or the part to be played by each
conspirator. It is sufficient if two or more persons
come to a common understanding to violate the law.
In determining whether there has been an
unlawful agreement, you may judge acts and conduct
of the alleged co-conspirators that are done to carry out
an apparent criminal purpose.
In short, the government must prove beyond a
reasonable doubt that at least two alleged conspirators
came to a mutual understanding, either spoken or

98a
unspoken, to violate the law in the manner charged in
the Indictment.
b. Objects of the Conspiracy
The objects of a conspiracy are the illegal goals the
co-conspirators agree or hope to achieve. In this case,
the unlawful objects of the conspiracy charged in
Count 1 are alleged to have been (1) the conversion of
confidential information from CMS; (2) Title 15
securities fraud, specifically insider trading on the
basis of material, non-public information relating to
CMS’s internal deliberations regarding coverage and
reimbursement decisions; and (3) the defrauding of the
United States or an agency thereof by obtaining
confidential information about CMS’s internal
deliberations in advance of the agency’s rulemaking
decisions, thereby impairing, impeding, and
obstructing the governmental functions and
operations of CMS.
I previously instructed you on the elements of the
conversion of government property and Title 15
securities fraud. You should apply those definitions
here in considering whether the government has
proved beyond a reasonable doubt that the conspiracy
charged in this Count 1 existed.
I have not yet instructed you on the crime of
defrauding the United States. A conspiracy to defraud
the United States need not involve cheating the
government out of money or property. The statute
reaches also conspiracies to interfere with or obstruct
any lawful governmental function by fraud, deceit or
any dishonest means.
I instruct you that CMS is an agency of the United
States government. The term “conspiracy to defraud

99a
the United States” in this Indictment therefore means
that the defendants and their alleged co-conspirators
are accused of conspiring to impede, impair, obstruct
or defeat, by fraudulent or dishonest means, the lawful
functions of CMS to design and promulgate rules
pertaining to Medicare reimbursement rates.
It is not necessary that the government or CMS
actually suffer a financial loss from a scheme. Nor is
it necessary that you find that the conspirators’
conduct in any particular instance actually was
scrutinized by CMS. A conspiracy to defraud exists
when there is an agreement to impede, impair,
obstruct or defeat in any fraudulent or dishonest
manner the lawful functions of CMS. Where, however,
there is an agreement to impede, impair, obstruct or
defeat the lawful functions of CMS by fraudulent or
dishonest means, the first element is satisfied
regardless of whether the particular means of doing so
are or are not unlawful in and of themselves.
In considering the objects of the alleged conspiracy,
you should keep in mind that you need not find that
the conspirators agreed to accomplish all three of these
alleged goals. An agreement to accomplish any of the
three objects is sufficient. If the government fails to
prove that the defendant you are considering was
party to a conspiracy that had at least one of the three
objects as an objective, then you must find the
defendant you are considering not guilty on this Count
1. However, if you unanimously find beyond a
reasonable doubt that the conspirators agreed to
accomplish any of the three objects charged in Count 1
of the Indictment, the illegal purpose element will be
satisfied. You must be unanimous as to at least one of
the three alleged objectives of the conspiracy to find
that this element is satisfied.

100a
It is not necessary for you to find that the
agreement was ever expressed orally or in writing, but
the government does have to prove that there was a
mutual understanding between at least two people.
The adage “actions speak louder than words” is
applicable here. Usually, the only evidence available
with respect to the existence of a conspiracy is that of
disconnected acts on the part of the alleged individual
coconspirators. When taken together and considered
as a whole, however, such acts may show a conspiracy
or agreement as conclusively as would direct proof.
The Indictment charges that the conspiracy
charged in Count 1 lasted from at least in or about
2009 through at least in or about 2014. It is not
necessary for the government to prove that the
conspiracy lasted throughout the entire period alleged,
but only that it existed for some period within that
time frame.
2. Second Element: Membership in a
Conspiracy
If you conclude that the government has proven
beyond a reasonable doubt that the conspiracy charged
in Count 1 existed and that the conspiracy had as an
object at least one of the objects charged in the
Indictment, you next must determine whether the
defendant you are considering willfully joined and
participated in the conspiracy, knowing at least one of
its unlawful purposes and to further at least one of its
unlawful objectives. The government must prove by
evidence of each defendant’s own actions and conduct
beyond a reasonable doubt that he unlawfully,
willfully, and knowingly entered into the conspiracy.
The term “knowingly” means that you must be
satisfied beyond a reasonable doubt that in joining the

101a
conspiracy (if you find that a defendant did join the
conspiracy), the defendant knew what he was doing.
An act is done “knowingly” if it is done deliberately and
purposefully; that is, the defendant’s act must have
been the product of the defendant’s conscious decision
rather than the product of mistake or accident or some
other innocent reason.
“Unlawful” simply means contrary to law. In order
to know of an unlawful purpose, a defendant need not
have known that he was breaking any particular law
or any particular rule. He needs to have been aware
only of the generally unlawful nature of his acts.
“Wilfully” means to act with the specific level of
intent that I already have explained to you in the
discussion of the substantive counts. In other words,
an act is done “willfully” if it is done voluntarily and in
intentional violation of a known legal duty.
To have guilty knowledge, a defendant need not
have known the full extent of the conspiracy or all of
its activities or all of its participants. In fact, a
defendant may know only one other member of the
conspiracy and still be a co-conspirator. The defendant
need not have joined the conspiracy at the outset.
Each member of a conspiracy may perform separate
and distinct acts and may perform them at different
times.
I want to caution you, however, that the mere
association by one person with another does not make
that person a member of the conspiracy. A person may
know, or be friendly with, a criminal, without being a
criminal himself. Mere presence at the scene of a
crime, even with knowledge that a crime is taking
place, is not sufficient to support a conviction.
Moreover, the fact that the acts of a defendant, without

102a
knowledge, merely happen to further the purposes or
objectives of the conspiracy, does not make the
defendant a member.
A conspiracy, once formed, is presumed to continue
until either its objectives are accomplished or there is
some affirmative act of termination by its members.
So, too, once a person is found to be a member of a
conspiracy, that person is presumed to continue being
a member in the venture until the venture is
terminated, unless it is shown by some affirmative
proof that the person withdrew and disassociated
himself from it.
In addition, if you find beyond a reasonable doubt
that a defendant intentionally participated in the
alleged conspiracy, but deliberately and consciously
avoided learning or confirming the specific objectives
of the conspiracy, then you may infer from the
defendant’s willful and deliberate avoidance of
knowledge that the defendant understood the
objectives or goals of the conspiracy.
I caution you that there is a difference between
knowingly participating in a conspiracy, on the one
hand, and knowing the object or objects of the
conspiracy on the other. Conscious avoidance cannot
be used as a substitute for finding that the defendant
knowingly joined a conspiracy, that is, that a
defendant knew that he was becoming a party to an
agreement to accomplish an alleged illegal purpose. It
is, in fact, logically impossible for a defendant to join a
conspiracy unless he knows the conspiracy exists. The
defendant must know that the conspiracy is there.
However, in deciding whether a defendant knew
the objectives of a conspiracy, you may consider
whether the defendant was aware of a high probability

103a
that an objective of the conspiracy was to commit the
crime or crimes charged as an object of the conspiracy
and nevertheless participated in the conspiracy. You
must judge from all the circumstances and all the proof
whether the government did or did not satisfy its
burden of proof beyond a reasonable doubt.
3. Third Element: Overt Act
The third element that the government must prove
beyond a reasonable doubt to establish the offense of
conspiracy is that at least one of the conspirators, not
necessarily one of the defendants, committed at least
one overt act in furtherance of the conspiracy. In other
words, there must have been something more than an
agreement – some overt step or action must have been
taken by at least one of the conspirators in furtherance
of the conspiracy. The overt act element, to put it
another way, is a requirement that the agreement w/
respect to count I went beyond the mere talking stage,
the mere agreement stage.
The government may satisfy the overt act element
by proving one of the overt acts alleged in the
Indictment, but it is not required to prove any of those
particular overt acts. It is enough if the government
proves that at least one overt act was committed in
furtherance of the conspiracy. However, you all must
agree on at least one overt act that a conspirator
committed in order to satisfy this element. In other
words, it is not sufficient for you to agree that some
overt act was committed without agreeing on which
overt act was committed.
Similarly, it is not necessary for the government to
prove that each member of the conspiracy committed
or participated in an overt act. It is sufficient if you
find that at least one overt act was in fact performed

104a
by at least one conspirator, whether by the defendant
you are considering or by another co-conspirator, to
further the conspiracy within the time frame of the
conspiracy. Remember, the act of any one of the
members of a conspiracy, done in furtherance of the
conspiracy, becomes the act of all the other members.
To be a member of the conspiracy, it is not necessary
for a defendant to commit an overt act.
In addition, an overt act alleged in the Indictment
need not have been committed at precisely the time
alleged in the Indictment. It is sufficient if you are
convinced beyond a reasonable doubt that it occurred
at or about the time and place stated.
The overt act must have been knowingly done by at
least one conspirator in furtherance of one of the
objects of the conspiracy, as charged in the Indictment.
In this regard, you should bear in mind that the overt
act, standing alone, may be an innocent, lawful act.
Frequently, however, an apparently innocent act
sheds its harmless character if it is a step in carrying
out, promoting, aiding, or assisting the conspiratorial
scheme. You therefore are instructed that the overt
act does not have to have been an act which in and of
itself is criminal or constitutes an objective of the
conspiracy.
***
In sum, for each defendant, if you find that the
government has met its burden on all three elements,
then you should find that defendant guilty on Count 1.
If you find that the government has not met its burden
with respect to any of the three elements as to the
defendant you are considering, then you should find
that defendant not guilty on Count 1.

105a
L. Count
17:
Conspiracy
to
Convert
Government Property and Defraud the
United States (18 U.S.C. § 371)
Count 17 charges Mr. Blaszczak with conspiring with
Christopher Plaford, among others, to defraud the
United States and convert government property. This
count relates toMr. Blaszczak’s relationship with
Visium Asset Management. The Indictment charges
that the conspiracy alleged in Count 17 lasted from in
or about 2011 through in or about 2013. Again, it is
not necessary for the government to prove that the
conspiracy lasted throughout the entire period alleged,
but only that it existed for some period within that
time frame.
I have already instructed you on the elements of a
conspiracy charge in respect of Count 1. The elements
of the conspiracy charged in this Count 17 are the
same as those charged in Count 1 except that the
objects of the conspiracy charged in this Count 17 are
different.
The unlawful objects of the conspiracy with which
Mr. Blaszczak is charged in Count 17 are alleged to
have been (1) the defrauding of the United States or
an agency thereof by obtaining confidential
information about CMS’s internal deliberations in
advance of the agency’s rulemaking decisions, thereby
impairing, impeding, and obstructing the lawful and
legitimate governmental functions and operations of
CMS; and (2) the conversion of confidential
information from CMS.
I previously instructed you on the crimes of
defrauding the United States and converting
government property.
You should apply those
definitions here in considering whether the

106a
government has proved beyond a reasonable doubt
that the conspiracy charged in this Count 17 existed.
***
If you find that the government has met its burden
on all three elements, then you should find Mr.
Blaszczak guilty on Count 17. If you find that the
government has not met its burden with respect to any
of the three elements, then you should find Mr.
Blaszczak not guilty on Count 17.
M. Count 2: Conspiracy to Commit Wire
Fraud and Title 18 Securities Fraud (18
U.S.C. § 1349)
I now turn to Count 2, which charges all four
defendants with conspiracy to commit wire fraud and
Title 18 securities fraud. The Indictment charges that
the conspiracy alleged in Count 2 lasted from at least
in or about 2009 through at least in or about 2014.
Again, is not necessary for the government to prove
that the conspiracy lasted throughout the entire period
alleged, but only that it existed for some period within
that time frame. For this count, the government must
prove the following two elements beyond a reasonable
doubt:
First, that the charged conspiracy existed; and
Second, that the defendant intentionally joined and
participated in this conspiracy during the applicable
time period.
In considering Count 2, you should apply my
previous instructions with respect to the first two
elements of the conspiracies charged in each of Counts
1 and 17 in every respect but one. The government
does not need to prove beyond a reasonable doubt the

107a
occurrence of any overt act with respect to the alleged
conspiracy in this Count 2 – that is, a conspiracy to
commit wire fraud and Title 18 securities fraud.
In addition, the objects of the conspiracy alleged in
this Count 2 are different from the objects in the
conspiracies charged in Counts 1 and 17.
The unlawful objects of the conspiracy with which
the four defendants are charged in Count 2 are wire
fraud and Title 18 securities fraud. Specifically, the
wire fraud scheme that is alleged to be an object of the
conspiracy charged in Count 2 is the use of the
interstate or international wires (for example, through
phone calls, e-mail communications, or electronic
trades) in furtherance of a scheme to defraud CMS of
confidential information. The Title 18 securities fraud
scheme that is alleged to be an object of the conspiracy
charged in Count 2 is the defrauding of CMS of
confidential information relating to its internal
deliberations, data, and rule-making, and converting
that information to their own use in connection with
the purchase or sale of securities.
I previously explained the elements of each of these
objects. You should apply those definitions here in
considering whether the government has proved
beyond a reasonable doubt each of the elements of this
offense as to each defendant.
***
For each defendant, if you find that the government
has met its burden on both elements, then you should
find that defendant guilty on Count 2. If you find that
the government has not met its burden with respect to
either of the two elements as to the defendant you are

108a
considering, then you should find that defendant not
guilty on Count 2.
[* * *]

